<html>
<title> - SUPERCOMPUTING: IS THE U.S. ON THE RIGHT PATH?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      SUPERCOMPUTING: IS THE U.S.
                           ON THE RIGHT PATH?

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2003

                               __________

                           Serial No. 108-21

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

88-231              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                             July 16, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    14
    Written Statement............................................    15

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    15
    Written Statement............................................    16

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    17

                               Witnesses:

Dr. Raymond L. Orbach, Director, Office of Science, Department of 
  Energy
    Oral Statement...............................................    19
    Written Statement............................................    20
    Biography....................................................    27

Dr. Peter A. Freeman, Assistant Director, Computer and 
  Information Science and Engineering Directorate, National 
  Science Foundation
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    33

Dr. Daniel A. Reed, Director, National Center for Supercomputing 
  Applications, University of Illinois at Urbana-Champaign
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    41
    Financial Disclosure.........................................    42

Mr. Vincent F. Scarafino, Manager, Numerically Intensive 
  Computing, Ford Motor Company
    Oral Statement...............................................    44
    Written Statement............................................    45
    Biography....................................................    47
    Financial Disclosure.........................................    48

Discussion.......................................................    49

             Appendix 1: Answers to Post-Hearing Questions

Dr. Raymond L. Orbach, Director, Office of Science, Department of 
  Energy.........................................................    76

Dr. Peter A. Freeman, Assistant Director, Computer and 
  Information Science and Engineering Directorate, National 
  Science Foundation.............................................    79

Dr. Daniel A. Reed, Director, National Center for Supercomputing 
  Applications, University of Illinois at Urbana-Champaign.......    87

             Appendix 2: Additional Material for the Record

Dr. Raymond L. Orbach, insert concerning Japan's role in 
  nanotechnology as it relates to supercomputing.................    92

 
             SUPERCOMPUTING: IS THE U.S. ON THE RIGHT PATH?

                              ----------                              


                        WEDNESDAY, JULY 16, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:21 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Supercomputing: Is the U.S.

                           on the Right Path?

                        WEDNESDAY, JULY 16, 2003
                         10:00 A.M.-12:00 P.M.
                   2318 RAYBURN HOUSE OFFICE BUILDING

1. Purpose

    On Wednesday, July 16, 2003, the House Science Committee will hold 
a hearing to examine whether the United States is losing ground to 
foreign competitors in the production and use of supercomputers\1\ and 
whether federal agencies' proposed paths for advancing our 
supercomputing capabilities are adequate to maintain or regain the U.S. 
lead.
---------------------------------------------------------------------------
    \1\ Supercomputing is also referred to as high-performance 
computing, high-end computing, and sometimes advanced scientific 
computing.
---------------------------------------------------------------------------

2. Witnesses

Dr. Raymond L. Orbach is the Director of the Office of Science at the 
Department of Energy. Prior to joining the Department, Dr. Orbach was 
Chancellor of the University of California at Riverside.

Dr. Peter A. Freeman is Assistant Director for the Computer and 
Information Science and Engineering Directorate (CISE) at the National 
Science Foundation (NSF). Prior to joining NSF in 2002, he was 
professor and founding Dean of the College of Computing at Georgia 
Institute of Technology.

Dr. Daniel A. Reed is the Director of the National Center for 
Supercomputing Applications (NCSA) at the University of Illinois at 
Urbana-Champaign. NCSA is the leader of one of NSF's two university-
based centers for high-performance computing. Dr. Reed is also the 
Director of the National Computational Science Alliance and is a 
principal investigator in the National Science Foundation's TeraGrid 
project. Earlier this year, Dr. Reed was appointed to the President's 
Information Technology Advisory Committee (PITAC).

Mr. Vincent Scarafino is the Manager of Numerically Intensive Computing 
at Ford Motor Company, where he focuses on providing flexible and 
reliable supercomputer resources for Ford's vehicle product 
development, including vehicle design and safety analysis.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1. Is the U.S. losing its leadership position in 
        supercomputing? Do the available supercomputers allow United 
        States science and industry to be competitive internationally? 
        Are federal efforts appropriately targeted to deal with this 
        challenge?

        2. Are federal agencies pursuing conflicting supercomputing 
        programs? What can be done to ensure that federal agencies 
        pursue a coordinated policy for providing supercomputing to 
        meet the future needs for science, industry, and national 
        defense?

        3. Is the National Science Foundation moving away from the 
        policies and programs that in the past have provided broad 
        national access to advanced supercomputers?

        4. Can the U.S. fulfill its scientific and defense 
        supercomputing needs if it continues to rely on machines 
        designed for mass-market commercial applications?

4. Brief Overview

        <bullet> High-performance computers (also called 
        supercomputers) are an essential component of U.S. scientific, 
        industrial, and military competitiveness. However, the fastest 
        and most efficient supercomputer in the world today is in 
        Japan, not the U.S. Some experts claim that Japan was able to 
        produce a computer so far ahead of the American machines 
        because the U.S. had taken an overly cautious or conventional 
        approach for developing new high-performance computing 
        capabilities.

        <bullet> Users of high-performance computing are spread 
        throughout government, industry, and academia, and different 
        high-performance computing applications are better suited to 
        different types of machines. As the U.S. works to develop new 
        high-performance computing capabilities, extraordinary 
        coordination among agencies and between government and industry 
        will be required to ensure that creative new capabilities are 
        developed efficiently and that all of the scientific, 
        governmental, and industrial users have access to the high-
        performance computing hardware and software best suited to 
        their applications.

        <bullet> The National Science Foundation (NSF) currently 
        provides support for three supercomputing centers: the San 
        Diego Supercomputer Center, the National Center for 
        Supercomputing Applications at Urbana-Champaign in Illinois, 
        and the Pittsburgh Supercomputing Center. These centers, along 
        with their partners at other universities, are the primary 
        source of high-performance computing for researchers in many 
        fields of science. Currently, support for these centers beyond 
        fiscal year 2004 is uncertain, and in the past few years NSF 
        has been increasing its investment in a nationwide computing 
        grid, in which fast connections are built between many 
        computers to allow for certain types of high-performance 
        scientific computing and advanced communications and data 
        management. It is not clear whether this ``grid computing'' 
        approach will provide the high-performance computing 
        capabilities needed in all the scientific fields that currently 
        rely on the NSF supercomputing centers.

        <bullet> At the Department of Energy, there are two programs 
        aimed at advancing high-performance computing capabilities. 
        One, in the National Nuclear Security Administration (NNSA), is 
        the continuation of a long-term effort to provide 
        supercomputers to be used for modeling nuclear weapons effects; 
        these simulations are particularly important in light of 
        existing bans on nuclear weapon testing. In the other program, 
        the Office of Science is now proposing to supplement its 
        current advanced scientific computing activities with a new 
        effort designed to create the world's fastest supercomputers.

5. Current Issues

Is the U.S. Competitive?
    Japan's Earth Simulator is designed to perform simulations of the 
global environment that allow researchers to study scientific questions 
related to climate, weather, and earthquakes. It was built by NEC for 
the Japanese government at a cost of at least $350 million and has been 
the fastest computer in the world since it began running in March 2002. 
When the first measures of its speed were performed in April 2002, 
researchers determined that the Earth Simulator was almost five times 
faster than the former record holder, the ASCI White System at Lawrence 
Livermore National Laboratory, and also used the machine's computing 
power significantly more efficiently.\2\
---------------------------------------------------------------------------
    \2\ For the U.S. supercomputers, typical scientific applications 
usually only are able to utilize 5-10 percent of the theoretical 
maximum computing power, while the design of the Earth Simulator makes 
30-50 percent of its power accessible to the majority of typical 
scientific applications.
---------------------------------------------------------------------------
    This new development caused a great deal of soul-searching in the 
high-performance computing community about the U.S. approach to 
developing new capabilities and the emphasis on using commercially 
available (not specialized or custom-made) components. Going forward, 
it is not clear whether or not such a commodity-based approach will 
allow the U.S. high-performance computing industry to remain 
competitive. It is also unclear if the new machines produced by this 
approach will be able provide American academic, industrial, and 
governmental users with the high-performance computing capabilities 
they need to remain the best in the world in all critical applications.
Will All Users Be Served?
    Users of high-performance computing are spread throughout 
government, industry, and academia. Different high-performance 
computing applications are better suited to different types of 
machines. For example, weather modeling and simulations of nuclear 
weapons require many closely-related calculations, so machines for 
these applications must have components that communicate with each 
other quickly and often. Other applications, such as simulations of how 
proteins fold, can be efficiently performed with a more distributed 
approach on machines in which each component tackles a small piece of 
the problem and works in relative isolation. In the U.S., the major 
producers of high-performance computers include IBM, Hewlett-Packard, 
and Silicon Graphics, Inc., whose products lean toward the more 
distributed approach, and Cray, whose products are more suited to 
problems that require the performance of closely-related calculations. 
The Japanese (NEC, Fujitsu, and Hitachi), also produce this sort of 
machine. The concern is that the U.S. on the whole has moved away from 
developing and manufacturing the machines needed for problems with 
closely-related calculations because the more distributed machines have 
a bigger commercial market. The Japanese have been filling this gap, 
but the gap could still impact the access of American scientists to the 
types of supercomputers that they need for certain important research 
problems.
    Responsibility for providing high-performance computing 
capabilities to existing users and for developing new capabilities is 
distributed among 11 different federal agencies and offices and relies 
heavily on industry for development and production. In this 
environment, extraordinary amounts of coordination are needed to ensure 
that new capabilities are developed efficiently and that the most 
appropriate kinds of hardware and software are available to the 
relevant users--coordination among agencies and between government and 
industry, as well as cooperation among universities and hardware and 
software companies. The results of an ongoing interagency effort to 
produce a coherent high-performance computing roadmap and the influence 
this roadmap has on agencies' programs will be the first test.
Where are the DOE Office of Science and the NSF Programs Headed?
    Both NSF and the DOE Office of Science are moving ahead in 
significant new directions. At NSF, no plans have been announced to 
continue the Partnerships for Advanced Computational Infrastructure 
program, which supports the supercomputer centers, beyond fiscal year 
2004. In addition, a proposed reorganization of NSF's Computer and 
Information Sciences and Engineering Directorate was announced on July 
9 that includes a merging of the Advanced Computational Infrastructure 
program (which includes the support for the supercomputer centers) and 
the Advanced Networking Infrastructure program (which supports efforts 
on grid computing--an alternative approach to high-performance 
computing). Some scientists have expressed concerns that NSF may be 
reducing its commitment to providing researchers with a broad range of 
supercomputing capabilities and instead focusing its attention on grid 
computing and other distributed approaches.
    For the DOE Office of Science, the fiscal year 2004 budget request 
proposes a new effort in next-generation computer architecture to 
identify and address major bottlenecks in the performance of existing 
and planned DOE science applications. In addition, the July 8 mark-up 
of the House Energy and Water Development Appropriations Subcommittee 
sets funding for the Advanced Scientific Computing Research initiative 
at $213.5 million, an increase of $40 million over the request and $46 
million over the previous year. Decisions about the future directions 
for high-performance computing at NSF and DOE Office of Science are 
clearly being made now.
    The White House has an interagency effort underway, the High End 
Computing Revitalization Task Force (HECRTF), which is supposed to 
result in the agencies' submitting coordinated budget requests in this 
area for fiscal year 2005.

6. Background

What is High-Performance Computing? High-performance computing--also 
called supercomputing, high-end computing, and sometimes advanced 
scientific computing--is a phrase used to describe machines or groups 
of machines that can perform very complex computations very quickly. 
These machines are used to solve complicated and challenging scientific 
and engineering problems or manage large amounts of data. There is no 
set definition of how fast a computer must be to be ``high-
performance'' or ``super,'' as the relevant technologies improve so 
quickly that the high-performance computing achievements of a few years 
ago could be handled now by today's desktops. Currently, the fastest 
supercomputers are able to perform trillions of calculations per 
second.

What is High-Performance Computing Used For? High-performance computing 
is needed for a variety of scientific, industrial, and national defense 
applications. Most often, these machines are used to simulate a 
physical system that is difficult to study experimentally. The goal can 
be to use the simulation as an alternative to actual experiments (e.g., 
for nuclear weapon testing and climate modeling), as a way to test our 
understanding of a system (e.g., for particle physics and 
astrophysics), or as a way to increase the efficiency of future 
experiments or product design processes (e.g., for development of new 
industrial materials or fusion reactors). Other major uses for 
supercomputers include performing massive complex mathematical 
calculations (e.g., for cryptanalysis) or managing massive amounts of 
data (e.g., for government personnel databases).

        Scientific Applications: There are a rich variety of 
        scientific problems being tackled using high-performance 
        computing. Large-scale climate modeling is used to examine 
        possible causes and future scenarios related to global warming. 
        In biology and biomedical sciences, researchers perform 
        simulations of protein structure, folding, and interaction 
        dynamics and also model blood flows. Astrophysics model planet 
        formation and supernova, and cosmologists analyze data on light 
        from the early universe. Particle physicists use the ultra-fast 
        computers to perform the complex calculations needed to study 
        quantum chromodynamics and improve our understanding of 
        electrons and quarks, the basic building blocks of all matter. 
        Geologists model the stresses within the earth to study plate 
        tectonics, while civil engineers simulate the impact of 
        earthquakes.

        National Defense Applications: There are a number of ways in 
        which high-performance computing is used for national defense 
        applications. The National Security Agency (NSA) is a major 
        user and developer of high-performance computers for executing 
        specialized tasks relevant to cryptanalysis (such as factoring 
        large numbers). The Department of Energy's National Nuclear 
        Security Administration is also a major user and developer of 
        machines to be used for designing and modeling nuclear weapons. 
        Other applications within the Department of Defense include 
        armor penetration modeling, weather forecasting, and 
        aerodynamics modeling. Many of the scientific applications also 
        have direct or future defense applications. For example, 
        computational fluid dynamics studies are also of interest to 
        the military, e.g. for modeling turbulence around aircraft. The 
        importance of high-performance computing in many military 
        areas, including nuclear and conventional weapons design, means 
        that machines that alone or when wired together are capable of 
        superior performance at military tasks are subject to U.S. 
        export controls.

        Industrial Applications: Companies use high-performance 
        computing in a variety of ways. The automotive industry uses 
        fast machines to maximize the effectiveness of computer-aided 
        design and engineering. Pixar uses massive computer animation 
        programs to produce films. Pharmaceutical companies simulate 
        chemical interactions to help with drug design. The commercial 
        satellite industry needs to manage huge amounts of data for 
        mapping. Financial companies and other industries use large 
        computers to process immense and unpredictable Web transaction 
        volumes, mine databases for sales patterns or fraud, and 
        measure the risk of complex investment portfolios.

What Types of High-Performance Computers Are There? All of the above 
examples of high-performance computing applications require very fast 
machines, but they do not all require the same type of very fast 
machine. There are a number of different ways to build high-performance 
computers, and different configurations are better suited to different 
problems. There are many possible configurations, but they can be 
roughly divided into two classes: big, single-location machines and 
distributed collections of many computers (this approach is often 
called grid computing). Each approach has its benefits--the big 
machines can be designed for a specific problem and are often faster, 
while grid computing is attractive in part because by using a multitude 
of commercially-available computers, the purchase and storage cost is 
often lower than for a large specialized supercomputer.
    Since the late 1990's, the U.S. approach to developing new 
capabilities has emphasized using commercially available (not 
specialized) components as much as possible. This emphasis has resulted 
in an increased focus on grid computing, and, in large machines, has 
led to a hybrid approach in which companies use commercial processors 
(whose speed is increasing rapidly anyway) to build the machines and 
then further speed them up by increasing the number of processors and 
improving the speed at which information is passed between processors. 
There are a number of distinctions that can be made among large 
machines bases on how the processors are connected. The differences 
relate to how fast and how often the various components of the computer 
communicate with each other and how calculations are distributed among 
the components.
    Users thus have a number of options for high-performance computing. 
Each user must take into account all of the pros and cons of the 
different configurations when he is deciding what sort of machine to 
use and how to design software to allow that machine to most 
efficiently solve his problem. For example, some problems, like weather 
and climate modeling and cryptanalysis, require lots of communication 
among computer components and large quantities of stored data, while 
other applications, like large-scale data analysis for high energy 
physics experiments or bioinformatics projects, can be more efficiently 
performed on distributed machines each tackling its own piece of the 
problem in relative isolation.

How Do Government and Industry Provide Existing and New High-
Performance Computing Capabilities? The development and production of 
high-performance computing capabilities requires significant effort by 
both government and industry. For any of the applications of high-
performance computing described above, the users need good hardware 
(the high-performance machine or group of machines) and good software 
(programs that allow them to perform their calculations as accurately 
and efficiently as possible).
    The role of government therefore includes (1) funding research on 
new approaches to building high-performance computing hardware, (2) in 
some cases, funding the development stage of that hardware (usually 
through security agencies), (3) purchasing the hardware to be used by 
researchers at universities and personnel at government agencies, (4) 
funding research on software and programs to use existing and new high-
performance computing capabilities, and (5) supporting research that 
actually uses the hardware and software. The role of industry is 
complementary--i.e., it receives funding to do research and development 
on new hardware and software, and it is the seller of this hardware and 
software to government agencies, universities, and companies. The 
primary industries involved in producing high-performance computing 
capabilities are computer makers (such as IBM, Hewlett-Packard, Silicon 
Graphics, Inc., and Cray), chip makers (such as Intel), and software 
designers. Congress has long had concerns about the health of the U.S. 
supercomputing industry. In 1996, when the National Center for 
Atmospheric Research, a privately-run, federally-funded research 
center, tried to order a supercomputer from NEC for climate modeling, 
Congress blocked the purchase.

Federal High-Performance Computing Programs: In 1991, Congress passed 
the High Performance Computing Act, establishing an interagency 
initiative (now called National Information Technology Research and 
Development (NITRD) programs) and a National Coordination Office for 
this effort. Currently 11 agencies or offices participate in the high-
end computing elements of the NITRD program (See Table 1 in the 
appendix). The total requested by all 11 agencies in fiscal year 2003 
for high-end computing was $846.5 million. The largest research and 
development programs are at the National Science Foundation (NSF), 
which requested $283.5 million, and the Department of Energy Office of 
Science, which requested $137.8 million. Other major agency activities 
(all between $80 and $100 million) are at the National Institutes of 
Health (NIH), the Defense Advanced Research Projects Agency (DARPA), 
the National Aeronautics and Space Administration (NASA), and the 
Department of Energy's National Nuclear Security Administration (NNSA). 
Different agencies concentrate on serving different user communities 
and on different stages of hardware and software development and 
application. (In addition to the research and development-type 
activities that are counted for the data included in Table 1 and 
referenced above, many agencies, such as NNSA and the National Oceanic 
and Atmospheric Administration (NOAA), devote significant funding to 
the purchase and operation of high-performance computers that perform 
these agencies' mission-critical applications.) \3\
---------------------------------------------------------------------------
    \3\ For example, in FY 2003 NOAA spent $36 million on 
supercomputers--$10 million for machines for climate modeling and $26 
million for machines for the National Weather Service.

        National Science Foundation: The NSF serves a very wide 
        variety of scientific fields within the academic research 
        community, mainly through a series of supercomputing centers, 
        originally established in 1985 and currently funded under the 
        Partnerships for Advanced Computational Infrastructure (PACI) 
        program. The supercomputer centers provide researchers not only 
        with access to high-performance computing capabilities but also 
        with tools and expertise on how best to utilize these 
        resources. The NSF also is supporting the development of the 
        Extensible Terascale Facility (ETF), a nationwide grid of 
        machines that can be used for high-performance computing and 
        advanced communications and data management. Recently, some 
        researchers within the high-performance computing community 
        have expressed concern that NSF may be reducing its commitment 
        to the supercomputer centers and increasing its focus on grid 
        computing and distributed approaches to high-performance 
---------------------------------------------------------------------------
        computing, such as would be used in the ETF.

        Department of Energy: The Department of Energy has been a 
        major force in advancing high-performance computing for many 
        years, and the unveiling of the fastest computer in the world 
        in Japan in 2002 resulted in serious self-evaluation at the 
        department, followed by a rededication to efforts to enhance 
        U.S. supercomputing capabilities. The Department of Energy has 
        two separate programs focused on both developing and applying 
        high-performance computing. The Advanced Scientific Computing 
        Research (ASCR) program in the Office of Science funds research 
        in applied mathematics (to develop methods to model complex 
        physical and biological systems), in network and computer 
        sciences, and in advanced computing software tools. For fiscal 
        year 2004, the department has proposed a new program on next-
        generation architectures for high-performance computing. The 
        Accelerated Strategic Computing Initiative (ASCI) is part of 
        the NNSA's efforts to provide advanced simulation and computing 
        technologies for weapons modeling.

        DARPA: DARPA traditionally focuses on the development of new 
        hardware, including research into new architectures and early 
        development of new systems. On July 8, DARPA announced that 
        Cray, IBM, and Sun Microsystems had been selected as the three 
        contractor teams for the second phase of the High Productivity 
        Computing Systems program, in which the goal is to provide a 
        new generation of economically viable, scalable, high 
        productivity computing systems for the national security and 
        industrial user communities in the 2009 to 2010 timeframe.

        Other Agencies: NIH, NASA, and NOAA are all primarily users of 
        high performance computing. NIH manages and analyzes biomedical 
        data and models biological processes. NOAA uses simulations to 
        do weather forecasting and climate change modeling. NASA has a 
        variety of applications, including atmospheric modeling, 
        aerodynamic simulations, and data analysis and visualization. 
        The National Security Agency (NSA) both develops and uses high-
        performance computing for a number of applications, including 
        cryptanalysis. As a user, NSA has a significant impact on the 
        high-performance computing market, but due to the classified 
        nature of its work, the size of its contributions to High End 
        Computing Infrastructure and Applications and the amount of 
        funding it uses for actual operation of computers is not 
        included in any of the data.

Interagency Coordination: The National Coordination Office (NCO) 
coordinates planning, budget, and assessment activities for the Federal 
Networking and NITRD Program through a number of interagency working 
groups. The NCO reports to the White House Office of Science and 
Technology Policy and the National Science and Technology Council. In 
2003, NCO is also managing the High End Computing Revitalization Task 
Force (HECRTF), an interagency effort on the future of U.S. high-
performance computing. The HECRTF is tasked with development of a 
roadmap for the interagency research and development for high-end 
computing core technologies, a federal high-end computing capacity and 
accessibility improvement plan, and a discussion of issues relating to 
federal procurement of high-end computing systems. The product of the 
HECRTF process is expected to guide future investments in this area, 
starting with agency budget submissions for fiscal year 2005.

The Role of Industry: Industry plays a critical role in developing and 
providing high-performance computing capabilities to scientific, 
industrial, and defense users. Many supercomputers are purchased 
directly from computer companies like IBM, Hewlett-Packard, Silicon 
Graphics, Inc., and Cray, and the groups that do build their own high-
performance clusters do so from commercially available computers and 
workstations. Industry is a recipient of federal funding for initial 
research into new architectures for hardware, for development of new 
machines, and for production of standard and customized systems for 
government and universities, but industry also devotes its own funding 
to support research and development. The research programs do not just 
benefit the high-performance computing community, as new architectures 
and faster chips lay the groundwork for better performing computers and 
processors in all commercial information technology products.

The State of the Art in High-Performance Computing: Twice a year, a 
list of the 500 fastest supercomputers is compiled; the latest list was 
released on June 23, 2003 (see Table 2 in the appendix).\4\ The Earth 
Simulator supercomputer, built by NEC and installed last year at the 
Earth Simulator Center in Yokohama, Japan, continues to hold the top 
spot as the best performer. It is approximately twice as fast as the 
second place machine, the ASCI Q system at Los Alamos National 
Laboratory, built by Hewlett-Packard. Of the top twenty machines, eight 
are located at various Department of Energy national laboratories and 
two at U.S. universities,\5\ and nine were made by IBM and five by 
Hewlett-Packard.
---------------------------------------------------------------------------
    \4\ The top 500 list is compiled by researchers at the University 
of Mannheim (Germany), Lawrence Berkeley National Laboratory, and the 
University of Tennessee and is available on line at http://
www.top500.org/. For a machine to be included on this public list, its 
owners must send information about its configuration and performance to 
the list-keepers. Therefore, the list is not an entirely comprehensive 
picture of the high-performance computing world, as classified 
machines, such as those used by NSA, are not included.
    \5\ The two university machines are located at the Pittsburgh 
Supercomputing Center (supported primarily by NSF) and Louisiana State 
University's Center for Applied Information Technology and Learning. 
The remaining 12 machines include four in Europe, two in Japan, and one 
each at the National Oceanic & Atmospheric Administration, the National 
Center for Atmospheric Research, the Naval Oceanographic Office, and 
NASA.
---------------------------------------------------------------------------

7. Witness Questions

    The witnesses were asked to address the following questions in 
their testimony:

Questions for Dr. Raymond L. Orbach

        <bullet> The Office of Science appears to have embarked on a 
        new effort in next-generation advanced scientific computer 
        architecture that differs from the development path currently 
        pursued by the National Nuclear Security Agency (NNSA), the 
        lead developer for advanced computational capability at the 
        Department of Energy (DOE). Why is the Office of Science taking 
        this approach?

        <bullet> How is the Office of Science cooperating with the 
        Defense Advanced Research Projects Agency, which supports the 
        development of advanced computers for use by the National 
        Security Agency and other agencies within the Department of 
        Defense?

        <bullet> To what extent will the Office of Science be guided 
        by the recommendations of the High-End Computing Revitalization 
        Task Force? How will the Office of Science contribute to the 
        Office of Science and Technology Policy plan to revitalize 
        high-end computing?

        <bullet> To what extent are the advanced computational needs 
        of the scientific community and of the private sector 
        diverging? What is the impact of any divergence on the advanced 
        computing development programs at the Office of Science?

Questions for Dr. Peter A. Freeman

        <bullet> Some researchers within the computer science 
        community have suggested that the NSF may be reducing its 
        commitment to the supercomputer centers. Is this the case? To 
        what extent does the focus on grid computing represent a move 
        away from providing researchers with access to the most 
        advanced computing equipment?

        <bullet> What are the National Science Foundation's (NSF's) 
        plans for funding the supercomputer centers beyond fiscal year 
        2004? To what extent will you be guided by the recommendation 
        of the NSF Advisory Panel on Cyberinfrastructure to maintain 
        the Partnerships for Advanced Computational Infrastructure, 
        which currently support the supercomputer centers?

        <bullet> To what extent will NSF be guided by the 
        recommendations of the High-End Computing Revitalization Task 
        Force? How will NSF contribute to the Office of Science and 
        Technology Policy plan to revitalize high-end computing?

        <bullet> To what extent are the advanced computational needs 
        of the scientific community and of the private sector 
        diverging? What is the impact of any such divergence on the 
        advanced computing programs at NSF?

Questions for Dr. Daniel A. Reed

        <bullet> Some researchers within the computer science 
        community have suggested that the National Science Foundation 
        (NSF) may be reducing its commitment to provide advanced 
        scientific computational capability to U.S. scientists and 
        engineers. Have you detected any change in policy on the part 
        of NSF?

        <bullet> What advanced computing capabilities must the Federal 
        Government provide the academic research community for the 
        government's programs to be considered successful? Are the 
        programs for developing the next-generation of advanced 
        scientific computing that are currently underway at government 
        agencies on track to provide these capabilities? If not, why 
        not?

        <bullet> For academic scientists and engineers, what is the 
        difference between the advanced scientific computing 
        capabilities provided by NSF and those provided by the 
        Department of Energy?

Questions for Mr. Vincent F. Scarafino

        <bullet> How does Ford use high-performance computing? How do 
        computing capabilities affect Ford's competitiveness nationally 
        and internationally?

        <bullet> What does Ford see as the role of the Federal 
        Government in advancing high-performance computing capabilities 
        and in making these capabilities accessible to users? Are 
        current agency programs for developing the next-generation of 
        advanced scientific computing adequate to provide these 
        capabilities? If not, why not?

        <bullet> Is the U.S. government cooperating appropriately with 
        the private sector on high-performance computing, and is the 
        level of cooperation adequate to sustain leadership and meet 
        scientific and industrial needs?

        <bullet> To what extent are the advanced computational needs 
        of the scientific community and of the private sector 
        diverging? What is the impact of any divergence on Ford's 
        access to advanced computing capabilities?

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Boehlert. The hearing will come to order. And I 
apologize for being the delinquent Member of the group gathered 
here. My apologies to all.
    It is a pleasure to welcome everyone here this morning for 
this important hearing. At first blush, today's topic, 
supercomputing, may seem technical and arcane, of interest to 
just a few researchers who spend their lives in the most 
rarefied fields of science. But in reality, the subject of this 
hearing is simple and accessible, and it has an impact on all 
of us, because supercomputing affects the American economy and 
our daily lives, perhaps more so than so many, many other 
things that we focus a lot of time and attention on.
    Supercomputers help design our cars, predict our weather, 
and deepen our understanding of the natural forces that govern 
our lives, such as our climate. Indeed, computation is now 
widely viewed as a third way of doing science; building on the 
traditional areas of theory and experimentation.
    So when we hear that the U.S. may be losing its lead in 
supercomputing, that Japan now has the fastest supercomputer, 
that the U.S. may be returning to a time when our top 
scientists didn't have access to the best machines, that our 
government may have too fragmented a supercomputing policy, 
well, those are issues a red flag should be waved on to capture 
the attention of all of us.
    And those issues have captured our attention. The purpose 
of this hearing is to gauge the state of U.S. supercomputing 
and to determine how to deal with any emerging problems.
    I don't want to exaggerate, we are not at a point of 
crisis. Most of the world's supercomputers are still made by 
and used by Americans, but we are at a pivotal point when we 
need to make critical decisions to make sure that remains the 
case.
    And maintaining U.S. leadership requires a coordinated, 
concerted effort by the Federal Government. Let me stress that. 
Coordinated, concerted effort by the Federal Government. The 
Federal Government has long underwritten the basic research 
that fuels the computer industry, has purchased the highest end 
computers, and has ensured that those computers are available 
to a wide range of American researchers. This Committee has 
played an especially crucial role in ensuring access, pushing 
for the creation of the National Science Foundation 
Supercomputer Centers back in the early '80's.
    Government action is just as needed now. But what action? 
The Department of Energy is proposing to move away from our 
reliance on more mass-market supercomputers to pursue research 
on massive machines designed to solve especially complex 
problems. NSF appears to be moving away from super--supporting 
supercomputer centers to a more distributed computing approach. 
These policies need to be examined.
    So with that in mind, here are some of the questions we 
intend to pursue today. Is the U.S. losing its lead in 
supercomputing, and what can be done about it? What federal 
policies should be pursued to maintain our lead, and how should 
we judge whether they are succeeding? Is federal policy 
sufficiently coordinated? And I think the answer is clear. And 
are the new directions being pursued by NSF and the Department 
of Energy the proper approach to maintaining our lead?
    We have a distinguished group of experts, and I look 
forward to hearing their testimony.
    With that, it is my pleasure to yield to the distinguished 
Ranking Member, Mr. Hall of Texas.
    [The prepared statement of Mr. Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    It's a pleasure to welcome everyone here this morning for this 
important hearing. At first blush, today's topic, supercomputing, may 
seem technical and arcane--of interest to just a few researchers who 
spend their lives in the most rarefied fields of science. But in 
reality, the subject of this hearing is simple and accessible, and it 
has an impact on all of us because supercomputing affects the American 
economy and our daily lives.
    Supercomputers help design our cars, predict our weather, and 
deepen our understanding of the natural forces that govern our lives, 
such as our climate. Indeed, computation is now widely viewed as a 
third way of doing science--building on the traditional areas of theory 
and experimentation.
    So when we hear that the U.S. may be losing its lead in 
supercomputing, that Japan now has the fastest supercomputer, that the 
U.S. may be returning to a time when our top scientists didn't have 
access to the best machines, that our government may have too 
fragmented a supercomputing policy--well, those issues are a red flag 
that should capture the attention of all of us.
    And those issues have captured our attention. The purpose of this 
hearing is to gauge the state of U.S. supercomputing and to determine 
how to deal with any emerging problems.
    I don't want to exaggerate--we're not at a point of crisis--most of 
the world's supercomputers are still made by, and used by Americans. 
But we are at a pivotal point when we need to make critical decisions 
to make sure that remains the case.
    And maintaining U.S. leadership requires a coordinated, concerted 
effort by the Federal Government. The Federal Government has long 
underwritten the basic research that fuels the computer industry, has 
purchased the highest-end computers, and has ensured that those 
computers are available to a wide range of American researchers. This 
committee has played an especially crucial role in ensuring access, 
pushing for the creation of the National Science Foundation (NSF) 
Supercomputer Centers back in the early `80s.
    Government action is just as needed now. But what action? The 
Department of Energy is proposing to move away from our reliance on 
more mass-market supercomputers to pursue research on massive machines 
design to solve especially complex problems. NSF appears to be moving 
away from supporting supercomputer centers to a more distributed 
computing approach. These policies need to be examined.
    So, with that in mind, here are some of the questions we intend to 
pursue today:

        <bullet> Is the U.S. losing its lead in supercomputing and 
        what can be done about that?

        <bullet> What federal policies should be pursued to maintain 
        our lead and how should we judge whether they are succeeding?

        <bullet> Is federal policy sufficiently coordinated and are 
        the new directions being pursued by NSF and the Department of 
        Energy the proper approach to maintaining our lead?

    We have a distinguished group of experts, and I look forward to 
hearing their testimony.

    Mr. Hall. Mr. Chairman, thank you. And I am pleased to join 
you today in welcoming our witnesses. And I thank you for your 
time, not only in your appearing here, but in preparation and 
travel. And thank you for your usual courtesy.
    Computation has become one of the, I guess, principal 
tools, along with the theory and experiment for conducting 
science and engineering research and development. There is no 
question that the U.S. preeminence in science and technology 
will not and cannot continue unless our scientists and 
engineers have access to the most powerful computers available.
    The Science Committee has had a deep and sustained interest 
in this subject since the emergence of supercomputing in the 
late 1970's. And the initial concern of the Committee was to 
ensure that the U.S. scientists and engineers, outside of the 
classified research world, had access to the most powerful 
computers. We have supported programs to provide this access, 
such as the supercomputer centers program at NSF.
    Moreover, the Committee has encouraged the efforts of the 
Federal R&D agencies to develop a coordinated R&D program to 
accelerate computing and networking developments. The High 
Performance Computing Act of 1991 formalized this interagency 
R&D planning and coordination process.
    The value and importance of the resulting interagency 
information technology R&D program is quite evident from its 
appearances as a formal presidential budget initiative through 
three different presidential administrations.
    So today, I think we want to assess a particular component 
of the federal information technology R&D effort. That is, the 
pathway being followed for the development of high-end 
computers and the provision being made to provide access to 
these machines by the U.S. research community.
    Questions have been raised as to whether we put all of our 
eggs in one basket by mainly focusing on supercomputers based 
on commodity components. The recent success of the specialized 
Japanese Earth Simulator computer has triggered a review of the 
computing needs of the scientific and technical community and 
reconsideration of the R&D and acquisition plan needed for the 
next several years and for the longer-term.
    So we would be very interested today in hearing from our 
witnesses about where we are now in terms of high-end computing 
capabilities and where we should be going to provide the kinds 
of computer systems needed to tackle the most important and 
certainly challenging of all problems.
    I also want to explore what the roles of the various 
federal agencies ought to be in the development of new classes 
of high-end computers and for providing access for the general 
U.S. research community to these essential tools.
    I appreciate the attendance of our witnesses, and I look 
forward to your discussion.
    I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, I am pleased to join you today in welcoming our 
witnesses, and I congratulate you on calling this hearing on federal 
R&D in support of high-performance computing.
    Computation has become one of the principal tools, along with 
theory and experiment, for conducting science and engineering research 
and development. There is no question that U.S. preeminence in science 
and technology will not continue unless our scientists and engineers 
have access to the most powerful computers available.
    The Science Committee has had a deep and sustained interest in this 
subject since the emergence of supercomputing in the late 1970s.
    The initial concern of the Committee was to ensure that U.S. 
scientists and engineers, outside of the classified research world, had 
access to the most powerful computers. we have supported programs to 
provide this access, such as the supercomputer centers program at NSF.
    Moreover, the Committee has encouraged the efforts of the federal 
R&D agencies to develop a coordinated R&D program to accelerate 
computing and networking developments. The High Performance Computing 
Act of 1991 formalized this interagency R&D planning and coordination 
process.
    The value and importance of the resulting interagency information 
technology R&D program is evident from its appearance as a formal 
presidential budget initiative through 3 different Administrations.
    Today, we want to assess a particular component of the federal 
information technology R&D effort. That is, the pathway being followed 
for the development of high-end computers and the provisions being made 
to provide access to these machines by the U.S. research community.
    Questions have been raised as to whether we have put all of our 
eggs into one basket by mainly focusing on supercomputers based on 
commodity components. The recent success of the specialized Japanese 
Earth Simulator computer has triggered a review of the computing needs 
of the scientific and technical community and a reconsideration of the 
R&D and acquisition plan needed for the next several years, and for the 
longer-term.
    I will be interested in hearing from our witnesses about where we 
are now in terms of high-end computing capabilities and where we should 
be going to provide the kinds of computer systems needed to tackle the 
most important and computationally challenging problems.
    I also want to explore what the roles of the various federal 
agencies ought to be in the development of new classes of high-end 
computers and for providing access for the general U.S. research 
community to these essential tools.
    I appreciate the attendance of our witnesses, and I look forward to 
our discussion.

    Chairman Boehlert. Thank you very much, Mr. Hall. And 
without objection, all other's opening statements will be made 
a part of the record at this juncture.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Chairman for calling hearing to examine the very 
important issue of Supercomputing. I also want to thank our witnesses 
for agreeing to appear today.
    We are here to discuss whether the United States is losing ground 
to foreign competitors in the production and use of supercomputers and 
whether federal agencies' proposed paths for advancing our 
supercomputing capabilities are adequate to maintain or regain the U.S. 
lead.
    As we all know, a supercomputer is a broad term for one of the 
fastest computers currently available. Such computers are typically 
used for number crunching including scientific simulations, (animated) 
graphics, analysis of geological data (e.g., in petrochemical 
prospecting), structural analysis, computational fluid dynamics, 
physics, chemistry, electronic design, nuclear energy research and 
meteorology.
    Supercomputers are state-of-the-art, extremely powerful computers 
capable of manipulating massive amounts of data in a relatively short 
time. They are very expensive and are employed for specialized 
scientific and engineering applications that must handle very large 
databases or do a great amount of computation, among them meteorology, 
animated graphics, fluid dynamic calculations, nuclear energy research 
and weapon simulation, and petroleum exploration.
    Supercomputers are gaining popularity in all corners of corporate 
America. They are used to analyze vehicle crash test by auto 
manufacturers, evaluate human diseases and develop treatments by the 
pharmaceutical industry and test aircraft engines by the aero-space 
engineers.
    It quite evident that supercomputing will become more important to 
America's commerce in the future. I look forward to working with this 
committee on its advancement. Again, I wish thank the witnesses for 
coming here today help us conceptualize this goal.

    Chairman Boehlert. And just a little history. I can recall 
back in the early '80's, 1983 to be exact, when I was a 
freshman and Mr. Hall was an emerging power in the Congress. I 
sat way down in the front row on the end, and I didn't know 
what was going on. But I do remember very vividly the testimony 
of a Nobel Laureate, Dr. Ken Wilson, who at that time was at 
Cornell University. And he told us that the typical graduate 
student in the United Kingdom or Japan or Germany--the typical 
graduate student had greater access to the latest in computer 
technology than did he, a young Nobel Laureate, you know, one 
of the great resources of our nation.
    And he argued very forcibly and very persuasively for the 
Federal Government to get more actively involved. And boy, 
that--it was like the light bulb going on. I didn't even 
understand it, and I am not quite sure I do yet, this--the--all 
of the intricacies of this supercomputer technology, but I do 
remember then being a champion from day one getting this 
supercomputer initiative going for America. And in '85, NSF set 
up the Supercomputing Centers and--at Carnegie Mellon and 
Cornell and others--and boy, did we just go forward, leapfrog 
ahead. We did wonderful things.
    You know what? A little lethargy is setting in and I am 
getting concerned. I am deeply concerned, and I mention in my 
opening statement about five times, I should have mentioned it 
about 55 times, the importance of a well coordinated federal 
response to this issue. I don't want to be second to anybody, 
neither does Mr. Hall, neither do any Members of this 
committee.
    We have an opportunity, and we are going to seize it. And 
so we are looking at all of you as resources for this 
committee. You are all very distinguished in your own way. You 
are very knowledgeable. You will share with us, and hopefully 
we will get a few more light bulbs turned on up here. And we 
can go forward together. There is an awful lot at stake.
    And so I look forward to your testimony, and I hope that 
you will sign on here and now. Some of you have no choice. You 
have to, right? But sign on here and now to work cooperatively 
with us, because there is so much at stake.
    With that, let me introduce our witnesses.
    Witness consist--list consists of Dr. Raymond Orbach, 
Director of the Office of Science, Department of Energy. Dr. 
Orbach, good to have you back. Dr. Peter A. Freeman, Assistant 
Director, Computer and Information Science and Engineering 
Directorate at the National Science Foundation. It is good to 
see you once again. Dr. Daniel A. Reed, Director, National 
Center for Supercomputing Applications, University of Illinois 
at Urbana-Champaign. Dr. Reed. And Mr. Vincent Scarafino, 
Manager, Numerically Intensive Computing, Ford Motor Company. 
Mr. Scarafino, glad to have you here.
    We would ask all of our witnesses to try to summarize your 
complete statement, because we all have the benefit of the 
complete statement. And we will read those statements very 
carefully, but try to summarize in five minutes or so. I am not 
going to be arbitrary. This is too darn important to restrict 
your expert input to 300 seconds, but I would ask you to be 
close to the five minutes. And then we can have a good exchange 
in the dialogue. And hopefully we will all profit from this 
little exercise we are engaged in.
    Dr. Orbach.

    STATEMENT OF DR. RAYMOND L. ORBACH, DIRECTOR, OFFICE OF 
                 SCIENCE, DEPARTMENT OF ENERGY

    Dr. Orbach. Chairman Boehlert and Ranking Member Hall, 
Members of the Committee, I commend you for holding this 
hearing. And I deeply appreciate the opportunity to testify on 
behalf of the Office of Science at the Department of Energy on 
a subject of central importance to this Nation, as you have 
both outlined, our need for advanced supercomputing capability. 
Through the efforts of the DOE's Office of Science and other 
federal agencies, we are working to develop the next generation 
of advanced scientific computational capacity, a capability 
that supports economic competitiveness and America's scientific 
enterprise.
    The Bush Administration has forged an integrated and 
unified interagency road map to the critical problems that you 
have asked us to address today. In my opening statement, I 
would like to briefly address the four specific questions that 
the Committee has asked of me, and more extensive answers are 
contained in my written testimony.
    The first question that the Committee addressed to me 
concerned the development path for a next-generation advanced 
scientific computer and whether the Office of Science path 
differed from that of the National Nuclear Security Agency, the 
NNSA. The NNSA has stewardship responsibilities and the 
computer architectures, which they have used, are well suited 
for those needs. And indeed, they led the way in the massively 
parallel machine development.
    However, those machines operate at only something like five 
to 10 percent efficiency when applied to many problems of 
scientific interest and also industrial interest. And that 
reduces the efficiencies of these high peak speed machines. 
Other architectures have shown efficiencies closer to 60 
percent for some of the physical problems that science and 
industry must address.
    We are working with NNSA as partners to explore these 
alternatives, which we believe, will be important to both of 
our areas of responsibility. For example, the Office of Science 
will be exploring computer architectures that may be of value 
for magnetic fusion to biology. NNSA is working with us as a 
partner to explore equations of state under high pressures and 
extreme temperatures, which, of course, is critical to 
stewardship issues.
    The second question that I was asked was are we cooperating 
with DARPA, the Defense Advanced Research Project Agency, and 
how does that relationship work. DARPA has historically 
invested in new architectures, which have been and are of great 
interest to the Office of Science. We are--we have a memorandum 
of understanding [MOU] currently under review between the 
Defense Department and the Department of Energy that 
establishes a framework for cooperation between DARPA and the 
DOE, including both the Office of Science and NNSA.
    The MOU will cover high-end computation performance 
evaluation, development of benchmarks, advanced computer 
architecture evaluation, development of mathematical libraries, 
and system software. This will bring together the complementary 
strengths of each agency. We will be able to draw on DARPA's 
strengths in advanced computer architectures and they on our 
decades of experience in evaluating new architectures and 
transforming them into tools for scientific discovery.
    The third question you asked was to what extent will the 
Office of Science be guided by the recommendations of the High-
End Computing Revitalization Task Force and how will we 
contribute to the OSTP, Office of Science and Technology 
Policy, plan to revitalize high-end computation. The formation 
of the High-End Computation Revitalization Task Force by OSTP 
emphasizes the importance that the Administration places on the 
need for a coordinated approach to strengthening high-end 
computation. A senior official of the Office of Science is co-
chairing that task force, and it includes many representatives 
from across the government and industry.
    Many of the task force findings and plans are actually 
based on Office of Science practices in advanced computing and 
simulation. We are working very closely with NNSA, the 
Department of Defense, NASA, the National Science Foundation, 
and the National Institutes of Health to assess how best to 
coordinate and leverage our agency's high-end computation 
investments now and in the future. We expect to play a major 
role in executing the plans that emerge from this task force in 
partnership with the other agencies and under the guidance of 
the President's Science Advisor.
    The last question you asked was how are the advanced 
computational needs of the scientific community and of the 
private sector diverging and how does that affect advanced 
computing development programs at the Office of Science. I 
don't believe there is a major divergence between the needs of 
the scientific community and those of industry's design 
engineers. The apparent divergence stems from the dominance of 
computer development by the needs of specific commercial 
applications: payroll, management information systems, and web 
servers.
    I will defer to Mr. Scarafino on this, but my own 
discussions with industry leaders suggest that the type of 
computer architectures that would meet the needs of the Office 
of Science would also support their requirements. It would give 
them the ability to create virtual prototypes of complex 
systems, allowing engineers to optimize different design 
parameters without having to build prototypes. This would 
reduce the time to market. It would decrease the costs, and it 
would increase economic competitiveness.
    These four questions were central, and I appreciate being 
asked them and given the opportunity to respond. I am gratified 
that this committee is intent on enabling us to pursue so many 
important computational opportunities for the sake of 
scientific discovery, technological innovation, and economic 
competitiveness.
    I thank you for inviting me, and I will be pleased to take 
questions.
    [The prepared statement of Dr. Orbach follows:]

                Prepared Statement of Raymond L. Orbach

    Mr. Chairman and Members of the Committee, I commend you for 
holding this hearing--and I appreciate the opportunity to testify on 
behalf of the Department of Energy's (DOE) Office of Science--on a 
subject of central importance to this nation: our need for advanced 
supercomputing capability. Through the efforts of DOE's Office of 
Science and other federal agencies, we are working to develop the next 
generation of advanced scientific computational capability, a 
capability that supports economic competitiveness and America's 
scientific enterprise.
    As will become abundantly clear in my testimony, the Bush 
Administration has forged an integrated and unified interagency roadmap 
to the critical problems you have asked us to address today. No one 
agency can--or should--carry all the weight of ensuring that our 
scientists have the computational tools they need to do their job, yet 
duplication of effort must be avoided. The President, and John 
Marburger, Office of Science and Technology Policy Director, understand 
this. That is why all of us here are working as a team on this problem.

                                 * * *

    Mr. Chairman, for more than half a century, every President and 
each Congress has recognized the vital role of science in sustaining 
this nation's leadership in the world. According to some estimates, 
fully half of the growth in the U.S. economy in the last 50 years stems 
from federal funding of scientific and technological innovation. 
American taxpayers have received great value for their investment in 
the basic research sponsored by the Office of Science and other 
agencies in our government.
    Ever since its inception as part of the Atomic Energy Commission 
immediately following World War II, the Office of Science has blended 
cutting edge research and innovative problem solving to keep the U.S. 
at the forefront of scientific discovery. In fact, since the mid-
1940's, the Office of Science has supported the work of more than 40 
Nobel Prize winners, testimony to the high quality and importance of 
the work it underwrites.
    Office of Science research investments historically have yielded a 
wealth of dividends including: significant technological innovations; 
medical and health advances; new intellectual capital; enhanced 
economic competitiveness; and improved quality of life for the American 
people.
    Mr. Chairman and Members of this committee, virtually all of the 
many discoveries, advances, and accomplishments achieved by the Office 
of Science in the last decade have been underpinned by advanced 
scientific computing and networking tools developed by the Office of 
Advanced Scientific Computing Research (ASCR).
    The ASCR program mission is to discover, develop, and deploy the 
computational and networking tools that enable scientific researchers 
to analyze, model, simulate, and predict complex phenomena important to 
the Department of Energy--and to the U.S. and the world.
    In fact, by fulfilling this mission over the years, the Office of 
Science has played a leading role in maintaining U.S. leadership in 
scientific computation worldwide. Consider some of the innovations and 
contributions made by DOE's Office of Science:

        <bullet> helped develop the Internet;

        <bullet> pioneered the transition to massively parallel 
        supercomputing in the civilian sector;

        <bullet> began the computational analysis of global climate 
        change;

        <bullet> developed many of the DNA sequencing and 
        computational technologies that have made possible the 
        unraveling of the human genetic code; and

        <bullet> opened the door for major advances in nanotechnology 
        and protein crystallography.

                                 * * *

    Computational modeling and simulation are among the most 
significant developments in the practice of scientific inquiry in the 
latter half of the 20th Century. In the past century, scientific 
research has been extraordinarily successful in identifying the 
fundamental physical laws that govern our material world. At the same 
time, the advances promised by these discoveries have not been fully 
realized, in part because the real-world systems governed by these 
physical laws are extraordinarily complex. Computers help us to 
visualize, to test hypotheses, to guide experimental design, and most 
importantly to determine if there is consistency between theoretical 
models and experiment. Computer-based simulation provides a means for 
predicting the behavior of complex systems that can only be described 
empirically at present. Since the development of digital computers in 
mid-century, scientific computing has greatly advanced our 
understanding of the fundamental processes of nature, e.g., fluid flow 
and turbulence in physics, molecular structure and reactivity in 
chemistry, and drug-receptor interactions in biology. Computational 
simulation has even been used to explain, and sometimes predict, the 
behavior of such complex natural and engineered systems as weather 
patterns and aircraft performance.
    Within the past two decades, scientific computing has become a 
contributor to essentially all scientific research programs. It is 
particularly important to the solution of research problems that are 
(i) insoluble by traditional theoretical and experimental approaches, 
e.g., prediction of future climates or the fate of underground 
contaminants; (ii) hazardous to study in the laboratory, e.g., 
characterization of the chemistry of radionuclides or other toxic 
chemicals; or (iii) time-consuming or expensive to solve by traditional 
means, e.g., development of new materials, determination of the 
structure of proteins, understanding plasma instabilities, or exploring 
the limitations of the ``Standard Model'' of particle physics. In many 
cases, theoretical and experimental approaches do not provide 
sufficient information to understand and predict the behavior of the 
systems being studied. Computational modeling and simulation, which 
allows a description of the system to be constructed from basic 
theoretical principles and the available experimental data, are keys to 
solving such problems.
    Advanced scientific computing is indispensable to DOE's missions. 
It is essential to simulate and predict the behavior of nuclear 
weapons, accelerate the development of new energy technologies, and the 
aid in discovery of new scientific knowledge.
    As the lead government funding agency for basic research in the 
physical sciences, the Office of Science has a special responsibility 
to ensure that its research programs continue to advance the frontiers 
of science. All of the research programs in DOE's Office of Science--in 
Basic Energy Sciences, Biological and Environmental Research, Fusion 
Energy Sciences, and High-Energy and Nuclear Physics--have identified 
major scientific questions that can only be addressed through advances 
in scientific computing. This will require significant enhancements to 
the Office of Science's scientific computing programs. These include 
both more capable computing platforms and the development of the 
sophisticated mathematical and software tools required for large scale 
simulations.
    Existing highly parallel computer architectures, while extremely 
effective for many applications, including solution of some important 
scientific problems, are only able to operate at 5-10 percent of their 
theoretical maximum capability on other applications. Therefore, we 
have initiated a Next Generation Architecture program to evaluate the 
effectiveness of various different computer architectures in 
cooperation with the National Nuclear Security Administration (NNSA) 
and the Defense Advanced Research Project Agency to identify those 
architectures which are most effective in addressing specific types of 
simulations.
    To address the need for mathematical and software tools, and to 
develop highly efficient simulation codes for scientific discovery, the 
Office of Science launched the Scientific Discovery through Advanced 
Computing (SciDAC) program. We have assembled interdisciplinary teams 
and collaborations to develop the necessary state-of-the-art 
mathematical algorithms and software, supported by appropriate hardware 
and middleware infrastructure to use terascale computers effectively to 
advance fundamental scientific research essential to the DOE mission.
    These activities are central to the future of our mission. Advanced 
scientific computing will continue to be a key contributor to 
scientific research as we enter the twenty-first century. Major 
scientific challenges exist in all Office of Science research programs 
that can be addressed by advanced scientific supercomputing. Designing 
materials atom-by-atom, revealing the functions of proteins, 
understanding and controlling plasma turbulence, designing new particle 
accelerators, and modeling global climate change, are just a few 
examples.

                                 * * *

    Today, high-end scientific computation has reached a threshold 
which we were all made keenly aware of when the Japanese Earth 
Simulator was turned on. The Earth Simulator worked remarkably well on 
real physical problems at sustained speeds that have never been 
achieved before. The ability to get over 25 teraFLOPS in geophysical 
science problems was not only an achievement, but it truly opened a new 
world.
    So the question before us at today's hearing--``Supercomputing: Is 
the U.S. on the Right Path''--is very timely. There is general 
recognition of the opportunities that high-end computation provides, 
and this Administration has a path forward to meet this challenge.
    The tools for scientific discovery have changed. Previously, 
science had been limited to experiment and theory as the two pillars 
for investigation of the laws of nature. With the advent of what many 
refer to as ``Ultra-Scale'' computation,'' a third pillar--simulation--
has been added to the foundation of scientific discovery. Modern 
computational methods are developing at such a rapid rate that 
computational simulation is possible on a scale that is comparable in 
importance with experiment and theory. The remarkable power of these 
facilities is opening new vistas for science and technology.
    Tradition has it that scientific discovery is based on experiment, 
buttressed by theory. Sometimes the order is reversed, theory leads to 
concepts that are tested and sometimes confirmed by experiment. But 
more often, experiment provides evidence that drives theoretical 
reasoning. Thus, Dr. Samuel Johnson, in his Preface to Shakespeare, 
writes: ``Every cold empirick, when his heart is expanded by a 
successful experiment, swells into a theorist.''
    Many times, scientific discovery is counter-intuitive, running 
against conventional wisdom. Probably the most vivid current example is 
the experiment that demonstrated that the expansion of our Universe is 
accelerating, rather than in steady state or contracting. We have yet 
to understand the theoretical origins for this surprise.
    During my scientific career, computers have developed from the now 
``creaky'' IBM 701, upon which I did my thesis research, to the so-
called massively parallel processors or MPP machines, that fill rooms 
the size of football fields, and use as much power as a small city.
    The astonishing speeds of these machines, especially the Earth 
Simulator, allow Ultra-Scale computation to inform our approach to 
science, and I believe social sciences and the humanities. We are now 
able to contemplate exploration of worlds never before accessible to 
mankind. Previously, we used computers to solve sets of equations 
representing physical laws too complicated to solve analytically. Now 
we can simulate systems to discover physical laws for which there are 
no known predictive equations. We can model physical or social 
structures with hundreds of thousands, or maybe even millions, of 
``actors,'' interacting with one another in a complex fashion. The 
speed of our new computational environment allows us to test different 
inter-actor (or inter-personal) relations to see what macroscopic 
behaviors can ensue. Simulations can determine the nature of the 
fundamental ``forces'' or interactions between ``actors.''
    Computer simulation is now a major force for discovery in its own 
right.
    We have moved beyond using computers to solve very complicated sets 
of equations to a new regime in which scientific simulation enables us 
to obtain scientific results and to perform discovery in the same way 
that experiment and theory have traditionally been used to accomplish 
those ends. We must think of high-end computation as the third of the 
three pillars that support scientific discovery, and indeed there are 
areas where the only approach to a solution is through high-end 
computation--and that has consequences.

                                 * * *

    American industry certainly is fully conversant with the past, 
present and prospective benefits of high-end computation. The Office of 
Science has received accolades for our research accomplishments from 
corporations such as General Electric and General Motors. We have met 
with the vice presidents for research of these and other member 
companies of the Industrial Research Institute. We learned, for 
example, that GE is using simulation very effectively to detect flaws 
in jet engines. What's more, we were told that, if the engine flaws 
identified by simulation were to go undetected, the life cycle of those 
GE machines would be reduced by a factor of two--and that would cause 
GE a loss of over $100,000,000.00.
    The market for high-end computation extends beyond science, into 
applications, creating a commercial market for ultra-scale computers. 
The science and technology important to industry can generate 
opportunities measured in hundreds of million, and perhaps billions of 
dollars.
    Here are just a few examples:

From General Motors:

    ``General Motors currently saves hundreds of millions of dollars by 
using its in-house high performance computing capability of more than 
3.5 teraFLOPS in several areas of its new vehicle design and 
development processes. These include vehicle crash simulation, safety 
models, vehicle aerodynamics, thermal and combustion analyses, and new 
materials research. The savings are realized through reductions in the 
costs of prototyping and materials used.
    However, the growing need to meet higher safety standards, greater 
fuel efficiency, and lighter but stronger materials, demands a steady 
yearly growth rate of 30 to 50 percent in computational capabilities 
but will not be met by existing architectures and technologies.. . .A 
computing architecture and capability on the order of 100 teraFLOPS for 
example would have quite an economic impact, on the order of billions 
of dollars, in the commercial sector in its product design, 
development, and marketing.''

And from General Electric:

    ``Our ability to model, analyze and validate complex systems is a 
critical part of the creation of many of our products and design. Today 
we make extensive use of high-performance computing based technologies 
to design and develop products ranging from power systems and aircraft 
engines to medical imaging equipment. Much of what we would like to 
achieve with these predictive models is out of reach due to limitations 
in current generation computing capabilities. Increasing the fidelity 
of these models demands substantial increases in high-performance 
computing system performance. We have a vital interest in seeing such 
improvements in the enabling high-performance computing technologies.. 
. .In order to stay competitive in the global marketplace, it is of 
vital importance that GE can leverage advances in high-performance 
computing capability in the design of its product lines. Leadership in 
high-performance computing technologies and enabling infrastructure is 
vital to GE if we wish to maintain our technology leadership.''
    Consider the comparison between simulations and prototyping for GE 
jet engines.
    For evaluation of a design alternative for the purpose of 
optimization of a compressor for a jet engine design, GE would require 
3.1  10<SUP>18</SUP> floating point operations, or over a month at a 
sustained speed of one teraFLOP, which is today's state-of-the-art. To 
do this for the entire engine would require sustained computing power 
of 50 teraFLOPS for the same period. This is to be compared with 
millions of dollars, several years, and designs and re-designs for 
physical prototyping.
    Opportunities abound in other fields such as pharmaceuticals, oil 
and gas exploration, and aircraft design.
    The power of advance scientific computation is just beginning to be 
realized. One reason that I have emphasized this so much is that some 
seem to think that advanced scientific computation is the province of 
the Office of Science and other federal science agencies and therefore 
is not attractive to the vendors in this field. I believe that's 
incorrect. I believe instead that our leading researchers are laying 
out a direction and an understanding of available opportunities. These 
opportunities spur markets for high-end computation quite comparable to 
the commercial market which we have seen in the past but requiring the 
efficiencies and the speeds which high-end computation can provide.

                                 * * *

    Discovery through simulation requires sustained speeds starting at 
50 to 100 teraFLOPS to examine problems in accelerator science and 
technology, astrophysics, biology, chemistry and catalysis, climate 
prediction, combustion, computational fluid dynamics, computational 
structural and systems biology, environmental molecular science, fusion 
energy science, geosciences, groundwater protection, high energy 
physics, materials science and nanoscience, nuclear physics, soot 
formation and growth, and more (see http://www.ultrasim.info/
doe<INF>-</INF>docs/).
    Physicists in Berkeley, California, trying to determine whether our 
universe will continue to expand or eventually collapse, gather data 
from dozens of distant supernovae. By analyzing the data and simulating 
another 10,000 supernovae on supercomputers (at the National Energy 
Research Scientific Computing Center or NERSC) the scientists conclude 
that the universe is expanding--and at an accelerating rate.
    I just returned from Vienna, where I was privileged to lead the 
U.S. delegation in negotiations on the future direction for ITER, an 
international collaboration that hopes to build a burning plasma fusion 
reactor, which holds out promise for the realization of fusion power. 
The United States pulled out of ITER in 1998. We're back in it this 
year. What changed were simulations that showed that the new ITER 
design will in fact be capable of achieving and sustaining burning 
plasma. We haven't created a stable burning plasma yet, but the 
simulations give us confidence that the experiments which we performed 
at laboratory scales could be realized in larger machines at higher 
temperatures and densities.
    Looking to the future, we are beginning a Fusion Simulation Project 
to build a computer model that will fully simulate a burning plasma to 
both predict and interpret ITER performance and, eventually, assist in 
the design of a commercially feasible fusion power reactor. Our best 
estimate, however is that success in this effort will require at least 
50 teraFLOPS of sustained computing power.
    Advances in scientific computation are also vital to the success of 
the Office of Science's Genomes to Life program.
    The Genomes to Life program will develop new knowledge about how 
micro-organisms grow and function and will marry this to a national 
infrastructure in computational biology to build a fundamental 
understanding of living systems. Ultimately this approach will offer 
scientists insights into how to use or replicate microbiological 
processes to benefit the Nation.
    In particular, the thrust of the Genomes to Life program is aimed 
directly at Department of Energy concerns: developing new sources of 
energy; mitigating the long-term effects of climate change through 
carbon sequestration; cleaning up the environment; and protecting 
people from adverse effects of exposure to environmental toxins and 
radiation.
    All these benefits--and more--will be possible as long as the 
Genomes to Life program achieves a basic understanding of thousands of 
microbes and microbial systems in their native environments over the 
next 10 to 20 years. To meet this challenge, however, we must address 
huge gaps not only in knowledge but also in technology, computing, data 
storage and manipulation, and systems-level integration.
    The Office of Science also is a leader in research efforts to 
capitalize on the promise of nanoscale science.
    In an address to the American Association for the Advancement of 
Science in February 2002, Dr. John Marburger, Director of the Office of 
Science and Technology Policy, noted, ``. . .[W]e are in the early 
stages of a revolution in science nearly as profound as the one that 
occurred early in the last century with the birth of quantum 
mechanics,'' a revolution spurred in part by ``the availability of 
powerful computing and information technology.''
    ``The atom-by-atom understanding of functional matter,'' Dr. 
Marburger continued, ``requires not only exquisite instrumentation, but 
also the capacity to capture, store and manipulate vast amounts of 
data. The result is an unprecedented ability to design and construct 
new materials with properties that are not found in nature.. . .[W]e 
are now beginning to unravel the structures of life, atom-by-atom using 
sensitive machinery under the capacious purview of powerful 
computing.''
    In both nanotechnology and biotechnology, this revolution in 
science promises a revolution in industry. In order to exploit that 
promise, however, we will need both new instruments and more powerful 
computers, and the Office of Science has instituted initiatives to 
develop both.
    We have begun construction at Oak Ridge National Laboratory on the 
first of five Nanoscale Science Research Centers located to take 
advantage of the complementary capabilities of other large scientific 
facilities, such as the Spallation Neutron Source at Oak Ridge, our 
synchrotron light sources at Argonne, Brookhaven and Lawrence Berkeley, 
and semiconductor, microelectronics and combustion research facilities 
at Sandia and Los Alamos. When complete, these five Office of Science 
nanocenters will provide the Nation with resources unmatched anywhere 
else in the world.
    To determine the level of computing resources that will be 
required, the Office of Science sponsored a scientific workshop on 
Theory and Modeling in Nanoscience, which found that simulation will be 
critical to progress, and that new computer resources are required. As 
a first step to meeting that need, our Next Generation Architecture 
initiative is evaluating different computer architectures to determine 
which are most effective for specific scientific applications, 
including nanoscience simulations.
    There are many other examples where high-end computation has 
changed and will change the nature of the field. My own field is 
complex systems. I work in a somewhat arcane area called spin glasses, 
where we can examine the dynamic properties of these very complex 
systems, which in fact are related to a number of very practical 
applications. Through scientific simulation, a correlation length was 
predicted for a completely random material, a concept unknown before. 
Simulation led to the discovery that there was a definable correlation 
length in this completely random system. Our experiments confirmed this 
hypothesis. Again, insights were created that simply were not possible 
from a set of physical equations that needed solutions, with observable 
consequences. There are countless opportunities and examples where 
similar advances could be made.

                                 * * *

    As the Chairman and Members of this committee know, the Bush 
Administration shares Congress' keen interest in high-end computation 
for both scientific discovery and economic development. A senior 
official of the Office of Science is co-chairing the interagency High-
End Computing Revitalization Task Force, which includes representatives 
from across the government and the private sector. We are working very 
closely with the NNSA, the Department of Defense, the National 
Aeronautics and Space Administration, the National Science Foundation, 
and the National Institutes of Health to assess how best to coordinate 
and leverage our agencies' high-end computation investments now and in 
the future.
    DOE is playing a major role in the task force through the Office of 
Science and the NNSA, and many of the task force's findings and plans 
are based on Office of Science practices in advanced computing and 
simulation.
    One of the major challenges in this area is one of metrics. How do 
we know what we are trying to accomplish, and how can we measure how 
we're getting there? What are the opportunities? What are the barriers? 
What should we be addressing as we begin to explore this new world?
    Our problem in the past has been that, where we have large 
computational facilities, we have cut them up in little pieces and the 
large-scale scientific programs that some researchers are interested in 
have never really had a chance to develop. There's nothing wrong with 
our process; it is driven by a peer review system. But for some 
promising research efforts, there simply have not been enough cycles or 
there wasn't an infrastructure which would allow large-scale 
simulations to truly develop and produce the kind of discoveries we 
hope to achieve.
    Recognizing this, the Office of Science has announced that ten 
percent of our National Energy Research Scientific Computing Center at 
Lawrence Berkeley National Laboratory--now at ten teraFLOP peak speed--
is going to be made available for grand challenge calculations. We are 
literally going to carve out 4.5 million processor hours and 100 
terabytes of disk space for perhaps four or five scientific problems of 
major importance. We are calling this initiative INCITE--the Innovative 
and Novel Computational Impact on Theory and Experiment--and we expect 
to be ready to proceed with it around August 1, 2003. At that time, we 
will open the competition to all, whether or not they are affiliated 
with or funded by DOE.
    We are launching the INCITE initiative for two reasons. For one, 
it's the right thing to do: there are opportunities for major 
accomplishments in this field of science. In addition, there is also a 
``sociology'' that we need to develop.
    Given the size and complexity of the machines required for 
sustained speeds in the 50 to 100 teraFLOPS regime, the sociology of 
high-end computation will probably have to change. One can think of the 
usage of ultra-scale computers as akin to that of our current light 
sources: large machines used by groups of users on a shared basis. 
Following the leadership of our SciDAC program, interdisciplinary teams 
and collaborators will develop the necessary state-of-the-art 
mathematical algorithms and software, supported by appropriate hardware 
and middleware infrastructure, to use terascale computers effectively 
to advance fundamental research in science. These teams will associate 
on the basis of the mathematical infrastructure of problems of mutual 
interest, working with efficient, balanced computational architectures.
    The large amount of data, the high sustained speeds, and the cost 
will probably lead to concentration of computing power in only a few 
sites, with networking useful for communication and data processing, 
but not for core computation at terascale speeds. Peer review of 
proposals will be used to allocate machine time. Industry will be 
welcome to participate, as has happened in our light sources. Teams 
will make use of the facilities as user groups, using significant 
portions (or all) of the machine, depending on the nature of their 
computational requirements. Large blocks of time will enable scientific 
discovery of major magnitude, justifying the large investment ultra-
scale computation will require.
    We will open our computational facilities to everyone. Ten percent 
of NERSC's capability will be available to the entire world. 
Prospective users will not have to have a DOE contract, or grant, or 
connection. The applications will be peer reviewed, and will be judged 
solely on their scientific merit. We need to learn how to develop the 
sociology that can encourage and then support computation of this 
magnitude; this is a lot of computer time. It may be the case that 
teams rather than individuals will be involved. It even is possible 
that one research proposal will be so compelling that the entire ten 
percent of NERSC will be allocated to that one research question.
    The network that may be required to handle that amount of data has 
to be developed. There is an ES network which we are involved in, and 
we are studying whether or not it will be able to handle the massive 
amounts of data that could be produced under this program.
    We need to get scientific teams--the people who are involved in 
algorithms, the computer scientists, and the mathematicians--together 
to make the most efficient use of these facilities. That's what this 
opening up at NERSC is meant to do. We want to develop the community of 
researchers within the United States--and frankly around the world--
that can take advantage of these machines and produce the results that 
will invigorate and revolutionize their fields of study.
    But this is just the beginning.

                                 * * *

    As we develop the future high-end computational facilities for this 
nation and world, it is clearly our charge and our responsibility to 
develop scientific opportunities for everyone. This has been the U.S. 
tradition. It has certainly been an Office of Science tradition, and we 
intend to see that this tradition continues, and not just in the 
physical sciences.
    We are now seeing other fields recognizing that opportunities are 
available to them. In biology, we are aware that protein folding is a 
very difficult but crucial issue for cellular function. The time scales 
that biologists work with can scale from a femto-second to seconds-a 
huge span of time which our current simulation capabilities are unable 
to accommodate.
    High-performance computing provides a new window for researchers to 
observe the natural world with a fidelity that could only be imagined a 
few years ago. Research investments in advanced scientific computing 
will equip researchers with premier computational tools to advance 
knowledge and to solve the most challenging scientific problems facing 
the Nation.
    With vital support from this committee, the Congress and the 
Administration, we in the Office of Science will help lead the U.S. 
further into the new world of supercomputing.
    We are truly talking about scientific discovery. We are talking 
about a third pillar of support. We are talking about opportunities to 
understand properties of nature that have never before been explored. 
That's the concept, and it explains the enormous excitement that we 
feel about this most promising field.
    We are very gratified that this committee is so intent on enabling 
us to pursue so many important opportunities, for the sake of 
scientific discovery, technological innovation, and economic 
competitiveness.
    Thank you very much.

                    Biography for Raymond L. Orbach

    Dr. Raymond L. Orbach was sworn in as the 14th Director of the 
Office of Science at the Department of Energy (DOE) on March 14, 2002. 
As Director of the Office of Science (SC), Dr. Orbach manages an 
organization that is the third largest federal sponsor of basic 
research in the United States and is viewed as one of the premier 
science organizations in the world. The SC fiscal year 2002 budget of 
$3.3 billion funds programs in high energy and nuclear physics, basic 
energy sciences, magnetic fusion energy, biological and environmental 
research, and computational science. SC, formerly the Office of Energy 
Research, also provides management oversight of the Chicago and Oak 
Ridge Operations Offices, the Berkeley and Stanford Site Offices, and 
10 DOE non-weapons laboratories.
    Prior to his appointment, Dr. Orbach served as Chancellor of the 
University of California (UC), Riverside from April 1992 through March 
2002; he now holds the title Chancellor Emeritus. During his tenure as 
Chancellor, UC-Riverside grew from the smallest to one of the most 
rapidly growing campuses in the UC system. Enrollment increased from 
8,805 to more than 14,400 students with corresponding growth in faculty 
and new teaching, research, and office facilities.
    In addition to his administrative duties at UC-Riverside, Dr. 
Orbach maintained a strong commitment to teaching. He sustained an 
active research program; worked with postdoctoral, graduate, and 
undergraduate students in his laboratory; and taught the freshman 
physics course each winter quarter. As Distinguished Professor of 
Physics, Dr. Orbach set the highest standards for academic excellence. 
From his arrival, UC-Riverside scholars led the Nation for seven 
consecutive years in the number of fellows elected to the prestigious 
American Association for the Advancement of Science (AAAS).
    Dr. Orbach began his academic career as a postdoctoral fellow at 
Oxford University in 1960 and became an assistant professor of applied 
physics at Harvard University in 1961. He joined the faculty of the 
University of California, Los Angeles (UCLA) two years later as an 
associate professor, and became a full professor in 1966. From 1982 to 
1992, he served as the Provost of the College of Letters and Science at 
UCLA.
    Dr. Orbach's research in theoretical and experimental physics has 
resulted in the publication of more than 240 scientific articles. He 
has received numerous honors as a scholar including two Alfred P. Sloan 
Foundation Fellowships, a National Science Foundation Senior 
Postdoctoral Fellowship, a John Simon Guggenheim Memorial Foundation 
Fellowship, the Joliot Curie Professorship at the Ecole Superieure de 
Physique et Chimie Industrielle de la Ville de Paris, the Lorentz 
Professorship at the University of Leiden in the Netherlands, and the 
1991-1992 Andrew Lawson Memorial Lecturer at UC-Riverside. He is a 
fellow of the American Physical Society and the AAAS.
    Dr. Orbach has also held numerous visiting professorships at 
universities around the world. These include the Catholic University of 
Leuven in Belgium, Tel Aviv University, and the Imperial College of 
Science and Technology in London. He also serves as a member of 20 
scientific, professional, or civic boards.
    Dr. Orbach received his Bachelor of Science degree in Physics from 
the California Institute of Technology in 1956. He received his Ph.D. 
degree in Physics from the University of California, Berkeley, in 1960 
and was elected to Phi Beta Kappa.
    Dr. Orbach was born in Los Angeles, California. He is married to 
Eva S. Orbach. They have three children and seven grandchildren.

    Chairman Boehlert. Thank you very much, Dr. Orbach.
    You noticed the red light was on, and the Chair was 
generous with the time. As I said, I am not going to be 
arbitrary. I wish the appropriators were as generous with the 
funding for your office as we are with time for your views, but 
we are working continually together on that one.
    Dr. Freeman.

STATEMENT OF DR. PETER A. FREEMAN, ASSISTANT DIRECTOR, COMPUTER 
 AND INFORMATION SCIENCE AND ENGINEERING DIRECTORATE, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Freeman. Good morning, Mr. Chairman, Mr. Hall, and 
distinguished Members of the Committee. NSF deeply appreciates 
this committee's long time support and recognizes your special 
interest in computing, so I am delighted to be here today to 
discuss those topics with you.
    Supercomputing is a field that NSF, as you noted in your 
opening remarks, has championed for many years. And it is one 
in which we intend to continue to lead the way. At the same 
time, we are committed to realizing the compelling vision 
described in the report of the recent NSF Advisory Panel on 
Cyberinfrastructure, commonly known as the Atkins Committee. 
They have forcefully told us, and I quote, ``A new age has 
dawned in scientific and engineering research, '' that will be 
enabled by cyberinfrastructure.
    The term ``cyberinfrastructure'' sounds exotic and is 
sometimes confused as being something new, but in reality, it 
is intended to signify a set of integrated facilities and 
services essential to the conduct of leading edge science and 
engineering. Cyberinfrastructure must include a range of 
supercomputers as well as massive storage, high performance 
networks, databases, lots of software, and above all, highly 
trained people. An advanced cyberinfrastructure, with 
supercomputing as an important element, promises to 
revolutionize research in the 21st Century. The opportunities 
that are presented to us in this area must be exploited for the 
benefit of all of our citizens for their continuing health, 
security, education, and wealth.
    We are committed to a key recommendation of the Atkins 
Report, namely that NSF, in partnership with other agencies and 
other organizations, must make significant investments in the 
creation, deployment, and application of advanced 
cyberinfrastructure to empower continued U.S. leadership in 
science and engineering.
    To bring about this scientific revolution, we must maintain 
a broad discourse about cyberinfrastructure. Supercomputers are 
essential, but without software, networks, massive storage, 
databases, and trained people all integrated securely, they 
will not deliver their potential. Further, there are now many 
areas of science that need this integrated and balanced support 
or balanced approach more than they need any single element.
    My written testimony provides detailed answers to the 
questions you posed for this hearing, but allow me to summarize 
them. NSF will most definitely continue its commitment to 
supercomputing and will provide the support necessary to 
utilize it in all of science and engineering. Supercomputing 
capability is an essential component in the cyberinfrastructure 
vision, and we are committed to expanding this capability in 
the future.
    NSF's recent investments in grid computing underscore the 
importance of integrating supercomputing within a 
cyberinfrastructure. Indeed, the first increment of our funding 
and our terascale efforts was for a supercomputer, which at the 
time it was installed, was the most powerful open access 
machine in the research world. This machine will be one of the 
main resources on the grid that is currently under 
construction.
    The Atkins Report recommended ``a 2-year extension of the 
current PACI [Partnerships for Advanced Computational 
Infrastructure] cooperative agreements,'' and we have done 
that. The panel also recommended ``new separately peer-reviewed 
enabling and application infrastructure'' programs. We have 
identified funding for these efforts and are in the process of 
working out the details for these new programs. Finally, the 
Atkins Report recommends that ``until the end of the original 
10-year lifetime of the PACI program,'' the centers ``should 
continue to be assured of stable, protected funding to provide 
the highest-end computing resources.'' NSF is currently 
gathering community input on how best to structure future 
management of these resources, and will be announcing our 
specific plans in the coming months.
    With regard to coordination, NSF has been an active 
participant in all four of the subgroups of the OSTP planning 
activity for high-end computing. We are coordinating closely at 
all levels with OSTP and our sister agencies to make sure that 
the recommendations of the task force are carried forward in an 
effective manner.
    NSF does not see a divergence in the needs of industry and 
those of the research community. As researchers push the 
boundaries in their work, the results are often quickly picked 
up by industry. In other areas, industry has had to tackle 
problems first, such as data mining, and now those techniques 
are becoming useful in scientific research. This symbiotic 
relationship has worked very well in the past, and we intend to 
continue it in the future.
    Mr. Chairman, let me close by providing an answer to the 
overall question of whether we are on the right path in 
supercomputing. My answer is yes; if we keep in perspective 
that supercomputers must be embedded in a cyberinfrastructure 
that also includes massive storage, high-performance networks, 
databases, lots of software, well-trained people, and that the 
entire ensemble be open to all scientists and engineers.
    Thank you, and I will be glad to answer any questions you 
may have.
    [The prepared statement of Dr. Freeman follows:]
                 Prepared Statement of Peter A. Freeman
    Good morning, Mr. Chairman and Members of the Committee. I am Dr. 
Peter Freeman, Assistant Director of the NSF for CISE.

Introduction

    I am delighted to have the opportunity to testify before you this 
morning and to discuss the topic Supercomputing: Is the U.S. on the 
Right Path? Supercomputers are an extremely important national resource 
in many sectors of our society, and for decades, these resources have 
yielded astounding scientific breakthroughs. Supercomputing is a field 
that NSF has championed and supported for many years and it is one in 
which we will continue to lead the way.
    There seems to be some confusion in the scientific community as to 
NSF's commitment to High-End Computing (HEC) which is the current term 
being used for ``supercomputing.'' I want to clear the air this 
morning. Before I briefly summarize my written testimony, let me state 
unequivocally that NSF remains absolutely committed to providing 
researchers the most advanced computing equipment available and to 
sponsoring research that will help create future generations of 
computational infrastructure, including supercomputers.
    At the same time, we are committed to realizing the compelling 
vision described in the report of the NSF Advisory Panel on 
Cyberinfrastructure, commonly known as the Atkins Committee--that ``a 
new age has dawned in scientific and engineering research, pushed by 
continuing progress in computing, information and communications 
technology.'' This cyberinfrastructure includes, and I quote, ``not 
only high-performance computational services, but also integrated 
services for knowledge management, observation and measurement, 
visualization and collaboration.''
    The scientific opportunities that lie before us in many fields can 
only be realized with such a cyberinfrastructure. Just as 
supercomputing promised to revolutionize the conduct of science and 
engineering research several decades ago, and we are seeing the results 
of that promise today, so does an advanced cyberinfrastructure promise 
to revolutionize the conduct of science and engineering research and 
education in the 21st century. The opportunities that a balanced, 
state-of-the-art cyberinfrastructure promises must be exploited for the 
benefit of all of our citizens--for their continuing health, security, 
education, and wealth.
    To be clear, we are committed to what the Atkins Report and many 
others in the community, both formally and informally, are saying: That 
NSF, in partnership with other public and private organizations, must 
make investments in the creation, deployment and application of 
cyberinfrastructure in ways that radically empower all science and 
engineering research and allied education. . .thereby empowering what 
the Atkins Report defines as ``a revolution.''
    Cyberinfrastructure--with HEC as an essential component--can bring 
about this true revolution in science and engineering. It promises 
great advances for all of the areas of our society served by science 
and engineering, but it will be realized only if we stay focused on the 
value of all components of cyberinfrastructure.
    Supercomputers have been one of the main drivers in this revolution 
up to now because of the continuing evolution of computing technology. 
Computers were initially developed to deal with pressing, numerical 
computations and they will continue to be extremely important. In 
recent years, however, many scientific advances have been enabled not 
only by computers, but by the great expansion in the capacity of 
computer storage devices and communication networks, coupled now with 
rapidly improving sensors.
    There are now many examples of revolutionary scientific advances 
that can only be brought about by utilizing other components of 
cyberinfrastructure in combination with HEC. This necessary convergence 
means that we must maintain a broad discourse about 
cyberinfrastructure. As we set about building and deploying an advanced 
cyberinfrastructure, we will ensure that the HEC portion remains an 
extremely important component in it.

History of NSF Support for Supercomputing

    NSF has been in the business of supporting high performance 
computation in the form of centers since the establishment of the first 
Academic Computing Centers in the 1960's. As computers became 
increasingly powerful, they were later designated to be 
``supercomputers.'' In the mid-1980's, NSF created the first 
supercomputing centers for the open science community. A decade later, 
support was established through the Partnerships for Advanced 
Computational Infrastructure (PACI) program. In 2000, a parallel 
activity that is now known as the Extensible Terascale Facility was 
initiated. (There is much more to this history that is available if 
desired.) Beginning in FY 2005, support will be provided through 
cyberinfrastructure program(s) currently under development.
    Over time, technological innovations have led to movement away from 
the use of the term ``supercomputing centers'' since it inadequately 
describes the full measure and promise of what is being done at such 
centers, and what is at stake. The idea of the ``supercomputer'' lives 
on as a legacy, however a more accurate title for this kind of 
infrastructure would be High-performance Information Technology (HIT) 
Centers.
    NSF currently supports three major HIT Centers: the San Diego 
Supercomputer Center (SDSC), the National Center for Supercomputing 
Applications (NCSA), and the Pittsburgh Supercomputer Center (PSC). 
These centers have been participating in this enterprise since the days 
of the first supercomputer centers in the early 1980's. They have 
evolved steadily over the past quarter century and now represent 
special centers of talent and capability for the science community 
broadly and the Nation at large.
    In the last six years, NSF's support for these HIT Centers has been 
provided predominantly through the PACI program. More recently, a new 
consortium of HIT Centers has emerged around the new grid-enabled 
concept of the Extensible Terascale Facility (ETF).

Current Activities

    In order to describe NSF's current activities in the area of 
supercomputing, I'd like to respond directly to the following questions 
formulated by Chairman Boehlert and the Committee on Science. (Note: 
Italicized and numbered statements are drawn verbatim from Chairman 
Boehlert's letter of invitation.)

1. Some researchers within the computer science community have 
suggested that the NSF may be reducing its commitment to the 
supercomputer centers. Is this the case?

    NSF is most definitely not reducing its commitment to 
supercomputing.
    For several decades the agency has invested millions of taxpayer 
dollars in the development and deployment of a high-end computational 
infrastructure. These resources are made widely available to the 
science and engineering research and education community. The agency is 
not reducing its commitment to such efforts. In fact, leading-edge 
supercomputing capabilities are an essential component in the 
cyberinfrastructure and, in line with the recommendations of the 
Advisory Panel on Cyberinfrastructure, we are committed to expanding 
such capabilities in the future.

1. (cont'd.) To what extent does the focus on grid computing represent 
a move away from providing researchers with access to the most advanced 
computing equipment?

    The term ``grid computing'' is ambiguous and often misused. It 
sometimes is used to signify a single computational facility composed 
of widely separated elements (nodes) that are interconnected by high-
performance networks and that are operating in a manner that the user 
sees a single ``computer.'' This is a special case of the more general 
concept of a set of widely separated computational resources of 
different types, which can be accessed and utilized as their particular 
capabilities are needed.
    While still experimental at this stage, grid computing promises to 
become the dominant modality of High-performance IT (and, eventually, 
of commodity computing). One need only think about the World Wide Web 
(WWW) to understand the compelling importance of grid computing. In the 
WWW one is able from a single terminal (typically a desk-top PC) to 
access many different databases, on-line services, even computational 
engines today. Imagine now that the nodes that are accessible in this 
way are HECs with all of their computational power; or massive data 
stores that can be manipulated and analyzed; or sophisticated 
scientific instruments to acquire data; or any of a dozen other 
foreseen and unforeseen tools. With this vision, perhaps one can 
understand the promise of grid computing.
    NSF's recent investments in grid computing, through the ETF, should 
not be seen as a reduction in the agency's commitment to HEC. Rather, 
it underscores the importance of HEC integrated into a broad 
cyberinfrastructure. Indeed, the first increment of ETF funding was for 
a HEC machine, which at the time it was installed at the PSC, was the 
most powerful open access machine in the research world (and it is, 
three years later, still number 9 on the Top 500 list). This machine is 
one of the main resources on the ETF grid. While NSF may not always 
have the world's fastest machine, we will continue to provide a range 
of supercomputing systems that serve the ever increasing and changing 
needs of science and engineering.
    At the same time, the ETF investment in grid computing is not the 
ONLY investment the agency has recently made in HEC. In fact, HEC 
upgrades at NCSA and SDSC during FY 2003 and 2004 are expected to fund 
the acquisition of an additional 20 Teraflops of HEC capability.
    NSF's unwavering commitment is to continuously advance the 
frontier, and grid computing is widely acknowledged to represent the 
next frontier in computing. In short, the ETF represents our commitment 
to innovation at the computing frontier.

2. What are the National Science Foundation's (NSF's) plans for 
funding the supercomputer centers beyond fiscal year 2004? To what 
extent will you be guided by the recommendation of the NSF Advisory 
Panel on Cyberinfrastructure to maintain the Partnerships for Advanced 
Computational Infrastructure, which currently support the supercomputer 
centers?

    NSF's plans for funding supercomputer centers beyond FY 2004 are 
very much guided by the recommendations of the NSF Advisory Panel on 
Cyberinfrastructure as described below.

        <bullet> In its report, the Panel recommended ``a two-year 
        extension of the current PACI co-operative agreements.'' The 
        National Science Board approved the second one-year extension 
        of the PACI cooperative agreements at the May 2003 meeting.

        <bullet> The Panel also recommended that ``. . .the new 
        separately peer-reviewed enabling and application 
        infrastructure would begin in 2004 or 2005, after the two-year 
        extensions of the current cooperative agreements.''

          The President requested $20 million for NSF in FY 2004 for 
        activities that will focus on the development of 
        cyberinfrastructure, including enabling infrastructure (also 
        known as enabling technology). This increased investment in 
        enabling technology will strengthen the agency's portfolio of 
        existing awards, and as the Panel recommended, awards will be 
        identified through merit-review competition.

          In addition, NSF will also increase its investments in 
        applications infrastructure (also known as applications 
        technology) by drawing upon interdisciplinary funds available 
        in the FY 2004 ITR priority area activity. Again, the most 
        promising proposals will be identified using NSF's rigorous 
        merit review process.

        <bullet> Finally, the Panel's Report recommends that ``After 
        these two years, until the end of the original 10-year lifetime 
        of the PACI program, the panel believes that'' NCSA, SDSC and 
        PSC ``should continue to be assured of stable, protected 
        funding to provide the highest-end computing resources.''

          Accordingly, and in planning how to provide such support 
        while positioning the community to realize the promise of 
        cyberinfrastructure, NSF has held a series of workshops and 
        town hall meetings over the course of the past two months to 
        gather community input. Informed by community input, support 
        for SDSC, NCSA and PSC will be provided through new awards to 
        be made effective the beginning of FY 2005.

    NSF has also committed to providing support for the management and 
operations of the Extensible Terascale Facility through FY 2009; this 
includes support for SDSC, NCSA and PSC who are partners in the ETF.

3. To what extent will NSF be guided by the recommendations of the 
High-End Computing Revitalization Task Force? How will NSF contribute 
to the Office of Science and Technology Policy plan to revitalize high-
end computing?

    NSF has been an active participant in all four of the subgroups of 
the OSTP current planning activity called HEC-RTF. The final report is 
not finished, but we continue to coordinate closely at all levels with 
OSTP and its sister agencies to make sure that the recommendations of 
the Task Force are carried forward in a productive and effective 
manner. NSF's traditional role as a leader in innovating new HEC 
computational mechanisms and applications, and in ensuring that there 
are appropriate educational programs in place to train scientists and 
engineers to use them, must be integral to any efforts to increase HEC 
capabilities for the Nation.
    We are now planning our request for the FY 2005 budget, and 
cyberinfrastructure, including HEC, is likely to be a major component 
in it. We intend to continue to have more than one high-end machine for 
the NSF community to access and to invest in needed HEC capabilities as 
noted above.

4. To what extent are the advanced computational needs of the 
scientific community and of the private sector diverging? What is the 
impact of any such divergence on the advanced computing programs at 
NSF?

    I don't believe that the advanced computational ``needs'' of the 
science community and the private sector are diverging. In fact, I 
believe that the growing scientific use of massive amounts of data 
parallels what some sectors of industry already know. In terms of HEC, 
it is clear that both communities need significantly faster machines to 
address those problems that can only be solved by massive computations.
    For several decades, NSF has encouraged its academic partners in 
supercomputing, including NCSA, SDSC and PSC, to develop strong 
relationships with industry. The initial emphasis was on 
``supercomputing.'' And many of the industrial partners at the centers 
learned about supercomputing in this way, and then started their own 
internal supercomputer centers.
    When Mosaic (the precursor to Netscape) was developed at NCSA, 
industry was able to rapidly learn about and exploit this new, 
revolutionary technology. As noted above, grid computing, which is 
being innovated at NCSA, SDSC and PSC and their partners today, is 
already being picked up by industry as a promising approach to 
tomorrow's computing problems.
    As researchers push the boundaries in their work, the results (and 
means of obtaining those results) are often quickly picked up by 
industry. Conversely, in some areas industry has had to tackle problems 
(such as data mining) first and now those techniques are becoming 
useful in scientific research. We intend to continue the close 
collaboration that has existed for many years.

Conclusion

    Mr. Chairman, I hope that this testimony dispels any doubt about 
NSF's commitment to HEC and the HIT Centers that today provide 
significant value to the science and engineering community.
    I hope that I have also been able to articulate that the 
cyberinfrastructure vision eloquently described in the Atkins report 
includes HEC and other advanced IT components. This cyberinfrastructure 
will enable a true revolution in science and engineering research and 
education that can bring unimagined benefits to our society.
    NSF recognizes the importance of HEC to the advanced scientific 
computing infrastructure for the advancement of science and knowledge. 
We are committed to continuing investments in HEC and to developing new 
resources that will ensure that the United States maintains the best 
advanced computing facilities in the world. We look forward to working 
with you to ensure that these goals are fulfilled.
    Thank you for the opportunity to appear before you this morning.

                     Biography for Peter A. Freeman

    Peter A. Freeman became Assistant Director for the Computer and 
Information Science and Engineering Directorate (CISE) on May 6, 2002.
    Dr. Freeman was previously at Georgia Institute of Technology as 
professor and founding Dean of the College of Computing since 1990. He 
served in that capacity as the John P. Imlay, Jr. Dean of Computing, 
holding the first endowed Dean's Chair at Georgia Tech. He also served 
as CIO for the campus for three years. In addition, as a general 
officer of the campus, he was heavily involved in planning and 
implementing a wide range of activities for the campus including a 
successful $700M capital campaign and the Yamacraw Economic Development 
Mission. He was in charge of the FutureNet Project, part of the campus 
technology preparations for the 1996 Olympic Village, that resulted in 
a very high-performance and broad campus network. In 1998, he chaired 
the Sam Nunn NationsBank Policy Forum on Information Security which 
lead to the creation of the Georgia Tech Information Security Center, 
one of the first comprehensive centers in the country focused on 
information security.
    During 1989-90 Dr. Freeman was Visiting Distinguished Professor of 
Information Technology at George Mason University in Fairfax, Virginia, 
and from 1987 to 1989 he served as Division Director for Computer and 
Computation Research at the National Science Foundation. He served on 
the faculty of the Department of Information and Computer Science at 
the University of California, Irvine, for almost twenty years before 
coming to Georgia Tech.
    He co-authored The Supply of Information Technology Workers in the 
United States (CRA, 1999) and authored Software Perspectives: The 
System is the Message (Addison Wesley, 1987), Software Systems 
Principles (SRA, 1975), and numerous technical papers. In addition, he 
edited or co-edited four books including, Software Reusability (IEEE 
Computer Society, 1987), and Software Design Techniques, 4th edition 
(IEEE Press, 1983). He was the founding editor of the McGraw-Hill 
Series in Software Engineering and Technology, has served on several 
editorial boards and numerous program committees, and was an active 
consultant to industry, academia, and government.
    Dr. Freeman was a member of the Board of Directors of the Computing 
Research Association (1988-2002), serving as Vice-Chair and Chair of 
the Government Affairs Committee. He was a member of select review 
committees of the IRS and FAA Airtraffic Control modernization efforts, 
and has served on a variety of national and regional committees. While 
at NSF, he helped formulate the High-Performance Computing and 
Communications Initiative of the Federal Government.
    Dr. Freeman is a Fellow of the IEEE (Institute for Electrical and 
Electronics Engineers), AAAS (American Association for the Advancement 
of Science), and the ACM (Association for Computing Machinery). He 
received his Ph.D. in computer science from Carnegie-Mellon University 
in 1970, his M.A. in mathematics and psychology from the University of 
Texas at Austin in 1965, and his B.S. in physics from Rice University 
in 1963. His research and technical expertise has focused on software 
systems and their creation. His earliest work (1961-63) involved 
developing advanced scientific applications in the days before there 
were operating systems and other support software. This led him to 
design and build one of the earliest interactive time-sharing operating 
systems (1964) and ultimately to early work applying artificial 
intelligence to the design process for software (1965-75). This 
culminated with the publication of his first book, Software System 
Principles (SRA, 1975).
    After a short stint teaching overseas for the United Nations, he 
focused his work on software engineering, ultimately being recognized 
for this early work by being elected a Fellow of the IEEE. Along with 
Prof. A.I. Wasserman, he developed one of the first software design 
courses (taken by thousands of industry practitioners) and published a 
highly popular text that served as a first introduction to software 
engineering. His research during this period focused on reusable 
software, especially using formal transformation systems. That work has 
resulted in several startup companies.
    Since 1987 when he was ``loaned'' by the University of California 
to the National Science Foundation, he has focused his attention on 
national policy and local action intended to advance the field of 
computing. In addition to his many activities as Dean at Georgia Tech, 
he headed an NSF-funded national study of the IT worker shortage 
(http://www.cra.org/reports/wits/cra.wits.html), started an active 
group for Deans of IT& Computing, and published several papers relative 
to future directions of the field.

    Chairman Boehlert. Thank you very much, Dr. Freeman.
    The Chair recognizes Mr. Johnson of Illinois.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity to introduce our next guest, and I certainly 
commend the Chairman and the Committee on the amble of the 
hearing as well as the quality of the witnesses that we have 
here.
    It gives me a tremendous amount of pleasure to represent--
or to introduce to you Dr. Daniel A. Reed, who is the Director 
of the National Center for Computing--Supercomputing 
Applications at the University of Illinois, my home university, 
the University of Illinois at Urbana-Champaign. Dr. Reed, who 
is obviously here with us today, serves as the Director of the 
National Computational Science Alliance, the National Center 
for Computing--Supercomputing Applications at the University of 
Illinois at Urbana-Champaign. Dr. Reed is one of two principal 
investigators and the chief architect for the NSF TeraGrid 
project to create a U.S. national infrastructure for grid 
computing. He is an incoming member of the President's 
Information Technology Advisory Committee and was formerly, 
from 1996 to 2001, I believe, Dr. Reed was the head of the 
University of Illinois Computer Science Department and a co-
leader of the National Computational Science Alliance Enabling 
Technology team for three years.
    He brings a tremendous amount of pride to our tremendous 
university, which I think is recognized worldwide as one of the 
leaders in this area. And the impact that Dr. Reed and our 
center has had on the computer science field, not only here but 
around the country and the world, for that matter, is really 
indescribable.
    So with those brief introductory remarks and my 
appreciation to the Chair and the Committee as well as Dr. 
Reed, it gives me a great deal of pleasure to introduce to the 
Committee and--for his testimony, Dr. Daniel A. Reed.
    Dr. Reed. Thank you, Congressman Johnson.
    Chairman Boehlert. Dr. Reed, with a glowing introduction.

STATEMENT OF DR. DANIEL A. REED, DIRECTOR, NATIONAL CENTER FOR 
 SUPERCOMPUTING APPLICATIONS, UNIVERSITY OF ILLINOIS AT URBANA-
                           CHAMPAIGN

    Dr. Reed. Good morning, Mr. Chairman, and Members of the 
Committee. In response to your questions, I would like to make 
three points today regarding the status and future of advanced 
scientific computing.
    First, the National Science Foundation has played a 
critical role in providing the high-end computational 
infrastructure for the science and engineering community, a 
role that really must continue. Via this program, the NSF 
Supercomputing Centers have provided community access to high-
end computers that, as you noted earlier, had previously been 
available only in restricted cases and to researchers at 
National Laboratories. This access is by national peer review, 
which ensures that the most promising proposals from across 
science and engineering benefit from high-end computing 
support.
    NSF's planned cyberinfrastructure will play a critical role 
in accelerating scientific discovery, as Dr. Freeman noted, by 
coupling scientific data archives, instruments, and computing 
resources via distributed grids. The important issue, though, 
and the one we are discussing today, is a relative level of 
investment in distributed cyberinfrastructure and high-end 
computing.
    Grids, which were pioneered by the high-end computing 
community, are not a substitute for high-end computing. Many 
problems of national importance can only be solved by tightly 
coupled high-end computing systems.
    This brings me to my second point: the challenges before 
us. On behalf of the Interagency High-End Computing 
Revitalization Task Force, I recently chaired a workshop on 
high-end computing opportunities and needs. And at the 
workshop, researchers made compelling cases for sustained 
performance levels of 25 to 100 teraflops to enable new 
scientific discoveries. By comparison, the aggregate peak 
performance of the system's now available in NSF's three 
Supercomputing Centers and the Department of Energy's National 
Energy Research Scientific Computing Center, or NERSC, is 
roughly 25 teraflops. Simply put, there are neither enough 
high-end computing systems available nor are there capabilities 
adequate to address critical research opportunities. And 
planned procurements, the ones on the horizon, will not fully 
address that shortfall.
    At the workshop, researchers also cited the difficulty in 
achieving high performance on these machines. In the 1990's, as 
it was mentioned earlier, the U.S. High-Performance Computing 
Communications program supported the development of several new 
machines. But in retrospect, we did not learn a critical 
lesson, a lesson from the 1970's with vector systems, namely 
the need for long-term, sustained investment in both hardware 
and software. In the 1990's, we under-invested in software, and 
we expected innovative research projects to yield robust, 
mature software for use by the science community in only two to 
three years.
    In addition to that, we are now extremely dependent on 
hardware derived, in my opinion, too narrowly from the 
commercial market. Many, though I emphasize not all, scientific 
applications and, indeed, several critical to weapons design, 
signals intelligence, and cryptanalysis are not well matched to 
the capabilities of commercial systems. I believe new high-end 
computing designs will be needed to address some of these 
scientific applications, both fully custom high-end designs, as 
well as more appropriate designs based on commodity components.
    This leads me to my third and final point: appropriate 
levels of cooperation and support for high-end computing. I 
believe we must change the model of development and deployment 
for high-end systems in the U.S. if we are to sustain the 
leadership needed for continued scientific discovery and 
national security. The Japanese Earth System Simulator is a 
wake-up call as it highlights the critical importance of 
industry/government collaboration and sustained investment.
    To sustain U.S. leadership, I believe we must pursue two 
concurrent paths. First, we must continue to acquire and deploy 
high-end systems, but at larger scale if we are to satisfy the 
unmet demands of the open research community. As many have 
noted, many community reports and panels have made this point, 
including the recent NSF cyberinfrastructure report. NSF should 
build on its high-end computing successes and implement the 
high-end computing recommendations of the cyberinfrastructure 
report, increasing and sustaining the long-term investment in 
high-end computing hardware, software, and the support staff 
needed to catalyze scientific discovery.
    But the need for high-end computing is both broad and deep. 
It has both research components as well as mission 
applications. Hence, high-end computing system deployment 
should not be viewed as an interagency competition, but rather 
as an unmet need that requires aggressive responses from many 
agencies. Their complimentary roles in each agency has a place 
to play there.
    Second, and concurrently, we must begin a coordinated R&D 
effort to create systems that are better matched to scientific 
application needs. I believe we must fund the construction of 
large-scale prototypes with balanced exploration of new 
hardware and software models driven critically by scientific 
application requirements. This cycle of coordinated prototyping 
assessment and commercialization must be a long-term and 
sustaining investment. It cannot be a one-time crash program.
    Thank you very much for your time and attention. I will, at 
the appropriate time, be happy to answer questions.
    [The prepared statement of Dr. Reed follows:]

                  Prepared Statement of Daniel A. Reed

    Good morning, Mr. Chairman and Members of the Committee. Thank you 
very much for granting me this opportunity to comment on appropriate 
paths for scientific computing. I am Daniel Reed, Director of the 
National Center for Supercomputing Applications (NCSA), one of three 
NSF-funded high-end computing centers. I am also a researcher in high-
performance computing and a former head of the Department of Computer 
Science at the University of Illinois.
    In response to your questions, I would like to make three points 
today regarding the status and future of advanced scientific computing.

1. Success and Scientific Opportunities

    First, the National Science Foundation has played a critical role 
in providing high-end computational infrastructure for the broad 
university-based science and engineering community, a critical role 
that must continue. NCSA began with NSF funding for the supercomputer 
centers program in the 1980s. Via this program and its successors, the 
NSF supercomputing centers have provided community access to high-end 
computers that previously had been available only to researchers at 
national laboratories. These supercomputing investments have not only 
enabled scientific discovery, they have also catalyzed development of 
new technologies and economic growth.
    The Internet sprang from early DARPA investments and from funding 
for NSFNet, which first connected NSF's supercomputing centers and 
provided open access to high-end computing facilities. NCSA Mosaic, the 
first graphical web browser, which spawned the web revolution, grew 
from development of tools to support collaboration among distributed 
scientific groups. Research by NCSA and the other supercomputing 
centers was instrumental in the birth of scientific visualization--the 
use of graphical imagery to provide insight into complex scientific 
phenomena. Via ONR-funded security center, NCSA is creating new 
cybersecurity technologies to safeguard the information infrastructure 
of our nation and our military forces.
    Today, the NSF supercomputing centers and their Partnerships for 
Advanced Computational Infrastructure (PACI) program and Extended 
Terascale Facility (ETF) partners are developing new tools for 
analyzing and processing the prodigious volumes of experimental data 
being produced by new scientific instruments. They are also developing 
new Grid technologies that couple distributed instruments, data 
archives and high-end computing facilities, allowing national research 
collaborations on an unprecedented scale.
    Access to high-end computing facilities at NCSA, the San Diego 
Supercomputing Center (SDSC) and the Pittsburgh Supercomputing Center 
(PSC) is provided by national peer review, with computational science 
researchers reviewing the proposals for supercomputing time and 
support. This process awards access to researchers without regard to 
the source of their research funds. The three centers support 
researchers with DOE, NIH and NASA awards, among others. This ensures 
that the most promising proposals from across the entire science and 
engineering community gain access to high-end computing hardware, 
support staff and software. Examples include:

        <bullet> Simulation of cosmological evolution to test basic 
        theories of the large-scale structure of the universe

        <bullet> Quantum chromodynamics simulations to test the 
        Standard Model of particle physics

        <bullet> Numerical simulation of weather and severe storms for 
        accurate prediction of severe storm tracks

        <bullet> Climate modeling to understand the effects of climate 
        change and assess global warming

        <bullet> Studying the dynamics and energetics of complex 
        macromolecules for drug design

        <bullet> Nanomaterials design and assessment

        <bullet> Fluid flow studies to design more fuel-efficient 
        aircraft engines

    From these, let me highlight just two examples of scientific 
exploration enabled by high-end computing, and the limitations on 
computing power we currently face.
    A revolution is underway in both astronomy and high-energy physics, 
powered in no small part by high-end scientific computing. New data, 
taken from high-resolution sky surveys, have exposed profound questions 
about the nature and structure of the universe. We now know that the 
overwhelming majority of the matter in the universe is of an unknown 
type, dubbed ``dark matter,'' that is not predicted by the Standard 
Model of physics. Observations also suggest that an unknown ``dark 
energy'' is causing the universe to expand at an ever-increasing rate. 
Both of these discoveries are profound and unexpected.
    Large-scale simulations at NCSA and other high-end computing 
centers are being used to investigate models of the evolution of the 
universe, providing insight in the viability of competing theories. The 
goal of these simulations is to create a computational ``universe in a 
box'' that evolves from first principles to conditions similar to that 
seen today. These cosmological studies also highlight one of the unique 
capabilities of large-scale scientific simulation--the ability to model 
phenomena where experiments are otherwise not possible.
    As a second example, the intersecting frontiers of biology and 
high-end computing are illuminating biological processes and medical 
treatments for disease. We have had many successes and others are near. 
For example, given large numbers of small DNA fragments, high-end 
computing enabled ``shotgun sequencing'' approaches for assembling the 
first maps of the human genome. High-end computing has also enabled us 
to understand how water moves through cell walls, how blood flow in the 
heart can disrupt the plaque that causes embolisms, and how new drugs 
behave.
    Unraveling the DNA code for humans and organisms has enabled 
biologists and biomedical researchers to ask new questions, such as how 
genes control protein formation and cell regulatory pathways and how 
different genes increase the susceptibility to disease. Biophysics and 
molecular dynamics simulations are now being used to study the 
structure and behavior of biological membranes, drug receptors and 
proteins. In particular, understanding how proteins form three-
dimensional structures is central to designing better drugs and 
combating deadly diseases such as HIV and SARS. Today's most powerful 
high-end computing systems can only simulate microseconds of the 
protein folding process; complete folding takes milliseconds or more. 
Such large-scale biological simulations will require vast increases in 
computing capability, perhaps as much as 1000 times today's capability.
    Simply put, we are on the threshold of a new era of scientific 
discovery, enabled by computational models of complex phenomena. From 
astronomy to zoology, high-end computing has become a peer to theory 
and experiment for exploring the frontiers of science and engineering.
    This brings me to my second point: the challenges before us.

2. Challenges

    Although large-scale computational simulation has assumed a role 
equal to experiment and theory in the scientific community, within that 
community, we face critical challenges. There is a large and unmet 
demand for access to high-end computing in support of basic scientific 
and engineering research. There are neither enough high-end computing 
systems available nor are their capabilities adequate to address fully 
the research challenges and opportunities. This view is supported by 
recent workshops, reports and surveys, including the NSF report on 
high-end computing and cyberinfrastructure, the DOD integrated high-end 
computing report, and the DOE study on a science case for large-scale 
simulation.
    On behalf of the interagency High-End Computing Revitalization Task 
Force (HECRTF), I recently chaired a workshop to gain community input 
on high-end computing opportunities and needs. At the workshop, 
researchers from multiple disciplines made compelling cases for 
sustained computing performance of 50-100X beyond that currently 
available. Moreover, researchers in every discipline at the HECRTF 
workshop cited the difficulty in achieving high, sustained performance 
(relative to peak) on complex applications to reach new, important 
scientific thresholds. Let me cite just a few examples to illustrate 
both the need and our current shortfall.
    In high-energy physics, lattice quantum chromodynamics (QCD) 
calculations, which compute the masses of fundamental particles from 
first principles, require a sustained performance of 20-50 teraflops/
second (one teraflop is 10<SUP>12</SUP> arithmetic operations per 
second). This would enable predicative calculations for ongoing and 
planned experiments. In magnetic fusion research, sustained performance 
of 20 teraflops/second would allow full-scale tokamak simulations, 
providing insights into the design and behavior of proposed fusion 
reactor experiments such as the international ITER project. HECRTF 
workshop participants also estimated that a sustained performance of 50 
teraflops/second would be needed to develop realistic models of complex 
mineral surfaces for environmental remediation, and to develop new 
catalysts that are more energy efficient.
    Note that each of these requirements is for sustained performance, 
rather than peak hardware performance. This is notable for two reasons. 
First, the aggregate peak performance of the high-end computing systems 
now available at NSF's three supercomputing centers (NCSA, SDSC and 
PSC) and DOE's National Energy Research Scientific Computing Center 
(NERSC) is roughly 25 teraflops.\1\ Second, researchers in every 
discipline at the HECRTF workshop cited the difficulty in achieving 
high, sustained performance (relative to peak) on complex applications.
---------------------------------------------------------------------------
    \1\ According to the most recent ``Top 500'' list (www.top500.org), 
6 teraflops at PSC, 6 teraflops at NCSA, 3.7 teraflops at SDSC and 10 
teraflops at NERSC. Upcoming deployments at NCSA, SDSC and PSC will 
raise this number, but the aggregate will still be far less than user 
requirements.
---------------------------------------------------------------------------
    Simply put, the Nation's aggregate, open capability in high-end 
computing is at best equal to the scientific community's estimate of 
that needed for a single, breakthrough scientific application study. 
This is an optimistic estimate, as it assumes one could couple all 
these systems and achieve 100 percent efficiency. Instead, these open 
systems are shared by a large number of users, and the achieved 
application performance is often a small fraction of the peak hardware 
performance. This is not an agency-specific issue, but rather a 
shortfall in high-end computing capability that must be addressed by 
all agencies to serve their community's needs.
    Achieving high-performance for complex applications requires a 
judicious match of computer architecture, system software and software 
development tools. Most researchers in high-end computing believe the 
key reasons for our current difficulties in achieving high performance 
on complex scientific applications can be traced to (a) inadequate 
research investment in software and (b) use of processor and memory 
architectures that are not well matched to scientific applications. 
Today, scientific applications are developed with software tools that 
are crude compared to those used in the commercial sector. Low-level 
programming, based on message-passing libraries, means that application 
developers must provide deep knowledge of application software behavior 
and its interaction with the underlying computing hardware. This is a 
tremendous intellectual burden that, unless rectified, will continue to 
limit the usability of high-end computing systems, restricting 
effective access to a small cadre of researchers.
    Developing effective software (programming languages and tools, 
compilers, debuggers and performance tools) requires time and 
experience. Roughly twenty years elapsed from the time vector systems 
such as the Cray-1 first appeared in the 1970s until researchers and 
vendors developed compilers that could automatically generate software 
that operated as efficiently as that written by a human. This required 
multiple iterations of research, testing, product deployment and 
feedback before success was achieved.
    In the 1990s, the U.S. HPCC program supported the development of 
several new computer systems. In retrospect, we did not learn the 
critical lesson of vector computing, namely the need for long-term, 
sustained and balanced investment in both hardware and software. We 
under-invested in software and expected innovative research approaches 
to high-level programming to yield robust, mature software in only 2-3 
years. One need only look at the development history of Microsoft 
WindowsTM to recognize the importance of an iterated cycle of 
development, deployment and feedback to develop an effective, widely 
used product. High quality research software is not cheap, it is labor 
intensive, and its successful creation requires the opportunity to 
incorporate the lessons learned from previous versions.
    The second challenge for high-end computing is dependence on 
products derived too narrowly from the commercial computing market. 
Although this provides enormous financial leverage and rapid increases 
in peak processor performance, commercial and scientific computing 
workloads differ in one important and critical way--access to memory. 
Most commercial computer systems are designed to support applications 
that access a small fraction of a system's total memory during a given 
interval.
    For commercial workloads, caches--small, high-speed memories 
attached to the processor--can hold the critical data for rapid access. 
In contrast, many, though not all, scientific applications (and several 
of those critical to signals intelligence and cryptanalysis) have 
irregular patterns of access to a large fraction of a system's memory. 
This is not a criticism of vendors, but rather a marketplace reality we 
must recognize and leverage. New high-end computing designs are needed 
to support these characteristics, both for fully custom high-end 
computer designs and more appropriate designs based on commodity 
components.
    The dramatic growth of the U.S. computing industry, with its 
concomitant economic benefits, has shifted the balance of influence on 
computing system design away from the government to the private sector. 
As the relative size of the high-end computing market has shrunk, we 
have not sustained the requisite levels of innovation and investment in 
high-end architecture and software needed for long-term U.S. 
competitiveness. Alternative strategies will be required.
    This leads me to my third and final point: appropriate models of 
cooperation and support for high-end computing.

3. Actions

    We must change the model for development, acquisition and 
deployment of high-end computing systems if the U.S. is to sustain the 
leadership needed for scientific discovery and national security in the 
long-term. The Japanese Earth System Simulator is a wakeup call, as it 
highlights the critical importance of both industry-government 
collaboration and long-term sustained investment. Reflecting the 
lessons of long-term investment I discussed earlier, the Earth System 
Simulator builds on twenty years of continued investment in a 
particular hardware and software model, and the lessons of six product 
generations. To sustain U.S. leadership in computational science, we 
must pursue two concurrent and mutually supporting paths, one short- to 
medium-term and the second long-term.
    In the short- to medium-term, we must acquire and continue to 
deploy additional high-end systems at larger scale if we are to satisfy 
the unmet demand of the science and engineering research community. 
NSF's recent cyberinfrastructure report,\2\ DOD's integrated high-end 
computing report, and DOE's ultrascale simulation studies have all made 
such recommendations. As one example, the cyberinfrastructure report 
noted ``The United States academic research community should have 
access to the most powerful computers that can be built and operated in 
production mode at any point in time, rather than an order of magnitude 
less powerful, as has often been the case in the past decade.'' The 
cyberinfrastructure report estimated this deployment as costing roughly 
$75M/year per facility, with $50M/year per facility allocated to high-
end computing hardware.
---------------------------------------------------------------------------
    \2\ ``Revolutionizing Science and Engineering Through 
Cyberinfrastructure: Report of the National Science Foundation Blue-
Ribbon Advisory Panel on Cyberinfrastructure,'' January 2003, 
www.cise.nsf.gov/evnt/reports/toc.htm
---------------------------------------------------------------------------
    Given the interdependence between application characteristics and 
hardware architecture, this will require deployment of high-end systems 
based on diverse architectures, including large-scale message-based 
clusters, shared memory systems (SMPs) and vector systems.\3\ Moreover, 
these systems must not be deployed in a vacuum, but rather must 
leverage another critical element of sustainable infrastructure--the 
experienced support staff members who work with application scientists 
to use high-end systems effectively. These high-end centers must also 
interoperate with a broad infrastructure of data archives, high-speed 
networks and scientific instruments.
---------------------------------------------------------------------------
    \3\ This is the approach we have adopted at NCSA, deploying 
multiple platforms, each targeting a distinct set of application needs.
---------------------------------------------------------------------------
    High-end computing system deployments should not be viewed as an 
interagency competition, but rather as an unmet need that requires 
aggressive responses from multiple agencies. NSF and its academic 
supercomputing centers have successfully served the open academic 
research community for seventeen years; NSF should build on this 
success by deploying larger systems for open community access. 
Similarly, DOE has well served the high-end computing needs of 
laboratory researchers; it too should build on its successes. NIH, DOD, 
NASA, NSA and other agencies also require high-end capabilities in 
support of their missions, both for research and for national needs. 
The need is so large, and the shortfall is so great, that broader 
investment is needed by all agencies.
    Concurrent with these deployments, we must begin a coordinated 
research and development effort to create high-end systems that are 
better matched to the characteristics of scientific applications. To be 
successful, these efforts must be coordinated across agencies in a much 
deeper and tighter way than in the past. This will require a broad, 
interagency program of basic research into computer architectures, 
system software, programming models, software tools and algorithms.
    In addition, we must fund the design and construction of large-
scale prototypes of next-generation high-end systems that includes 
balanced exploration of new hardware and software models, driven by 
scientific application requirements. Multiple, concurrent efforts will 
be required to reduce risk and to explore a sufficiently broad range of 
ideas; six efforts, each federally funded at a minimum level of $5M-
$10M/year for five years, is the appropriate scale. At smaller scale, 
one will not be able to gain the requisite insights into the interplay 
of application needs, hardware capabilities, system software and 
programming models.
    Such large-scale prototyping efforts will require the deep 
involvement and coordinated collaboration of vendors, national 
laboratories and centers, and academic researchers, with coordinated, 
multi-agency investment. After experimental assessment and community 
feedback, the most promising efforts should then transition to even 
larger scaling testing and vendor productization, and new prototyping 
efforts should be launched. It is also important to remember the lesson 
of the Earth System Simulator--the critical cycle of prototyping, 
assessment, and commercialization must be a long-term, sustaining 
investment, not a one time, crash program.
    I believe we face both great opportunities and great challenges in 
high-end computing. Scientific discovery via computational science 
truly is the ``endless frontier'' of which Vannevar Bush spoke so 
eloquently in 1945. The challenges are for us to sustain the research, 
development and deployment of the high-end computing infrastructure 
needed to enable those discoveries.
    In conclusion, Mr. Chairman, let me thank you for this committee's 
longstanding support for scientific discovery and innovation. Thank you 
very much for your time and attention. I would be pleased to answer any 
questions you might have.

                      Biography for Daniel A. Reed

    Edward William and Jane Marr Gutgsell Professor; Director, National 
Center for Supercomputing Applications; Director, National 
Computational Science Alliance; Chief Architect, NSF ETF TeraGrid; 
University of Illinois at Urbana-Champaign

    Dan Reed serves as Director of the National Computational Science 
Alliance (Alliance) and the National Center for Supercomputing 
Applications (NCSA) at the University of Illinois, Urbana-Champaign. In 
this dual directorship role, Reed provides strategic direction and 
leadership to the Alliance and NCSA and is the principal investigator 
for the Alliance cooperative agreement with the National Science 
Foundation.
    Dr. Reed is one of two principal investigators and the Chief 
Architect for the NSF TeraGrid project to create a U.S. national 
infrastructure for Grid computing. The TeraGrid is a multi-year effort 
to build and deploy the world's largest, fastest, distributed computing 
infrastructure for open scientific research. Scientists will use the 
TeraGrid to make fundamental discoveries in fields as varied as 
biomedicine, global climate, and astrophysics. Dr. Reed is also the 
principal investigator and leader of NEESgrid, the system integration 
project for NSF's George E. Brown Jr. Network for Earthquake 
Engineering Simulation (NEES), which is integrating distributed 
instruments, computing systems, and collaboration infrastructure to 
transform earthquake engineering research.
    Reed was head of the University of Illinois computer science 
department from 1996 to 2001 and, before becoming NCSA and Alliance 
director was co-leader of the Alliance's Enabling Technologies teams 
for three years. He is a member of several national collaborations, 
including the NSF Center for Grid Application Development Software, the 
Department of Energy (DOE) Scientific Discovery through Advanced 
Computing program, and the Los Alamos Computer Science Institute. He is 
chair of the NERSC Policy Board for Lawrence Berkeley National 
Laboratory, is co-chair of the Grid Physics Network Advisory Committee 
and is a member of the board of directors of the Computing Research 
Association (CRA). He recently served as program chair for the workshop 
on the Road Map for the Revitalization of High End Computing for 
Information Technology Research and Development (NTTRD). He is an 
incoming member of the President's Information Technology Advisory 
Committee (PITAC). In addition, he served as a member of Illinois 
Governor's VentureTECH committee, which advised the former governor on 
technology investment in Illinois.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you, Dr. Reed. And I might say you 
lived up to the advanced billing so ably presented by Mr. 
Johnson.
    Dr. Reed. Thank you.
    Chairman Boehlert. Mr. Scarafino.

  STATEMENT OF MR. VINCENT F. SCARAFINO, MANAGER, NUMERICALLY 
            INTENSIVE COMPUTING, FORD MOTOR COMPANY

    Mr. Scarafino. Thank you for the opportunity to testify 
regarding the national needs for advanced scientific computing 
and industrial applications. My name is Vincent Scarafino, and 
I am Manager of Numerically Intensive Computing for Ford Motor 
Company.
    Ford has a long and proud history of leadership in 
advancing engineering applications and technologies that 
stretches back over the last 100 years. Ford uses high-
performance computing to help predict the behavior of its 
products in nominal and extreme conditions. Approximately half 
of the computing capacity is used for safety analysis to 
determine what its vehicles will do in impact situations. Other 
uses include vehicle ride performance, usually referred to as 
NVH, noise, vibration, and harshness, which is predicted using 
model analysis techniques. Fluid flow analysis is used to 
predict such things as drag characteristics of vehicles, under 
hood temperatures, defroster and interior climate control, 
catalytic converter design, and exhaust systems.
    Computing capabilities allow Ford to accelerate the design 
cycle. Better high-end computing systems will help engineers 
balance competing design requirements. Performance, durability, 
crash worthiness, occupant and pedestrian protection are among 
them. These tools are necessary to stay in business. 
Competition from national and international companies is 
intense.
    Significantly faster high-end machines would help improve 
the ability to predict vehicle safety as well as the durability 
and wind noise characteristics, which are among the most cited 
customer issues. Although safety codes now run well on--in 
parallel on commodity-based clusters, high-end machines would 
provide improved turnaround times, leading to reduced design 
cycle time and the opportunity to explore a greater variance of 
design parameters. Advanced durability and wind noise analyses 
typically require computer runs greater than two weeks, and 
this is with coarse models on the fastest machines we have 
access to. The durability work runs on 4-way SMP 1.25 GHz Alpha 
processors. The wind noise runs with 6-way SMP on a Cray T90. 
They cannot effectively use more processors.
    Up until the mid-1990's, the Federal Government had helped 
with the development of high-end machines with faster, more 
powerful processing capability and matching memory bandwidth 
and latency characteristics by helping to fund development and 
create a market for them. These machines were built mainly to 
meet the needs of government security and scientific research. 
Once they were built, there was a limited, but significant 
application of these machines in the private sector. The 
availability of higher capability machines advanced the 
application of science in the private sector. This worked quite 
well.
    In the mid-1990's, the Federal Government decided to rely 
on utilizing off-the-shelf components and depend on the ability 
to combine thousands of these components to work in harmony to 
meet its advanced high-performance computing needs. The result 
was an advance in the areas of computer science that dealt with 
parallel processing. Over the last eight years, some kinds of 
applications have adapted well to the more constrained 
environment supported by these commodity-based machines. 
Vehicle safety analysis programs are an example. Most vehicle 
impact analysis can now be done on commodity clusters. We have 
learned how to do ``old science'' considerably cheaper.
    We have not made any significant advancement in new 
science, some examples of which would include advanced occupant 
injury analysis and the modeling of new complex materials, such 
as composites. The physics is more complex, and the 
computational requirements are beyond current capability. The 
hardest problems do not adapt well to parallel architectures. 
Either we don't know enough about the problem to develop a 
parallel solution, or they do not--they are not parallel by 
nature.
    The Federal Government cannot rely on fundamental economic 
forces to advance high-performance computing capability. The 
only economic model with enough volume to drive this kind of 
development is the video game industry. Unfortunately, these 
models--these machines are very fast only for a particular 
application and do not provide a general solution. The Federal 
Government should help with the advancement of high-end 
processor design and other fundamental components necessary to 
develop well-balanced, highly capable machines. U.S. leadership 
is currently at risk.
    The advanced computing needs of the scientific community 
and the private sector are not diverging. The fact that there 
has been no fundamental advance in high-performance capability 
computers in the last eight years has forced these communities 
to adapt less qualified commercial offerings to the solution of 
their problems. If advanced computing capability becomes 
available in the form of next-generation supercomputers, the 
scientific community and the private sector would be able to 
utilize them for the application of new science.
    Thank you.
    [The prepared statement of Mr. Scarafino follows:]

               Prepared Statement of Vincent F. Scarafino

    Thank you for the opportunity to testify regarding the national 
needs for advanced scientific computing and industrial applications. My 
name is Vincent Scarafino and I am Manager of Numerically Intensive 
Computing for Ford Motor Company. Our automotive brands include Ford, 
Lincoln, Mercury, Volvo, Jaguar, Land Rover, Aston Martin and Mazda.
    Ford has a long and proud history of leadership in advanced 
engineering applications and technologies that stretches back over the 
last 100 years. Henry Ford set the tone for the research and 
development that has brought many firsts to the mass public. In the 
future, the company will continue to apply innovative technology to its 
core business. New technologies, such as hybrid electric and fuel cell 
powered vehicles, will help achieve new goals, reward our shareholders 
and benefit society. We understand that the quality and safety or our 
products are fundamental to our corporate success.
    For example, to be among the leaders in vehicles safety, we must 
commit ourselves to ongoing improvement of the safety and value our 
products. We do this through research, product development and 
extensive testing of our products.
    Ford uses high-performance computing to help predict the behavior 
of its products in nominal and extreme conditions. Approximately half 
of the computing capacity is used for safety analysis to determine what 
its vehicles will do in impact situations. Other uses include vehicle 
ride performance (usually referred to as NVH--noise, vibration and 
harshness), which is predicted using modal analysis techniques. Fluid 
flow analysis is used to predict such things as drag characteristics of 
vehicles, under hood temperatures, defroster and interior climate 
control, catalytic converter design, and exhaust systems.
    Computing capabilities allow Ford to accelerate the design cycle. 
Better high-end computing systems will help engineers balance competing 
design requirements--performance, durability, crash-worthiness, 
occupant and pedestrian protection are among them. These tools are 
necessary to stay in business. Competition from national and 
international companies is intense.
    Significantly faster high-end machines would help improve the 
ability to predict vehicle safety as well as durability and wind noise 
characteristics, which are among the most cited customer issues. 
Although safety codes now run well in parallel on commodity based 
clusters, high-end machines would provide improved turnaround times 
leading to reduced design cycle time and the opportunity to explore a 
greater variance of design parameters. Advanced durability and wind 
noise analyses typically require computer runs greater than two weeks, 
and this is with coarse models on the fastest machines we have access 
to. The durability work runs on 4-way SMP 1.25 GHz Alpha processors. 
The wind noise runs with 6-way SMP on a Cray T90. They cannot 
effectively use more processors.
    Up until the mid 1990's, the Federal Government had helped with the 
development of high-end machines with faster, more powerful processing 
capability and matching memory bandwidth and latency characteristics by 
helping to fund development and create a market for them. These 
machines were built mainly to meet the needs of government security and 
scientific research. Once they were built, there was a limited, but 
significant application of these machines in the private sector. The 
availability of higher capability machines advanced the application of 
science in the private sector. This worked quite well.
    In the mid 1990's the Federal Government decided to rely on 
utilizing off-the-shelf components and depend on the ability to combine 
thousands of these components to work in harmony to meet its advanced 
high-performance computing needs. The result was an advance in the 
areas of computer science that dealt with parallel processing. Over the 
last eight years, some kinds of applications have adapted well to the 
more constrained environment supported by these commodity based 
machines. Vehicle safety analysis programs are an example. Most vehicle 
impact analysis can now be done on commodity clusters. We have learned 
how to do ``old science'' considerably cheaper. We have not made any 
significant advancement in new science. Some examples include advanced 
occupant injury analysis and the modeling of new complex materials such 
as composites. The physics is more complex and the computational 
requirements are beyond current capability. The hardest problems do not 
adapt well to parallel architectures. Either we don't know enough about 
the problem to develop a parallel solution, or they are not parallel by 
nature.
    The Federal Government cannot rely on fundamental economic forces 
to advance high-performance computing capability. The only economic 
model with enough volume to drive this kind of development is the video 
game industry. Unfortunately these machines are very fast only for a 
particular application and do not provide a general solution. The 
Federal Government should help with the advancement of high-end 
processor design and other fundamental components necessary to develop 
well-balanced, highly capable machines. U.S. leadership is currently at 
risk.
    The advanced computing needs of the scientific community and the 
private sector are not diverging. The fact that there has been no 
fundamental advance in high-performance capability computers in the 
last eight years has forced these communities to adapt less qualified 
commercial offerings to the solution of their problems. If advanced 
computing capability becomes available in the form of next generation 
supercomputers, the scientific community and the private sector would 
be able to utilize them for the application of new science.
    Ford continues to invest time, money and a significant portion of 
our company's human resources to study and explore how our vehicles can 
perform even better for the next 100 years. We believe that the next 
generation of supercomputers is essential to ensure that our industry, 
which has contributed greatly to economic growth in this country, 
remains competitive.

                   Biography for Vincent F. Scarafino

    Vince Scarafino is currently Manager of Numerically Intensive 
Computing at Ford Motor Company. He has been with Ford for close to 30 
years and has over 35 years of experience with computers and computing 
systems. Most of his work has been in the engineering and scientific 
areas. He started with GE 635, IBM 7090, and IBM 1130 machines. His 
experience with security and relational data base technology on Multics 
systems lead to sharing knowledge with academic and government 
organizations. His efforts in the last decade have been dedicated to 
providing flexible and reliable supercomputer resources for the vehicle 
product development community at Ford via an open systems-based grid 
environment connecting three data centers on two continents. He 
currently manages a broad range of high performance computers, from 
Cray T90 to Linux Beowulf Clusters, that are used by Ford's engineers 
around the world for such things as vehicle design and safety analysis.
    Vince has a degree in mechanical engineering from the University of 
Michigan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much.
    Let me start by asking Dr. Orbach and Dr. Freeman. This 
interagency coordination that we think is so vital, as I 
understand it, that is sort of being shepherded by OSTP. And 
how long has that been in operation, this interagency 
coordinating vehicle? What are they called? Council or--Dr. 
Orbach?
    Dr. Orbach. It is the High-End Computing Revitalization 
Task Force. That Committee is expected to finish its report in 
August, next month, and has been in progress for about six 
months.
    Dr. Freeman. A bit less, I believe. It started in the April 
time frame, I believe.
    Chairman Boehlert. Okay. But the report is not the end of 
the job. I mean, they are going to--it is going to continue, 
isn't it?
    Dr. Freeman. I am not certain of the intentions of OSTP.
    Chairman Boehlert. Do you think it should continue? In 
other words, don't you think we need an interagency 
coordinating vehicle to carry forward on a continuing basis a 
program where the principals of the agencies involved get 
together, not to just chat and pass the time of day, but get 
really serious about a really serious subject?
    Dr. Freeman. I certainly agree that coordination is 
necessary. Let me remind you that there has been in existence, 
for over 10 years, the National Coordination Office for 
Networking and IT R&D. Indeed, that office, the National 
Coordination Office, is managing the High-End Computing 
Revitalization Task Force that we were just discussing.
    Chairman Boehlert. That has been in existence for a decade 
at a time when--instead of going like this, as we all want to, 
and the recorder can't say ``like this'', so let me point out a 
dramatic upward turn, it sort of leveled off. And we are 
getting the pants beat off of us in some areas.
    Dr. Freeman. I think my point, Mr. Chairman, is that the 
mechanism is in place for coordination. As you know, I have 
only been in the government for about a year, so I can't speak 
to the total history of that office, but I think, certainly--
and I chair or co-chair the Interagency Working Group. But 
the--what I hear you calling for is a higher level 
coordination. I think some steps have already been taken in 
that direction that Dr. Orbach may be able to speak to.
    Chairman Boehlert. But would you agree that OSTP is the 
place, maybe, to be the coordinating vehicle for this 
interagency cooperative effort? And don't be turf-conscious. I 
mean, just sort of give it some thought. I mean, the Science 
Advisor to the President, head of the Office of Science and 
Technology Policy, it would seem to me that would be the ideal 
vehicle and that the principals not send a designee to that 
meeting, or at least every meeting. Once in a while the 
principals, including Dr. Marberger and Dr. Freeman and Dr. 
Orbach, you know, you get there, not some designee. And you 
really talk turkey.
    And then it seems to me that as you go in your budget 
preparation for the next years, you are going into OMB. You go 
so--forward with a coordinated plan, so that if OMB is looking 
at Orbach's recommendation for DOE, they will be mindful of 
what Freeman's recommendation is for NSF and what somebody 
else's is for DARPA, in other words, a coordinated approach. 
This is too big a challenge to not just really put our shoulder 
to the wheel, so to speak, and that is sort of an uncomfortable 
position, but you know exactly what I am saying.
    Dr. Orbach, do you have any comment on that?
    Dr. Orbach. Mr. Chairman, I subscribe to your remarks 
directly. In fact, the principals did meet, under Dr. 
Marberger's direction, a few weeks ago to discuss precisely the 
issues, which you laid out.
    Chairman Boehlert. And they are going forward?
    Dr. Orbach. And they are going forward. And my personal 
preference would be that OSTP would continue that relationship 
and leadership. When the principals met, there was unanimity 
that it was--needed to be a collaborative affair where each of 
us brought our areas of expertise to the table and work 
together.
    Chairman Boehlert. And the coordinated approach to the 
budget process is extremely important. Speaking about the 
budget process, what about beyond '04, Dr. Freeman, with NSF's 
plans for the Supercomputing Centers? Where do you envision 
going in '05 and '06?
    Dr. Freeman. Well, as I noted in my both verbal and written 
testimony, although we have announced plans to change the 
modality of funding in line with the recommendations of the 
Atkins Report, we intend that the amount of money going into 
the activities that are currently covered by that PACI program, 
in fact, will increase. We have announced some aspects of that. 
As I noted, other aspects are currently under internal 
preparation and will be announced and vetted through our 
National Science Board in the coming month.
    Chairman Boehlert. So is that in the future I should be 
optimistic about our centers beyond '04?
    Dr. Freeman. Absolutely, and I----
    Chairman Boehlert. And I should be optimistic that 
resources will come to do some of the things that need to be 
done in terms of purchasing hardware, for example?
    Dr. Freeman. That is certainly our intention.
    Chairman Boehlert. Thank you very much. And Mr. Johnson, if 
he were here, would be comforted by that answer.
    Let me ask----
    Dr. Freeman. As well as Dr. Reed, I might add.
    Chairman Boehlert. Well, I know. I didn't want to be too 
obvious.
    Let me turn to our non-government witnesses, Dr. Reed and 
Mr. Scarafino. And I thank you for your input. Is the Federal 
Government policy, as you understand it, and I am not quite 
sure it is crystal clear, do you think we are moving in the 
right direction? And if not, where would you put some 
additional focus? We will start with you, Dr. Reed.
    Dr. Reed. Well, I agree, absolutely, that I think greater 
coordination is needed. I think one of the challenges for us--
as I said, there are really two aspects of this problem. There 
is what we do in the short-term and the medium-term to address 
the shortfall of the scientific needs, vis-a-vis the Earth 
Simulator and what is available to the science community. And 
there is a clear shortfall. And I realize everyone that comes 
before you pleads poverty and asks for more money. I mean, that 
is--I know that. But there is a clear need for additional 
resources to address the community. I think it is fair to say 
that in terms of one sort of breakthrough calculation, we, 
perhaps, have, in the open community, enough supercomputing 
capability for, perhaps, solving one problem, at the moment. 
And there are many problems at that scale that the community 
would like to solve. So that is one of the issues.
    The longer-term issue, and the place where I think 
coordination is equally critical in addressing the issue that 
Mr. Scarafino addressed as well, and that is the commercial 
application of technology to high-performance computing. There 
is a disconnect in the capability that we can procure, 
regardless of the amount of money we have, to address certain 
needs. And some of those machines simply aren't available at 
any price right now.
    And the place where coordination would be enormously 
helpful is not only--if you think about the research pipeline 
from the basic long-term research that is required to 
investigate the new architectures and new software and new 
algorithms for applications, the place where we have had a gap, 
in some sense, has been the building of machines at 
sufficiently large scale to test them so that industry would 
pick them up and commercialize them and make them products. 
That gap is a place where coordination across DARPA, DOE, NSF, 
and other agencies could really play a critical role. And I 
think one of the things we have to do there is fund coordinated 
teams across those agencies to address some of those 
challenges. That is a place where, operationally, a very big 
difference could be made. And that was a message that was 
echoed very loudly at the workshop I chaired, which was the 
community input workshop to the process that Dr. Freeman and 
Dr. Orbach discussed where the science and engineering 
community was providing responses to what the tentative agency 
plans were.
    Chairman Boehlert. Mr. Scarafino?
    Mr. Scarafino. I am not sure exactly what kind of 
mechanisms could be best used to accomplish these things, but 
it is very good that the Federal Government is awakened to the 
shortcomings in the very-high computing arena and that they are 
basically taking steps to correct that. That is----
    Chairman Boehlert. So I would imagine within Ford--you 
notice I gave you a plug in my introductory statement. I said 
when the light bulb went on, we had a better idea. Thank you 
very much for that response.
    The Chair recognizes Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman. And thank you for 
calling this hearing. I would agree with the Chair and Ranking 
Member that it is an extremely important topic, and I 
appreciate your testimony here today.
    I want to follow up on an issue that Chairman Boehlert 
raised in his opening statement regarding Japan and the fact 
that they are recognized as the world leader in supercomputing 
and certainly have a lead on us and combine that with another 
subject that this committee has paid a great deal of attention 
to over the course of this year, and that is nanotechnology, 
because in a similar parallel, Japan is also a world leader in 
the area of nanotech. As you all know, in the future, it is 
likely that nanotech particles or a nanochip will be used to 
replace the silicon chip, and nanotech products or nanochips 
are smaller and can hold more memory and have a lot of 
advantages. And since it is the role of the government to 
continue to fund research on new approaches to building high-
performance computing hardware or supercomputers and nanotech 
seems to be a means to this end, can you tell me, and perhaps 
beginning with Dr. Orbach and anybody else who would like to 
comment, in what ways the government is looking at 
nanotechnology to create or develop new supercomputing hardware 
and any progress that is being made in that area?
    Dr. Orbach. It works both ways. Not only can nanotechnology 
assist in the creation of new architectures, but also the high-
end computing is required to understand the properties of 
nanoscale materials. The Office of Science had a workshop on 
theory and modeling in nanoscience, and discovered that 
computational capabilities, exactly as Mr. Scarafino talked 
about with regard to composites, is essential to really 
understand what it is you are doing when you are creating these 
new materials at the atomic level. So it works both ways and is 
a critical need.
    Mr. Bell. Dr. Reed, I saw you--or Dr. Freeman, did you want 
to comment?
    Dr. Freeman. Yes, I would just note that NSF is heavily 
involved in the government-wide nanotechnology initiative, as 
you know. One of the missions of the directorate that I head is 
to explore, if I may use the vernacular, far out possibilities 
for computation: quantum computing, biological computing in the 
sense of using biological materials to compute. And I am sure 
that some of our investigators are looking at some of the types 
of applications that you referred to as well.
    Mr. Bell. Dr. Reed?
    Dr. Reed. I just want to echo what was said. It is 
certainly the case that applications of high-end computing are 
really critical to exploring novel materials. One of the things 
that we are close to being able to do, that we can see on the 
horizon, is looking at ab initio calculations from first 
principles to design new composite materials. And that is one 
of the applications.
    To hop back to the lead-in of your question about the Earth 
System Simulator and that aspect of it, I think one of the 
lessons to draw from that effort is the importance of long-term 
investment. The Earth Simulator was not an overnight sensation. 
It was a long period of investment. There were roughly 20 years 
of R&D behind that machine and six generations of precursor 
products where ideas and technologies were combined to build 
that. And that is why earlier in my oral testimony I said that 
sustained investment is really part of the key to developing 
these technologies.
    But Dr. Freeman and Dr. Orbach are absolutely correct that 
there is an interplay. It goes both ways. The application of 
high-end computing can design materials, and new materials are 
really critical in designing the next generation of machines.
    Mr. Bell. Mr. Scarafino?
    Mr. Scarafino. I don't really have any expertise in this 
area, so there is nothing I could add.
    Mr. Bell. Fair enough. And Dr. Reed, maybe I should ask 
you, or any of you that know, what Japan is doing in regard to 
nanotechnology as it relates to supercomputing and what the 
U.S. needs to do, in your opinion, to catch up. Do you know?
    Dr. Reed. I can't comment specifically on the 
nanotechnology aspect. I can say that the Japanese have 
historically had long-term investment in building a whole 
series of machines of which the Earth Simulator is just one 
example. One example of a machine that they have built at least 
six generations of, as well, is focused on machines designed 
specifically to support high-energy physics. There have been a 
series of machines called GRAPE, up through, I believe, GRAPE-
6, that are focused on the same kinds of problems that we 
looked at here in trying to compute from first principals the 
masses of elementary particles. And those machines have been 
designed working directly with the physicists who want to solve 
those problems to understand the match of the application 
requirements to the architecture and the software.
    And that interplay of the scientific computing needs with 
the design on the hardware and the software is where the--often 
a disconnect has been when we have tried to leverage commercial 
hardware, because it is driven, as Mr. Scarafino mentioned, 
by--primarily by the needs of the commercial market. And that 
interplay is one of the things that I think has been the 
hallmark of successful scientific computing over the years at 
the National Laboratories, at the centers. It has been looking 
at the way hardware, architecture, software, driven by 
applications, can shape the future.
    Dr. Freeman. I would certainly agree with Dr. Reed. But I 
would just add that I have a meeting this afternoon, indeed, to 
help shape a study that we intend to kick off in cooperation 
with several other agencies, specifically to make sure that we 
are well advised as to what is going on in Japan in some of 
these forefront areas.
    Mr. Bell. And then we would have a better idea of what 
would be required to----
    Dr. Freeman. Precisely.
    Mr. Bell. Dr. Orbach, any thoughts on that?
    Dr. Orbach. I would second your observation. The Japanese 
have been very aggressive in the nanotechnology area. And we 
will provide, for the record, some of the details to bring you 
up--all of us up to speed on that, if that would be acceptable.
    [Note: This information is located in Appendix 2: 
Additional Material for the Record.]
    Mr. Bell. It would be, and I appreciate it.
    And thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Mr. Bell.
    And now it is a pleasure to turn to a distinguished 
scientist and educator, a fellow of the American Physical 
Society, the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. That is almost as 
glowing as Dr. Reed's introduction.
    I am fascinated listening to this and particularly the 
discussions of teraflops, et cetera. I go back to the days when 
I was happy to get one flop. I cut my eyeteeth on the IBM-650, 
which I believe was developed before Dr. Reed was even born. 
And I was delighted when--and I was one of the first to use 
that in my field of physics and found it extremely useful.
    I--two questions. The first one, I am pleased with the 
memorandum of understanding that you referenced, Dr. Orbach, in 
working with other agencies and the cooperation that is being 
discussed between DOE and NNSA, both your branch and the NNSA, 
as well as DARPA and NSF. But what about some of the other 
agencies, for example, NOAA [National Oceanic and Atmospheric 
Administration] and its affiliate NCAR [National Center for 
Atmospheric Research], use--have a great need for very high-
performance computers. How are they involved in all that is 
going on, and how do you share resources with them? Are they 
part of this task force? Are they part of the decision-making 
process? Because clearly, climate modeling is of an immense 
interest, particularly in relationship to climate change, but 
even in the mundane aspects of everyday weather projection. Dr. 
Orbach, do you want to kick that off?
    Dr. Orbach. Yes, we are working--the--very closely, the 
Department of Energy Office of Science has a responsibility for 
climate modeling among all of the other agencies. And we are 
working very closely with NOAA and the other programs to create 
computational architectures, which will help in modeling. It is 
interesting to note that the Earth Simulator can do much better 
predictions, long-term predictions, on climate than we can by 
almost a factor of 10. Their grid size is that much smaller. So 
it is just evidence of the computational power that these 
machines can provide.
    Mr. Ehlers. Dr. Freeman, anything to add?
    Dr. Freeman. Let me just note, sir, that I believe you 
mentioned NCAR. That is actually a federally-funded research 
and development center that is largely supported by the 
National Science Foundation. And so through that mechanism, 
they are very intricately involved with our plans at NSF. 
Likewise, in terms of the OSTP planning activity, I believe 
NOAA is involved there, as are, essentially, all of the 
agencies that you might expect to be engaged in this activity.
    Mr. Ehlers. Thank you.
    My second question, and that has to do with, Dr. Orbach, 
with DOE's plans to provide supercomputer resources to academic 
researchers. And I am wondering how this is going to relate to 
the NSF Supercomputer Centers. Are--is there going to be a 
meshing here, or is this simply going to provide another avenue 
for academic researchers? They can knock on the door of a 
Supercomputing Center. If they don't get what they need, they 
knock on the door of DOE and say, ``What do you have to 
offer?'' Could you amplify on how that is--how that 
interrelationship is going to work out?
    Dr. Orbach. Well, the interrelationship is very important, 
because the National Science Foundation grid computation 
structure will enable researchers everywhere in the United 
States to couple into the high-end computational program. So we 
rely on NSF for those relationships. We are going to be opening 
our largest computer, NERSC, at Lawrence Berkeley National 
Laboratory to grand challenge calculations. Ten percent of 
NERSC will be available to any scientist, regardless of where 
their support comes from, actually internationally, to compete 
for a grand challenge calculation.
    The opportunity to couple depends on the network of the 
cyberinfrastructure, which you have heard referred to before, 
and so we are working in a very interdependent way to enable 
access to these machines.
    Mr. Ehlers. Thank you.
    My final question and concern is, first of all, what is 
going on now is wonderful, but I think it is very late. A 
number of years ago, the Japanese took the lead. We have 
maintained our present more by a force of the Federal 
Government saying, ``We are only going to buy American 
computers rather than Japanese,'' even though we did get some 
Japanese ones. But we lost our edge. How did that happen, and 
is this really going to help us regain our edge in the 
international arena? I will open it up to--Dr. Reed, you are 
itching to answer this one.
    Dr. Reed. I don't know if I am itching to answer, but I 
will try.
    I think one of the things that happened was that what 
happened, if you look historically in--to hop back, perhaps not 
to the 650, but certainly to earlier days, the machines that 
were designed during the height of the Cold War were driven 
clearly by national needs for security and weapons design. And 
there was a compelling national need as well as a market 
opportunity. As the computing market overall grew, high-
performance computing became a smaller fraction of the overall 
market, and therefore the financial leverage that the Federal 
Government had at the high-end has declined some. It is still 
substantial and dominant, but it has declined. And that has led 
manufacturers to use commercial products, or variations 
thereof, to try to address those needs.
    But I think the critical thing that happened was there is a 
gap between basic research and next-generation architecture to 
the single investigator model and production. And what happens 
in that intermediate phase is testing ideas at sufficient scale 
that vendors see that a productization of that idea is possible 
and viable and likely to succeed. It is much less common for 
ideas from papers to have a revolutionary effect on new-
generation designs. They have an evolutionary effect, and we 
have seen that in commercial microprocessor design. But 
something at sufficiently prototype scale that you can see with 
real applications that there are benefits that you can get the 
fractions of peak performance that machines, like the Earth 
Simulator, have demonstrated.
    That gap of testing those ideas at scale to provide the 
push to get it over the energy barrier, if you will, to 
productization is one of the things that we haven't had. And I 
think if we could rekindle that effort, and it did very much go 
on in the 1990's, even, with the HPCC [High Performance 
Computing and Communications] Program, and before that, in the 
'80's and '70's, we would go a long way to regaining the lead.
    As I said, it is not a one-time crash effort. It is a 
process that really needs to continue and be sustained at some 
level to feed new ideas into the process.
    Mr. Ehlers. And how did the Japanese get their edge?
    Dr. Reed. They sustained an investment in machines. As we 
looked at vector machines, the conventional wisdom, if you 
will, was that that was not a path to continue. And in the 
early 1990's, we decided, and I use ``we'' in the broad sense, 
decided that there was not much more headroom in that 
direction, and we started to explore other alternatives, which 
led to the parallel computing market that Mr. Scarafino 
referred to earlier. But we largely stopped development in 
those vector machines that capitalized on very efficient access 
to memory that supported scientific applications. Almost no 
development happened there and little investment for a period 
of 10 years or more.
    The Japanese continued to invest in those machines to build 
next-generation products. And that is why I said the Earth 
Simulator is really the product of 20 years investment and at 
least a half a dozen product generations. We went in a 
different direction, which yielded some real benefits, but we 
stopped going in a direction that still had additional 
opportunity.
    Mr. Ehlers. Thank you.
    Chairman Boehlert. Thank you.
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. I want to thank the 
panel as well and apologize. I was at another hearing, and I 
hope I am not redundant in my question. But I do want to pick 
on my colleague, Mr. Ehlers' questions about parallel and 
vector computing and direct the question to Dr. Freeman and Dr. 
Orbach.
    Are there fields in the area of science and engineering 
where progress has been delayed because of inadequate access to 
these high-end computing technologies? I am mindful of the 
Clinton Administration when they did a national climate 
assessment study as--in the last years of that Administration, 
I believe--had to ask the indulgence of the Europeans and the 
Canadians and the British for computing power to actually draw 
that assessment on climate. That is an interesting dynamic, to 
say the least. Would you all comment on my question and--if you 
would?
    Dr. Freeman. I think, certainly, some of the testimony this 
morning and certainly it is the case that there are very 
important problems that no one, including the Japanese, can 
properly solve today. And there are certainly those that--where 
our progress or our particular level of expertise may be 
retarded because of our not having the, not only capability, 
but the capacity, that is enough supercomputers to go around, 
if you will.
    Mr. Udall. Are there particular fields, Dr. Freeman or Dr. 
Orbach that----
    Dr. Orbach. Yes, I wanted to amplify on that. Indeed, there 
are fields.
    Mr. Udall. Um-hum.
    Dr. Orbach. There are--we have had about eight virtual 
workshops from across the scientific spectrum that have looked 
at opportunities that high-end computation could provide. But I 
would like to turn it around a little bit. I think the Japanese 
are to be congratulated for construction of this machine. What 
it did is it showed us that it was possible to get very high 
sustained speeds on problems of scientific interest. They were 
able to get 26.5 teraflops on geophysics problems. And as you 
heard previously, we think that the range of somewhere between 
25 to, maybe, 50 teraflops opens up a whole new set of 
opportunities----
    Mr. Udall. Um-hum.
    Dr. Orbach [continuing]. For science that had never been 
realized before. And so what we have, thanks to the Japanese 
now, is an existence proof, namely that it is possible to 
generate these high sustained speeds on specific scientific 
questions. Now whether it will be one or two or three different 
architectures, which will be required to address these, is what 
we are investigating now. So the United States is pursuing 
assiduously exploration of different architectures to see which 
is best suited for the problems at hand.
    Mr. Udall. Um-hum. Dr. Reed, you seem to be energized by 
the question as well. Would you like to comment?
    Dr. Reed. Well, there is a long list of application 
domains. One of the things that came out at the workshop that I 
mentioned earlier, as well as other workshops, has been talking 
to application scientists about the opportunities that they 
see. A couple of examples as illustration, one that is of 
intellectual interest and one that is of very practical 
interest. Intellectual interest, there have been huge new 
results from observational astronomy that suggest that most of 
the matter and energy that we see is, in fact, a small fraction 
of the universe. And so trying to understand dark matter and 
dark energy and build models of the large scale evolution of 
the universe, in essence, to answer one of the really big 
questions: how did everything get here?
    Mr. Udall. Um-hum.
    Dr. Reed. It is a problem that suddenly becomes possible. 
And it is a compelling example of the power of high-performance 
computing, because we can't do experiments on the universe. We 
only have one. It is what it is. But we can evolve models of it 
from first principles and compare those with observational 
data. That is really one of the unique capabilities of 
computational modeling, in comparison to experiment and theory.
    Another one, of course, is looking forward to rational drug 
design and being able to understand how proteins fold and how 
various molecules can dock with those. Those are problems that 
are out of range right now, but with additional computing 
capability, have very practical benefits, because a huge 
fraction of the expense that pharmaceutical companies incur is 
in assessing potential drug candidates. They discard thousands 
for every one that even reaches first stage clinical trials. 
And high-performance computing can compress that time scale. It 
can reduce the costs for them.
    Mr. Udall. Who would own that computer that would be 
utilized by the pharmaceutical companies?
    Dr. Reed. Well, that is an interesting history there, 
because it is a great example of the interplay between 
government investment and industry. In fact, one of the very 
first technology transfers that my center, NCSA, was engaged in 
years ago, was where we transferred a lot of early vector 
computing technology. They actually bought their own Cray 
vector supercomputer and used for some early drug designs. So 
there were connections and collaborations where that technology 
can flow.
    Mr. Udall. It sounds like a nice example of the public/
private partnership and public dollars going to public but also 
private benefit. Thank you.
    Chairman Boehlert. Thank you very much.
    Mr. Udall. Thank you, Mr. Chairman.
    Chairman Boehlert. The gentleman's time is expired.
    It is a pleasure to welcome the newest Member of our 
Committee, and a valued addition to the Committee, I might add, 
Mr. Randy Neugebauer from Texas.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Reed, do you believe the NSF is providing adequate 
support for the Supercomputer Centers? And have you detected 
any change in policy with regard to NSF's commitment to the 
Supercomputer Centers?
    Dr. Reed. Well, as I said at the outset, NSF has been a 
long and steadfast supporter of high-performance computing, yet 
the centers have a 17-year history, as Chairman Boehlert 
mentioned before. They were begun in the 1980's. And we look 
forward to continued investment. We also recognize that NSF has 
a portfolio of investments in infrastructure and research. And 
budgets are constrained at the moment.
    Having said that, we do certainly see untapped 
opportunities where additional capability and investment, not 
only in the hardware, but in the people and the support 
infrastructure, could attack some new problems.
    Mr. Neugebauer. Thank you.
    Chairman Boehlert. Boy, was that a diplomatic answer.
    Mr. Neugebauer. Exactly.
    Dr. Reed, and Mr. Scarafino, Dr. Reed's testimony states 
that there is a large and unmet demand for access to high-end 
computing in support of basic scientific and engineering 
research. Dr. Freeman and Dr. Orbach have described their 
agencies' plans for the future. And this question could be to 
Dr. Reed and to Mr. Scarafino. Do you believe that these plans 
are adequate to provide more high-end computing systems and 
then enable the development of the new capabilities?
    Dr. Reed. Why--as I said before, and as you quoted from my 
written testimony, I do think there is an unmet demand for 
capability. At a high-level, I think it is fair to say that we 
can perhaps solve one or two of these really critical problems. 
As Mr. Bell asked about nanotechnology, a large-scale effort to 
understand new nanomaterials itself could largely consume the 
available open capacity that we have at the moment.
    There are a whole set of problems like that, and it is a 
matter of making priority choices about what the level of 
investment is and where one will accelerate progress. There is 
no doubt that additional investment would yield new progress, 
however.
    Mr. Scarafino. Since about the mid-1990's, we have kind of 
been at a standstill with regard to the availability of more 
capable computers. The area where we are struggling with as far 
as making advances is in the area of durability and in the area 
of wind noise. It has kind of been a--the concentration has 
been on actually doing the stuff that we have been doing for 
the last 10 years more efficiently. In about, I would say, 1996 
or so, we had the expectation that the next-generation of the 
Cray T90, which would have given us a boost of performance, 
would have naturally been available, but ended up being 
canceled.
    So it is amazing that we still have a T90 at Ford. That 
machine is almost 10 years old, and it still does things that, 
basically, cannot be done effectively by anything new. So I am 
looking forward to future advances in this--pushing this type 
of technology so that we can address the difficult problems 
that have kind of come to a standstill.
    Mr. Neugebauer. As a follow-up to that, because part of the 
question there is the access to the capability and then 
developing the capability, is the problem at Ford the 
capability or the access to existing capability?
    Mr. Scarafino. The problem is that there is no place we can 
go to buy something like that. So I--basically, it is really 
not available, as far as--there isn't something out there that 
we can't have access to. I mean, we can make arrangements to 
get access to something, if it is available.
    Mr. Neugebauer. As a follow-up to Dr. Reed, what areas or 
what groups are not able to access existing technologies today 
because there is not the appropriate infrastructure in place 
to--for them to be able to access it? Who--what groups would 
you say?
    Dr. Reed. Well, we provide access, as I said, essentially 
to anyone. In fact, one of the hallmarks of the NSF Centers has 
been that we provide access to researchers regardless of the 
source of their funding. So researchers who have DOE awards, 
National Institutes of Health awards, NASA awards, all kinds of 
people have gained access to the machines over the years via 
peer review. The thing that is necessary for certain groups to 
gain access is, if I can use a--perhaps a bad analogy. Here is 
an old cartoon that shows a monster at the edge of the city 
with a big sign that says, ``You must be at least this tall to 
attack the city.'' In order to be able to effectively use high-
end computing systems, the application group needs to have 
sufficient support infrastructure in terms of software 
development, testing, being able to manage the results, and 
correlate those with experiments. So it is possible for single 
investigator researchers to use facilities, but it is much more 
common for an integrated group of people, perhaps five or ten 
people, faculty, staff, research associates, to work together 
to be able to manage a large scale scientific application.
    In terms of other components that are necessary, clearly, 
high-speed networks are the on-ramp for remote access. And as 
Dr. Freeman noted earlier, one of the things that is 
increasingly true is that it is not just computing but access 
to large amounts of data, scientific data archives, from 
instruments as well as computational data. So the last mile 
problem, if you will, for universities is part of the issue, 
having that high-speed capability to be able to move data back 
and forth, as well as the local capability. The other thing I 
would say, the most common model of the way machines are used 
these days is that local researchers typically will have some 
small copy of a machine on which they do local development and 
testing. And then they will run it scale at the national 
center, so that local infrastructure is an additional part of 
the story.
    Mr. Neugebauer. Thank you, Dr. Reed and Mr. Chairman.
    Chairman Boehlert. Thank you very much.
    The gentleman from Oregon, Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman. And I don't have 
so much a question right now as a comment. Mr. Chairman, just 
as you shared a story earlier about the Nobel Prize winner who 
is, you know, having access problems and all, I just recall a 
quite memorable moment. This was probably about 10 years ago in 
the mid-90's or so. And I was practicing law in the technology 
field. A friend of mine took me on a tour of--he was a software 
developer for Intel, and he took me on a tour. And he did 
supercomputing software. He took me on a tour of their 
supercomputing inventory, I guess you would call it. I didn't 
see the production areas, but we were in a room maybe half the 
size of this one, and it had a lot of HVAC in it and a bunch of 
black boxes, scaleable black boxes. They were massively 
parallel supercomputers.
    And there was just this one moment when he paused and 
said--I can't imitate his accent, but he said something to the 
effect of, ``You know, David, you are in the presence of one of 
humanity's great achievements, like the pyramids.'' And I will 
just always--I will remember that. It was striking to me, 
because Intel got out of the business a little while later. And 
the concern, I guess, besides the recollection, the concern I 
want to express is that, you know, civilizations and 
technologies ebb and flow, and the pyramids are still there. 
The civilization that created them stopped doing things like 
that, and for the most part, is no longer around. We had a one 
shot--well, not a one shot, but a limited series of shots of 
the moon in the--our space program, there is a sense that there 
is a high water mark there, and perhaps we have receded from 
that. I have no sense that our computing industry is 
necessarily at a high-water mark and receding.
    But I just want to encourage you all and this Congress and 
our government in general to support a sustained push in this 
and other arenas so that we do not look back at some distant 
future date and, like me, think back to that supercomputing 
inventory where the business no longer exists. And you know, 
people in business have to make business decisions. But as a 
society, there is a necessary infrastructure where we need--
whether it is a space program, whether it is biology, whether 
it is computer technology, we need a long, sustained push. And 
it is not necessarily sexy. Those black boxes were not 
particularly notable from the outside. And I just want to 
encourage you all and encourage this Congress to sustain that 
necessary long-term push for the long-term health of our 
society.
    And thank you. I yield back the balance of my time, Mr. 
Chairman.
    Chairman Boehlert. The Chair wishes to identify with the 
distinguished gentleman's remarks. I think the Committee does.
    The Chair recognizes the distinguished gentleman from 
Georgia, Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Dr. Freeman, I am going to fuss at my staff, because they 
didn't call to my attention that you were the founding Dean of 
the College of Computing at the Georgia Institute of 
Technology, my alma mater.
    Dr. Freeman. Well, I will do the same. My staff didn't 
alert me that you were a Georgia Tech graduate. But I 
discovered that early this morning.
    Dr. Gingrey. Had I known that, I would have taken the 
liberty, as my colleague, Mr. Johnson, did earlier, in 
introducing Dr. Reed. I have, actually, two children who are 
also Georgia Tech graduates. Now I have to admit, when I was at 
Georgia Tech, it was in the days of the slide rule. And if you 
wanted to see a teraflop, you just went to a Georgia Tech gym 
meet.
    Dr. Freeman. It is probably still true.
    Dr. Gingrey. And even today, I have to say that I still 
think a laptop is a supercomputer. But the staff has done a 
good job of feeding me a couple of questions. And I want to 
direct the first one to you, Dr. Freeman.
    You stated emphatically that the National Science 
Foundation is committed to stable, protected funding for NSF-
supported Supercomputer Centers. Yet we hear from scientists 
and from others in the Administration that NSF's focus in the 
future will be on grid computing and putting high bandwidth 
connections between the centers and not on supporting top-of-
the-line supercomputers at the centers. At what level do you 
currently fund the Supercomputing Centers? Are you committed to 
maintaining that level of support separate from the grid 
computer effort over the next several years? And does the 
National Science Foundation plan to support future purchases of 
new supercomputers at the centers?
    Dr. Freeman. Let me note, Dr. Gingrey, that there are a 
number of ways in which the Supercomputer Centers, specifically 
San Diego, Illinois, headed by my colleague here, and at 
Pittsburgh, there are a number of ways in which they are 
supported. They have grants and contracts with a number of 
agencies as well as with a number of different parts of the 
National Science Foundation. Specifically, the program that is 
under my peer review has been called the PACI program, the 
Partnerships for Advanced Computational Infrastructure. That is 
a program that, for the two partnerships, one located at 
Illinois under Dr. Reed's direction, one located at San Diego 
under Dr. Fran Berman's direction, each of those partnerships 
receives about $35 million a year under the current 
arrangements.
    Some of that money is then reallocated as it were by them 
to some of those partners, other universities that either 
operate machines or participate in the development of the 
advanced software, both applications and the underlying 
enabling software. In line with our recommendations of our 
distinguished panel, the Atkins Committee, we are in the 
process of restructuring the way in which that support is 
provided. We have, in no way, indicated that the total amount 
of money going to those activities would decrease. In fact, in 
speeches both to Dr. Berman and Dr. Reed's partnerships groups, 
I have indicated our intent to do everything possible to see 
that the amount of money going into the activities in which 
they are participating would grow over time.
    Dr. Gingrey. And a follow-up question, too, Dr. Freeman. 
The testimony today has emphasized that high performance 
computers are not just about hardware and big machines. Dr. 
Reed and Dr. Orbach both described the importance of investing 
in research on supercomputer architecture and on the algorithms 
and software needed to run the computers more effectively. What 
agencies support this sort of research? Does the industry do or 
support this sort of research? And is NSF responsible for 
supporting fundamental computer science research in these 
areas?
    Dr. Freeman. The--your last statement is the core 
characterization of the directorate that I head. Our budget of 
about $600 million a year, in round numbers, current year. 
About $400 million of that goes largely to the support of 
fundamental computer science and computer engineering research 
in this country. Overall, that supports slightly more than half 
of the fundamental computer science research in this country.
    Let me come back to the opening part of your last question 
there and emphasize, and I had wanted to in response to one or 
two earlier questions, I understand that today's hearing is 
focused on high-end computing, on supercomputers, as it should 
be. But I believe it is extremely important to keep in mind 
that there must be a balance, one, and two, that without 
networking, without software, there is no access. The Japanese 
supercomputer is, in fact, a case in point. It may be the 
fastest machine on the planet at the moment, at least in the 
public domain that we can speak about, but it is not connected 
to the Internet. So if someone in your district wants to go and 
use that computer, they would have to travel to Japan.
    Secondly, it basically doesn't have much software. And many 
of the inquiries we have been getting from the scientific 
community is--are of the form, ``How can we put some of the 
software that we know how to build in this country, how can we 
put that on that Japanese Earth Simulator machine?'' So I would 
use a simple analogy. A Ferrari is a very fast car, but you 
wouldn't use the Ferrari to transport oil in or to take honey 
or to do a lot of other things in. So having just high speed is 
not the only thing.
    Dr. Gingrey. Thank you, Dr. Freeman. And thank you, Mr. 
Chairman.
    Mr. Ehlers. [Presiding.] The gentleman's time is expired.
    Next, we are pleased to recognize the gentlewoman from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    First let me apologize for my delay in coming to this 
hearing. The Judiciary Committee was marking up the permanent 
Internet tax moratorium bill, and we successfully passed that, 
so I think that is good news for the high-tech world. But I do 
think this hearing is extremely important, and I am glad that 
the hearing has been held.
    Like my colleague from Oregon, Mr. Wu, I remember being at 
Genentech a number of years ago, and with then Vice President 
Gore. And there were so many smart people, and they had Ph.Ds 
in various biological fields. And the Vice President asked them 
what was the most important technology for their work with the 
human genome, and they spoke with one voice, ``Computers.'' And 
really, without an adequate investment in high-end computing, 
we will see a shortfall in the innovation that we need to have 
in a whole variety of fields. So this--including fusion, I was 
glad to hear that the Chairman had identified that.
    I have really just two quick questions. The first may be a 
stretch, but we have, in a bipartisan way, been attempting to 
remove the MTOP measurement as a restriction for exports of 
supercomputers. And the question really is, and I don't know 
who is best suited to answer it, whether that misplaced 
outdated measurement might be impairing the private sector 
development of high-end computing, because it is limiting 
markets. That is the first question. And the second question, 
which probably goes to Dr. Freeman, is whether we are 
sufficiently investing in materials science that will, in the 
long run, form the basis for next-generation supercomputers. So 
those are my two questions, and whoever can answer them, I 
would be delighted to----
    Dr. Freeman. I am afraid I don't have--I am not sure any of 
us have much information on the export issue. I was----
    Ms. Lofgren. Okay. Fair enough.
    Dr. Freeman. I must leave it at that. As to the second--
your second question was concerning the investment in materials 
science. Again, that is not my particular area of expertise. I 
would note that the nanoscience, nanotechnology initiative of 
the government that NSF, I believe, is leading and that DOE is 
heavily engaged in, certainly seems to be pushing the 
boundaries there. The specific question, I am afraid, I don't 
have any information on it.
    Dr. Orbach. I could add that the material science area is 
essential for computation development, especially for the new 
architectures. And here, DARPA plays a very key role in 
experimenting with new architectures, new structures that will 
lead to advanced computing efforts. And most of them are 
controlled by material science issues. This is an area that all 
of us are investing in heavily.
    Ms. Lofgren. All right. Thank you very much.
    Dr. Reed. I could, perhaps, provide just a bit of insight 
into your MTOP question. It does and it doesn't. One of the 
things that has been true in parallel computing is that one can 
export individual components and then often third parties will 
reassemble them to create machines that are then sold 
internationally, independently of the original vendors in the 
U.S. The place where it is, perhaps, more of an issue is in 
monolithic high-performance machines. The vector computers 
where one, by very obvious means, can't disassemble them and 
reassemble them elsewhere. And it does have an impact there, 
but it is a mixed impact.
    Ms. Lofgren. Thank you. I yield back, Mr. Chairman.
    Mr. Ehlers. Well, will you yield, just a moment, to me?
    Ms. Lofgren. Certainly.
    Mr. Ehlers. Let me follow up on that. The Japanese are 
not--who are the leaders in vector machines, don't want to have 
any such restrictions, is that correct?
    Dr. Reed. That is correct.
    Mr. Ehlers. So doesn't that render our restrictions 
meaningless?
    Dr. Reed. It does, in many ways. In fact, those Japanese 
machines are sold in the markets, yes, where the U.S. vendors 
cannot sell.
    Mr. Ehlers. Yeah.
    Ms. Lofgren. Mr. Chairman, I wonder, I don't want to 
belabor the point, but whether we might consider having some 
further deliberations on this MTOP issue in the Science 
Committee, because I think we have a unique perspective to--it 
is not really the main point of this hearing. But I think we 
could help the Congress come to grips with this in a way that 
is thoughtful if we did so, and I----
    Mr. Ehlers. Well, if you will yield.
    Ms. Lofgren. Yes.
    Mr. Ehlers. Obviously, I don't control the agenda of this--
--
    Ms. Lofgren. Right.
    Mr. Ehlers [continuing]. Committee, but I would say this is 
just a continuing, ongoing battle. And I think you and I are 
both engaged in the----
    Ms. Lofgren. Right.
    Mr. Ehlers [continuing]. Encryption battle, which--in which 
the net effect of the controls was to strongly encourage the 
encryption industry outside of the United States.
    Ms. Lofgren. Correct.
    Mr. Ehlers. And it would, frankly, hurt our country. And I 
don't know--I fought that battle very hard, and I was astounded 
at how difficult it is to----
    Ms. Lofgren. Right.
    Mr. Ehlers [continuing]. Win those battles for people and 
use national security as the excuse for their suspicions and--
or support for their suspicions, and it would be the detriment 
of our country.
    Ms. Lofgren. I--my time is expired, and I would associate 
myself with the gentleman's remarks.
    Mr. Ehlers. The gentlelady's time is expired.
    And next, we turn to Dr. Bartlett, who has returned.
    Dr. Bartlett. Thank you very much. I am sorry I had to 
leave for an appointment for a few minutes.
    In another life about a third of a century ago, I worked 
for IBM. And we at IBM were concerned that as a company and as 
a part of this country that we, as IBM in this country, were at 
risk of losing our superiority in computers to the Japanese. 
Apparently our worst fears have been realized. And our 
reasoning for that, and this was a time when we were really 
premier in the world, was that every year the Japanese were 
turning out more, and on average, better scientists, 
mathematicians, and engineers than we were. And we just didn't 
think that we, at IBM, and we, the United States, could 
maintain our superiority in computers if this trend continues.
    The Japanese now have, as has been noted by our Chairman in 
his opening statement and by others, the Japanese now have the 
world's fastest and most efficient computer. How did they do 
it? Was it people or was it something else?
    Dr. Freeman. Let me start the responses. First let me note 
that I believe that while the Japanese may have the fastest 
computer, that it would be erroneous to say that they have the 
complete lead in computing, because there are a number of other 
elements that are extremely important that they do not have the 
lead in. And indeed, as I noted a moment ago, I believe you 
were out of the room, in order to utilize that Japanese 
machine, they are fairly urgent to get some of our American 
software technology to enable the usage of that machine. I 
would underscore what Dr. Reed said earlier this morning, and 
that is that it is not that the Japanese were smarter. Indeed, 
a number of the engineers, I understand, that worked on the 
design of that machine, in fact, had spent time in this country 
as employees. And I know people who know them and don't think 
they are particularly any geniuses, obviously very good 
engineers, but that it has been the sustained focused 
investment that has been made and that is, if anything, the 
single key reason why they now have a Ferrari and we may not 
have.
    Dr. Bartlett. Dr. Orbach.
    Dr. Orbach. I would like to congratulate the Japanese on 
their achievement. What they did was to build a balanced 
machine. Instead of going for just the highest speed they 
could, they recognized the importance of balance, the 
communication with the memory, the speed of communication 
between the microprocessors and the memory. They put together a 
machine that would be suitable for scientific, and actually, I 
believe, industrial uses. It wasn't just a peak speed machine. 
It was a beautiful device.
    That is what we are trying to achieve ourselves now. We 
have learned from the Japanese that it can be done. We are 
experimenting with different architectures, not necessarily the 
same, to create something balanced, something that would 
function for problem solution as opposed to just some arbitrary 
speed criteria.
    Dr. Reed. I would echo that. The sustained investment is 
critical. I go back to what Edison said years ago that genius 
is 1-percent inspiration, 99-percent perspiration. The 
sustained effort is really what has been critical. And that, I 
think, is really the lesson for us, that we need to look at the 
sustained level investment. The broad array of capabilities and 
computing technology in the U.S., I think it is absolutely 
true, as Dr. Freeman said, that overall the preponderance of 
capability in the world remains in the U.S. We have not 
harnessed it as effectively as we could, and the Japanese is 
a--machine is a great example of what can happen when the 
appropriate talent and sustained investment is harnessed.
    Mr. Scarafino. One of the other items that, I think, had an 
effect on direction was the way that metrics are used, the way 
that we compute what we think that the supercomputer is. They 
really are based on what individual processors can do running 
specific benchmarks. Microprocessors got very fast. I mean, 
Moore's Law basically allows them to be faster and faster as 
there--as the new generations come out. But they don't address 
how the overall system performs. If you look at the way that 
the top 500 supercomputer list is, it takes what effectively 
any one component of a massively parallel machine can do and 
multiplies it by the number of elements that are in there. And 
that is a theoretical peak number, but it is something that, in 
a practical application, can never really be achieved.
    And I think that is something they are understanding better 
now that we have built some of these large machines and now 
that we have tried to run actual applications on them where we 
are seeing five percent of peak available. Even with a lot of 
work in order to get up to those high numbers, we are starting 
to understand that the metrics that we are using to describe 
these machines lack some of the characteristics, that they 
don't really reflect the actual reality of the situation. If 
you look at the number that the Earth Simulator has with regard 
to the metrics versus the next fastest machine, I believe the 
actual reality of the disparity between the two machines is 
much greater than those numbers show.
    Mr. Ehlers. The gentleman's time is expired.
    We are pleased to recognize the distinguished gentleman 
from Tennessee, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. It is good to be here, 
and I apologize for being late when most of you gave your 
testimony, so therefore, I have basically reviewed some of the 
testimony that has been--that was given while I was at another 
meeting. It seems like that, here in the Congress, we have four 
or five meetings at once. I understand the term being at two 
places at once. Sometimes maybe it is four or five.
    Dr. Orbach, I have a couple questions for you. One will 
deal, obviously, with the supercomputers that--in the different 
labs, and the one I am most interested, obviously, is the one 
in Oak Ridge, which is part of the district that I represent. 
But as I have read your testimony, you mentioned that there is 
a new sociology that we will need to develop when it comes to 
supercomputers, a sociology of high-end computation that will 
probably have to change. What--exactly what do you mean by that 
when we talk about the new sociology and how we may have to 
change?
    Dr. Orbach. The size of these computers and their speed is 
beyond anything that we have really worked with before. And it 
is my view that it will take teams of scientists to be able to 
utilize these facilities in their most efficient fashion. And 
not just the scientists interested in the solution of the 
particular problem, but applied mathematicians, computer 
scientists, people who can put together a team to actually 
utilize these machines. It is my view that these machines will 
be like light sources or like high energy physics accelerators. 
Teams will come to the machine and utilize it as users. And by 
the way, industry, also, will come and use these machines as a 
user group.
    We don't do that now. And when I made earlier reference to 
opening NERSC, our big machine, up for grand challenge 
calculations, part of that was directed toward this new 
sociology. How can we learn how to use these machines most 
effectively? The amount of data that they can produce is huge. 
Our ability to understand it in real time is limited, that we 
need visualization methods to understand what it is we are 
doing. There is so much coming out. These are things that we 
really have to get used to learning how to do. And even the 
Japanese themselves on the Earth Simulator are finding that it 
is difficult to understand, in real time, what you are doing. 
And so they are going to visualization methods. It is that that 
I was referring to.
    Mr. Davis. Okay. It--when the Earth Simulator first came--
obviously most scientists, I think, were aware that Japan was 
working in this area, somewhat surprised, I think, when it came 
on line as quickly as it did and it came up as quickly as it 
did. I know that there are locations throughout America that 
basically got excited as well in this direction. ``We have to 
be competitive. We have to find or develop a supercomputer or 
at least the area for it.'' I--again, I am selfish, so I think 
our folks, in the area where I am from, at the--which is one of 
the labs that does a great deal of work. We have got the SNS 
[Spallation Neutron Source] project there, which is a part of--
when you talk about sociology, there are a lot of folks that 
are visiting scientists. And my hope is that as you start 
looking at locations, I know there is, what, a $35 or $40 
million increase for supercomputers in the budget and the House 
is looking at the same thing as the Senate. I don't even know 
what kind of criteria that you will use as you determine the 
location: maybe the capabilities, capacity, some of those 
issues as you look at how you will make that decision of where 
those dollars will be spent and the lead location of--for our 
supercomputers.
    Dr. Orbach. We anticipate that there will be more than one 
lead location. Our investment now is to look at new 
architectures. The X-1, for example, at Oak Ridge National 
Laboratory, is but one example. As has been discussed before, 
the number of vendors in the field is too small. We are 
encouraging industry to develop interest in high-end 
computation. As these new vendors come on line and decide to 
get interested in this, we could see a multi-center development 
of--and testing of these new facilities. Ultimately, when the 
big machines are built, and I hope there will be more than one, 
there will be a competition between the laboratories as to 
which would be the most effective place for the computation 
facility to be housed.
    Mr. Davis. Of course maybe I shouldn't press them further, 
but we have got cheap electricity--thank you so much.
    Do I have more time? I have one more question to Mr. 
Scarafino.
    Mr. Smith of Michigan. [Presiding.] You don't. Your time is 
up, but maybe if it is a short question----
    Mr. Davis. It would be. Mr. Scarafino, I know that the 
automobile industry, especially from some of our competitors in 
Asia, automobiles may be--I don't want to say quieter than the 
American vehicles, because I drive an American vehicle, 
probably always will. But are you able to work--I mean, if--do 
you sense that industry in this country has the connection, the 
ability that supercomputers are available to you or will be in 
the future? And would you use this asset in private industry if 
that was made available?
    Mr. Scarafino. You made a reference to vehicles being 
quieter. Is that what----
    Mr. Davis. I am just saying, when you look at the auto 
industry in Asia, it seems that their cars--I am getting in 
trouble with you, aren't I?
    Mr. Scarafino. No. No. It is a reality and----
    Mr. Davis. They may be quieter. And some folks think, 
perhaps----
    Mr. Scarafino. More durable, at least.
    Mr. Davis. I don't know about more durable. I mean, I 
drive--I have always driven American cars, and I don't see that 
they are any more durable.
    Mr. Scarafino. Okay.
    Mr. Davis. I get 250,000 miles. Mine always rode finer 
before I sold them, so--but it seems that industry in some of 
the Asian countries that are our competitors are being allowed 
or given the opportunity to use the assets that may be funded 
by government more so than private industry. Is that the case, 
and should that be changed?
    Mr. Scarafino. Well, I don't know where the funding comes 
from. I know that some of our challenges, one with regard to 
the--to noise, for example, has to do with wind noise in 
particular that we are running on the fastest machines we have 
access to. And as I had stated before, some of these problems 
run for two weeks on a computer to get a single answer. Toyota 
does have a fair number of vector machines that is--but they 
are either NEC machines, and they also have Fujitsu machines, 
which are, you know, basically Japanese vector high-end 
processors. I don't know exactly what they run on them, so I 
mean--so it could be implied that they are utilizing these 
machines in order to create the quieter vehicles they have. But 
that is--it is kind of speculation on my part.
    Mr. Smith of Michigan. The Chairman would call on the 
Chairman of the Subcommittee on Space, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Maybe you can answer a question for me. I have just got 
some very fundamental questions about computers. Way back when, 
you know, like when I was a kid, I seem to remember--and that 
was a long time ago. This is like after World War II. Weren't 
there computers that--didn't they have cards that you punched 
out, and was it an ``x'' and a ``y'' or something like that or 
a ``y'' and a ``0''? Or what was it? Do any of you remember 
what I am talking about? Is that what it is still based on? 
Does it still go back to that fundamental principle whether two 
things being punched out on a card and we have built from 
there?
    Dr. Orbach. Well, the--as I am older than you are, and I, 
believe me, carried around those crates of punched cards from 
one machine to another. They--if it was punched, it was a 
``1''. If it wasn't punched, it was a ``0''. That digital----
    Mr. Rohrabacher. Okay. ``1'' and ``0''.
    Dr. Orbach. That digital structure still is underpinning 
our computational methods.
    Mr. Rohrabacher. All--so everything we are talking about 
still goes back to that ``1'' and that ``0''?
    Dr. Orbach. That ``1'' and that ``0''. Now there are 
quantum computation methods that are being explored that will 
bring an additional richness to that. These machines--NSF is 
supporting research in that area. DARPA especially is 
supporting research on some of these advanced concepts that 
will carry us beyond the ``0'' to ``1'', the binary methods 
that we have been using over the years. And the richness of 
some of these methods is very exciting. It will be interesting 
to see how they develop.
    Mr. Rohrabacher. So we are right now thinking about that 
basic fundamental may change now and take us into something 
that we--may even be more spectacular than what we have got?
    Dr. Orbach. Yes.
    Mr. Rohrabacher. Let us think about that. I also remember 
when I--of course we are talking--I remember people talking 
about a lot of everything that we were doing in computers was 
based on sand, and making glass out of sand and electricity 
being run through sand that was reconfigured. Is that still the 
case?
    Dr. Orbach. Well, I think they were referring to the 
silicon. Silicon dioxide is sand.
    Mr. Rohrabacher. Right.
    Dr. Orbach. But yes, the silicon-based machines, microchips 
are still the base of choice, though there are other 
semiconductors that are used. But it is very plentiful, but it 
has to be purified to a degree that makes it tricky and 
expensive.
    Mr. Rohrabacher. We have turned this ``1'' and ``0'' and 
sand into enormous amounts of work and wealth creation. That is 
mind boggling. I used to be a speechwriter for Ronald Reagan 
back in the 80's. And that is getting afar back. Now I was 
asked to go to the Soviet Union, back when it was the Soviet 
Union, right after Gorbachev took over and things were 
beginning to fall. And something really--I had a little 
experience there that really taught me--and we, because there 
had been all of this talk about supercomputers and--at that 
time. The supercomputer was going to change everything. But 
when I went over to Russia, I took with me a bottle of peanut 
butter, because I knew they couldn't make peanut butter. At the 
right moment, I had a bunch of college kids talking to me about 
America. I pulled out the jar of peanut butter, and I--you 
know, you can imagine if you have never tasted peanut butter.
    But getting on with the story, one of them came up to me 
after hovering with the other kids there and said, ``What are 
the black marks on the side of the peanut butter jar?'' I said, 
``Well, that is a bar code. And that is where every time I go 
to the store and buy a jar of peanut butter at the food store, 
it itemizes my bill for me. The computer itemizes the bill, and 
an inventory is notified that there is an item that has been 
sold. And you know, that makes everything easier.'' And the 
kids got together. These are college kids in Russia at the 
time. ``You know, that is why we don't trust you Americans. You 
know, you are lying to us all of the time. Computers at a food 
store? Give me a break.'' And they could not believe that we 
had--and I went to their food store and of course they were 
using abacuses and things like that. And it is--you know, that 
impressed me.
    That is when I knew we were going to win the Cold War. I 
mean, there was no doubt about that. It wasn't just the peanut 
butter. It was the fact that we had computers being put to use 
across the board in our economy and food stores where they 
couldn't even think about doing it at food stores.
    Now today, when we are--I am very happy that Mr.--for Dr. 
Freeman and Dr. Orbach have talked about balance. Are we 
balanced in the fact that we are working to make sure that 
there is a widespread benefit to this sand and computer-
generated numbers? A widespread benefit versus only putting our 
eggs and trying to create a pyramid, so to speak?
    Dr. Orbach. If I could respond, I hope we are. We are 
certainly encouraging industry, as you described it, to join us 
in this quest for seeing what can be accomplished at these 
speeds. Both NSF and DOE and actually the Office of Science and 
Technology Policy have included industry in the development of 
these new machines for exactly the purposes that you recognized 
before. And as you have heard from the representative from 
Ford, but also from GE and GM and other companies, there is 
widespread recognition that these machines will give us 
economic competitiveness, exactly as you described, that nobody 
else can get.
    Mr. Rohrabacher. Across the board rather than just----
    Dr. Orbach. Across the board.
    Mr. Rohrabacher [continuing]. At the huge level?
    Dr. Orbach. We won't have to build models. Do you remember 
the wind tunnels with airplanes and they put them in? If we 
have enough speed, we can model that computationally and do it 
in a matter of hours or weeks, at the most, instead of years. 
We can save huge amounts of monies on these, what we call, 
virtual prototypes that will free us from having to build 
specific models.
    Mr. Rohrabacher. And then we could spend that money 
elsewhere on something else?
    Mr. Smith of Michigan. Yeah, I was going to ask Mr. 
Scarafino if--how many crash dummies the Cray computer has 
saved, but you--are you----
    Mr. Rohrabacher. I guess I am done. Let me just note that 
Tim Johnson wanted me to, for sure, say that--to Professor Reed 
that your institution has such a great record of achievement 
and wanted me to ask one question that is--and this is the 
easiest question you will ever get from Dana Rohrabacher, just 
what do you attribute your great record to?
    Dr. Reed. You are right. That is an easy question. Well, 
let me hop back to give you a serious answer, because I think 
it is important. I mean, the success of the high-end computing 
infrastructure has really rested on a combination of the fact 
that there is a high-end infrastructure but also on the 
critical mass of people. You bring great people together to 
work with the world class infrastructure and on really critical 
applications, and interesting things happen. And that is where 
the web browser spun out of NCSA. It is where a lot of the 
technologies that will enable cyberinfrastructure have spun 
out, things like large-scale data mining. There are lots of 
collaborations with major industrial partners that, as Dr. 
Orbach said, it saved major corporations lots of money by 
allowing them to think smarter, to avoid killing crash test 
dummies, by applying technology in creative ways. And so what 
we look for are opportunities where the combination of people 
and technology can apply.
    You mentioned the broad spread applicability of computing. 
The next big wave beyond, sort of, the grocery store and 
personal computer kind of thing is--computing is really 
becoming ubiquitous. One question I often ask people is: ``How 
many computers do you own?'' And if they have kids, the answer 
might be three or four. But if you bought a car in the last 20 
years, you have anti-lock brakes, you have an electronic 
thermostat. The answer is really hundreds. And that 
proliferation of technology, the ultimate success is the extent 
to which it is invisible and it enriches and empowers people's 
lives. And that is the broad tie that really is where things 
like NCSA and other centers have had an impact.
    Mr. Smith of Michigan. Gentlemen, you have been very 
patient today. Thank you for your time and patience. You only 
have one more questioner to face.
    Let me--I want to get into the competitiveness and the 
economic stimulus to the country that might have this 
computing. Let me start out with the Earth Simulator. Do--does 
Japan sell time on that to our scientists in this country?
    Dr. Orbach. The Japanese have made time available. Mr. 
Sato, who is the director of that machine, has about 16 to 20 
percent of the machine available to him. And he has been very--
he spent time in the United States, in fact, studying science, 
computer science here. He has made the machine available to our 
scientists gratis. The somewhat worrisome feature is that our 
scientists have to go to Yokohama to use it, and the 
discoveries are going to be made there. That is what we are 
worried about. One of the interesting structures, again, the 
sociology of how the machine is being used, is that there are a 
number of Japanese young scientists who are there while our 
scientists are developing their codes and using that machine. 
So they get the advantage of discovery on the site. And as you 
have already heard, it can't be networked. They did that on 
purpose. So they have the availability of discovery, but we 
don't. And----
    Mr. Smith of Michigan. Well, at least a little more access 
and a little more convenience. Dr. Reed, somebody, help me 
understand a little bit. Our--and Dr. Orbach, it is sort of 
tied in with--I mean, with--has IBM and Argonne and certainly 
the Berkeley National Lab developed new computer systems that 
are going to be even faster than the Japanese current model? 
And with the so-called development of the--a Blue Gene 
computer, and I--where we go with that computing capability, 
which is much faster, how does that tie in terms of our 
ability? Is it a concern of--the first one, I guess the 
estimated development time is '05 some time and maybe later for 
the other one. How does that tie in to the needs of this 
country and the competitive position in terms of high-end 
computers?
    Dr. Orbach. It is one of the architectures that I mentioned 
before that we are exploring. We are looking at different 
architectures to see how efficient they are and how useful they 
are for particular scientific problems. And indeed, the Blue 
Gene, with the collaboration you have made reference to, is a 
very interesting and important component. It is one of four or 
five different architectural structures that we are looking at.
    Dr. Reed. It is certainly the case that the Supercomputing 
Centers that NSF funds have pretty deep collaborations and 
connections with the DOE efforts. Argonne National Lab that you 
mentioned is in Illinois. And we have a jointly funded effort 
with machines deployed at Argonne and at the University of 
Illinois. And we are also involved in collaborations with them 
and with NERSC looking at applications of that machine and what 
architectural features will be met--best matched to 
allocations. We certainly hope that in the coming years we will 
have the resources to be able to deploy one of those machines.
    Mr. Smith of Michigan. Well, it--as I think you know, I 
chair the Research Subcommittee, that has oversight over the 
NSF. And Dr. Orbach, as--if it continues to develop that Energy 
plays a more prominent role in the development of high-end 
computers, NSF has been very organized to allow a lot of use in 
our labs. Is Energy going to be in a position? You mentioned 10 
percent of potential usage now, but it is going to take not 
only--it is going to take much more than that if you are going 
to accommodate the demand for that kind of time. And it is 
going to take both organization and facilities, I would think.
    Dr. Orbach. I think you are exactly right. We will--we 
depend on the National Science Foundation network for coupling 
to our large-scale computers. And we work very closely with 
them. Our initiative in high-end computation will be open to 
everybody. Anyone who can--who wishes can compete for time, 
subject to peer review, on these new high-end machines. And so 
we will--we are working hand in glove with NSF to make them 
accessible. The challenge now is to determine which 
architecture we want to invest in and create the structure that 
would enable our scientists to perform their needed 
calculations.
    Mr. Smith of Michigan. In--like our basic research that is 
oft times sophisticated into application in other countries 
quicker than we do it in this country with our mandate for 
publishing any time federal money goes into it, likewise give 
me your impression as we face a more competitive economic 
market throughout the world with everybody else trying to 
produce our cars and everything else as efficiently as we do 
and as quality conscious as we have been. With our allowance of 
scientists from other countries to use our--whatever computers 
we develop, how are we going to still have the edge in terms of 
the application in this country of the greater efficiencies and 
development of new products and better ways to produce those 
products? How are we going to make sure that our investment has 
the advantage in this country?
    Dr. Freeman. Well, let me just respond. I think certainly 
in the general case, open science is still, by far, the best. 
The competitiveness that the United States--the competitive 
edge that the United States has, in many, many cases, is due 
specifically to very talented, very bright scientists and 
engineers who have chosen to come to this country to study at 
our universities and oftentimes stay so that open science----
    Mr. Smith of Michigan. Well, except in--that is changing 
very rapidly. They oftentimes choose to stay, but it is now a 
lesser option since 9/11, and so that should concern us.
    Dr. Freeman. In some--I quite agree that that is a concern, 
but as I noted in my opening remarks, the synergy that has 
existed between industry and basic research, for example, has 
been very productive. And we certainly want to see that 
continue.
    Mr. Smith of Michigan. Can I get your reaction from Ford 
Motor Company, Mr. Scarafino?
    Mr. Scarafino. I am in agreement. What we really need is 
access to the kind of computing capability that we can give to 
our engineers. And by giving them those kind of tools, I am 
very comfortable that they will know exactly how to make the 
best use of them. And we would remain--provide us with a way of 
being competitive, even if those tools are available other--in 
other places in this world.
    Mr. Smith of Michigan. Well, I did--let me wrap this up by 
saying, Dr. Freeman, it still concerns me when you said 
students from other countries come in and often stay here. 
Right now half of our research through NSF, for example, is 
done by foreign students. As we try to do what we can to 
stimulate interest and stimulation for American students to 
pursue math and science careers, the question earlier was asked 
who is--why is Japan developing these kind of high-end 
supercomputers instead of the United States. Can we expect in 
the future to see this kind of development, both of hardware 
and software, go to countries that give greater emphasis to 
math and science, whether it is China or whether it is India or 
some other country that tends to encourage and push students in 
that direction? Is--do you see that as the trend, Dr. Freeman?
    Dr. Freeman. Well, yes. If I may respond there, I certainly 
would agree with you that we need to get more Americans into 
science and engineering. And as you well know, that is one of 
the primary emphases of NSF across all fields. The computing 
field is also certainly one of those where we are doing 
everything we can to encourage more American students, not to 
exclude the foreigners that choose to come here, because indeed 
we need more people in general in the computing arena, but we 
certainly must get more American citizens into the pipeline.
    Mr. Smith of Michigan. Let us wrap this up. I--maybe if 
each one of you have a comment of advice for the Science 
Committee and for Congress in general in your arena, maybe if 
you have between 45 seconds or so just to--any last thoughts 
that you would like to pass on for the record for Congress and 
the Science Committee.
    Dr. Orbach. First, I would like to thank this committee 
very much for holding this hearing. I think you have brought 
out the key issues that we all are concerned with and we are 
very grateful for having this hearing. I would like to comment 
that on the competitiveness, American industry has always 
stepped up to the plate. And they are a partner in the 
development of high-end computation. And I think that is a very 
special American trait. If we can keep our industry a partner 
as we develop these new machines, I think it will show in the 
marketplace.
    Dr. Freeman. I would stress three things in closing: 
supercomputing is important; but secondly, it must be looked at 
and understood in the broader context that I believe all of us 
have addressed this morning of storage, networking, et cetera; 
and third, a very important topic that I believe has only been 
brought up in the last few moments is that of education. If we 
do not have the trained people, let alone to create such 
capabilities, but to utilize such capabilities to make sure 
that they are applied to, whether it is industry or the most 
advanced most basic research, if we do not have those people, 
then it makes no difference what type of supercomputers we 
have.
    Mr. Smith of Michigan. Dr. Reed.
    Dr. Reed. I think we are on the cusp of something truly 
amazing in what we can do with computational capabilities, some 
very fundamental questions that are as old as mankind are 
really close to being within our grasp. I think in order to 
capitalize on that, we have to look at the level of sustained 
commitment to build the kind of machines that will tackle those 
kinds of problems. I think that is going to require coordinated 
investment and activity R&D across the agencies. And I urge 
that, you know, we look carefully at how to make sure that 
happens so we can capitalize on the opportunity and maintain 
the kind of competitive edge that we have historically had.
    Mr. Scarafino. I would like to thank you for having this 
hearing. It is good to know that the country is understanding 
the importance of this area and is willing to basically make 
more progress in it.
    Mr. Smith of Michigan. Gentlemen, again, thank you for your 
time and consideration and your patience. With that, the 
Committee is adjourned.
    [Whereupon, at 12:31 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Raymond L. Orbach, Director, Office of Science, Department 
        of Energy

Questions submitted by Chairman Sherwood Boehlert

Q1a. At the hearing you spoke of developing and purchasing new 
supercomputers to be installed at Department of Energy (DOE) labs and 
of making these computers broadly available to U.S. researchers. When 
would such computers be installed and be open for general use?

A1a. Our IBM system at NERSC at Lawrence Berkeley National Laboratory 
is currently open for general use--and has recently been upgraded to 
over 6,000 processors, making it one of the largest machines available 
for open science. In fact, we are setting aside 10 percent of this 
resource for large problems with the potential for high scientific 
impact. All researchers, regardless of their source of funding may 
apply.
    We are currently evaluating a small Cray X1 system at the Center 
for Computational Sciences at Oak Ridge National Laboratory. As we 
transition from evaluation and research into broader use, this system 
will also be available. The initial evaluation is being done according 
to an open plan and involves many researchers from the general 
community already. Given the availability of additional funding, more 
capable systems could be made accessible as early as FY 2005.
    The Pacific Northwest National Laboratory recently announced that a 
new Hewlett-Packard supercomputer with nearly 2,000 processors has been 
installed in the Environmental Molecular Sciences Laboratory (EMSL) and 
is now available to users. As a National Scientific User Facility, the 
resources within the EMSL are available to the general scientific 
community to conduct research in the environmental molecular sciences 
and other significant areas.

Q1b. On these machines, would a certain percentage of the time be set 
aside for scientists associated with DOE? What priorities would 
determine who received what amount of time? What peer review mechanisms 
would be used to make awards?

A1b. A percentage of time on these machines would be set aside for 
scientists associated with DOE. We have procedures in place to allocate 
time on these resources--to both DOE and non-DOE scientists. The 
process is described below.
    We have an Office of Science allocation plan in place. It allocates 
time to our Associate Directors, who in turn allocate it to researchers 
who are working on their science programs.
    We have a peer review mechanism currently in place at NERSC. It has 
withstood the tests of time and we plan to continue to use it as long 
as it serves the community well.
    All Principal Investigators funded by the Office of Science are 
eligible to apply for an allocation of NERSC resources. In addition, 
researchers who aren't directly supported by DOE SC but whose projects 
are relevant to the mission of the Office of Science may apply to use 
NERSC.
    Four types of awards will be made in FY 2004.

1. Innovative and Novel Computational Impact on Theory and 
Experiment--INCITE Awards:

    Ten percent of the NERSC resources have been reserved for a new 
Office of Science program entitled Innovative and Novel Computational 
Impact on Theory and Experiment (INCITE), which will award a total of 
4.5 million processor hours and 100 terabytes of mass storage on the 
systems described at http://www.nersc.gov/. The program seeks 
computationally intensive research projects of large scale, with no 
requirement of current Department of Energy sponsorship, that can make 
high-impact scientific advances through the use of a large allocation 
of computer time and data storage at the NERSC facility. A small number 
of large awards is anticipated.
    Successful proposals will describe high-impact scientific research 
in terms suitable for peer review in the area of research and also 
appropriate for general scientific review comparing them with proposals 
in other disciplines. Applicants must also present evidence that they 
can make effective use of a major fraction of the 6,656 processors of 
the main high performance computing facility at NERSC. Applicant codes 
must be demonstrably ready to run in a massively parallel manner on 
that computer (an IBM system).
    Principal investigators engaged in scientific research with the 
intent to publish results in the open peer-reviewed literature are 
eligible. This program specifically encourages proposals from 
universities and other research institutions without any requirement of 
current sponsorship by the Office of Science of the Department of 
Energy, which sponsors the NERSC Center.

2. DOE Base Awards:

    Sixty percent of the NERSC resources that are allocated by DOE go 
to projects in the DOE Office of Science Base Research Program. DOE 
Base awards are made by the Office of Science Program Managers and 
DOE's Supercomputing Allocations Committee.
    The largest production awards are called Class A awards. These 
projects are each awarded three percent or more of NERSC resources; 
collectively they receive about 50 percent of the resources. In 
addition, they may receive extra support from NERSC, such as special 
visualization or consulting services.
    Class B DOE Base projects are awarded between 0.1 percent and three 
percent of NERSC resources.
    All DOE Base requests are reviewed by DOE's Computational Review 
Panel (CORP), which consists of computational scientists, computer 
scientists, applied mathematicians and NERSC staff. The CORP provides 
computational ratings to the DOE Program Managers on the computational 
approach, optimization, scalability, and communications characteristics 
of their codes. They rate how well the code description questions have 
been answered.
    Projects are rated on a scale of one to five.

3. SciDAC Awards:

    Twenty percent of the NERSC resources that are allocated by DOE go 
to Scientific Discovery through Advanced Computing (SciDAC) projects, 
which are a set of coordinated investments across all Office of Science 
mission areas with the goal of achieving breakthrough scientific 
advances via computer simulation that were impossible using theoretical 
or laboratory studies alone. SciDAC awards are made by the SciDAC 
Resource Allocation Management Team. SciDAC requests are not reviewed 
by the CORP.

4. Startup Awards:

    Less than one percent of the NERSC resources are awarded to 
principal investigators who wish to investigate using NERSC resources 
for new projects. For FY 2004, the maximum startup awards are 20,000 
processor hours and 5,000 Storage Resource Units. A request for a 
startup repository can be made at any time during the year; decisions 
for startup requests are made within a month of submission by NERSC 
staff and can last up to 18 months.

Q1c. Before the new supercomputers are installed, which DOE facilities 
(and what percentage of time on these facilities) will be available to 
researchers not receiving DOE grants or not working on problems 
directly related to DOE missions?

A1c. Currently, 10 percent of the time at NERSC is open to all 
researchers. The Office of Science program offices are free to go 
beyond that number when they allocate their portions of the resources: 
NERSC is currently the only production computing facility funded by 
ASCR. Should additional production resources become available, they 
will be allocated in a similar fashion. Time will also be made 
available on our evaluation machines, in a manner consistent with the 
accomplishment of the evaluation work.
    Because the new Hewlett-Packard supercomputer at PNNL is located 
within the EMSL, and the EMSL is a National Scientific User Facility, 
the new supercomputer is available to the general scientific community. 
Although non-DOE funded investigators may apply for time on the new 
system, applications must be relevant to the environmental problems and 
research needs of DOE and the Nation.

Q1d. Are you working with the National Science Foundation to ensure 
that scientists continually have access to a full range of high-
performance computing capabilities?

A1d. Yes. We have formal interactions with NSF (and other agencies) 
through the National Coordination Office under the auspices of OSTP, 
and numerous informal interactions in our planning and review process.

Q2. What is the level of demand for cycle time on all of the DOE 
Office of Science supercomputers? Which scientists and applications are 
users of the most time? How will you continue to support the DOE 
scientific communities and priorities while opening up machines to more 
general use?

A2. The level of demand for cycles on Office of Science computers is 
growing exponentially--increasing by an order of magnitude about every 
2.5 to 3 years. We are currently operating at full capacity, so 
managing our out-year demand for additional cycles will be challenging.
    Our biggest users include those scientists engaged in research on:

        Accelerator design for high energy physics;

        Quantum chromodynamics;

        Fusion energy;

        Climate simulations;

        Supernova simulations;

        Materials science; and

        Nuclear physics.

    Scientists in these research areas often use hundreds--and 
occasionally use thousands--of processors and use weeks to months of 
resource time.
    Continuing to support the DOE scientific communities and priorities 
while opening up machines to more general use will be a challenge. We 
are committed to staying this course--because our open science research 
depends on it. We will ensure that the resources are put to those uses 
which uniquely exploit them--and do the most to advance the frontiers 
of science.

                   Answers to Post-Hearing Questions

Responses by Peter A. Freeman, Assistant Director, Computer and 
        Information Science and Engineering Directorate, National 
        Science Foundation

Questions submitted by Chairman Sherwood Boehlert

Q1. Witnesses at the hearing and staff at the Office of Science and 
Technology Policy have indicated that the National Science Foundation 
(NSF) may be underfunding research on new architectures for high-
performance computing. How much is NSF spending in this area? How did 
you determine this spending level? How does this level of funding 
relate to your assessment of the need for research in this area? Are 
any other agencies or companies funding this sort of research? To what 
extent are NSF's programs coordinated with these other activities? If 
NSF does not invest more in this area, are other agencies or private 
entities likely to fill the gap?

A1. NSF funding impacting new architectures for high-performance 
computing can be tallied in several ways. In the narrowest sense, 
funding that may lead most directly to new computer processors is 
estimated to be around $5 million in FY 2003. Funding at this level is 
provided from the Computer Systems Architecture program.
    In addition to specific research on computer systems architectures, 
NSF supports research and education in other areas critical to progress 
in high-end computing, including algorithms, software, and systems. 
Algorithmic research is essential to enable the transformation of 
traditional sequential algorithms into parallel ones, and to find 
algorithms for new classes of problems and new types of architectures. 
Research on compilers, operating systems, networking, software 
development environments, and system tools, is also essential if high-
end computing is to succeed. It is difficult or impossible to separate 
out which of this research is directly applicable to high-end 
computing, but we estimate it to be at least $50M in FY03.
    In the broadest sense, NSF funding of the Extensible Terascale 
Facility can be viewed as research on a specific architecture for high-
performance computing. As detailed below,
    $126M has been spent on this advanced R&D project to date. The high 
level objective is to show the feasibility of providing high-
performance computing capability via a highly-interconnected, 
distributed set of computational resources.
    In addition to this well-defined project, NSF invests in higher-
risk, longer-term research to ensure that innovation is possible years 
from now. Examples showing promise for high performance computing 
applications include nanoscale science and engineering, quantum 
computing, and bio-inspired computing. NSF investments in these areas 
are in excess of $100 million.
    As with all NSF investments, funding levels for computer systems 
architecture-related activities have been and continue to be determined 
by a combination of inputs from the communities using high-performance 
computing in their research, communities with expertise in developing 
architectures and their supporting technologies, interactions with 
other agencies, inputs from Congress, and the funds that are available.
    NSF's investments in high-end-computing-related research complement 
investments in computer system architectures, algorithms, parallel 
software, etc. being made by other federal agencies, especially DARPA, 
DOD, DOE, and by industry. As in other fields of science and 
engineering, NSF draws upon partnership efforts to leverage these 
investments. Specifically in the area of high-end computing they are 
coordinated through the High-End Computing program component area of 
the Networking and Information Technology Research and Development 
(NITRD) Working Group. This partnership has recently been strengthened 
through the focused activities of the High-End Computing Revitalization 
Task Force.
    As part of the NITRD interagency coordination effort, NSF is 
considered to have over $200M in ``high-end computing infrastructure 
and applications'' and nearly $100M in ``high-end computing research 
and development.''
    Finally, NSF capitalizes upon the outcomes of Federal Government-
supported nearer-term high-end computing research and development 
activities enabled by its sister agencies, in the support and 
deployment of high-end computing systems like those currently provided 
by the National Center for Supercomputing Applications (NCSA), the San 
Diego Supercomputing Center (SDSC), the Pittsburgh Supercomputing 
Center (PSC) and the National Center for Atmospheric Research (NCAR) to 
meet the research and education user needs of the broad science and 
engineering community.
    Historically, mission-oriented agencies such as DOD and DOE have 
driven investment in the development of operational high-end 
architectures, with NSF providing the longer-term, higher-risk 
investments in the basic research and education that must support these 
operational developments. Industry has responded to the development of 
new architectures primarily in response to markets, either commercial 
or governmental. This balanced approach, with swings back and forth 
between more or less investment in the long-term, has worked well in 
the past. With appropriate adjustments in response to validated needs, 
we believe it will continue to work well in the future.

Q2. Different scientific applications need different types of 
supercomputers, and scientists from many fields use the supercomputing 
capabilities supported by NSF within CISE. What role does input from 
these different scientific communities play in the decisions about what 
types of high-performance computing capabilities are supported by CISE?

A2. As the question indicates, different scientific applications need 
and prefer different types of supercomputing capabilities. NSF's 
support for high performance computing in service of science and 
engineering research and education has been driven by the diverse 
scientific opportunities and applications of the user community. 
Informed by user community needs, NSF supports a wide range of high 
performance computing system architectures.\1\ The centers and other 
facilities supported by NSF are close to the end-users and thus the 
decisions as to what capabilities to provide are being made as close as 
possible to the community.
---------------------------------------------------------------------------
    \1\ Experience has shown that the needs of the community are quite 
diverse, and cannot effectively be met by providing only a single type 
of system.
---------------------------------------------------------------------------
    NSF continues to be the largest provider of access to a diverse set 
of supercomputing platforms for open academic science and engineering 
research and education in the U.S. In FY 2002, NSF provided over 152 
million normalized service units to over 3,000 users involved in 1200 
active awards. NSF's user community includes large numbers of NIH-, 
NASA- and DOE-funded scientists and engineers.
    Examples of the range of computing platforms provided through NSF 
support are described below:

        1. Many NSF users prefer shared memory architecture systems 
        with from 32 to 128 processors with large amounts of memory per 
        processor, since their research codes are not scalable to 
        several thousand processors. That is why NSF provides access to 
        a significant number of large memory 32-way IBM Power 4 
        systems, all of which are continuously over-subscribed. A new 
        128 way SMP HP Marvel system is also being installed at PSC.

        2. At present, there are on the order of 30 research groups 
        that use NSF-supported supercomputers and have developed highly 
        scalable codes capable of efficiently using systems comprised 
        of thousands of processors, such as the NSF-supported Terascale 
        Computing System (TCS) at PSC. High allocation priority is 
        given to researchers who have developed such research codes. In 
        FY 2002, for example, 5 users accounted for 61 percent of the 
        usage of TCS, for projects in particle physics, materials 
        research, biomolecular simulations and cosmology.

        3. Driven by a user community need to run very long jobs 
        requiring large numbers of processors, NCSA, with NSF funding, 
        will deploy an Intel Xeon-based Linux cluster with a peak 
        performance of 17.7 teraflops. This 2,900 processor Linux-based 
        system will be dedicated to users who need large numbers of 
        processors for simulations that may require up to weeks of 
        dedicated time.

        4. Another new system, driven again by user needs, is the SDSC 
        DataStar, a 7.5 teraflop/s IBM Regatta system that will be 
        installed this fall. This system will leverage SDSC's 
        leadership in data and knowledge systems to address the growing 
        importance of large-scale data in scientific computing. The new 
        system will be designed to flexibly handle both data-intensive 
        and traditional compute-intensive applications. SDSC's Storage 
        Area Network, or SAN, will provide 500 terabytes of online 
        disk, and six petabytes of archival storage.

        5. As one of the world's first demonstrations of a 
        distributed, heterogeneous grid computing system, the NSF-
        supported Extensible Terascale Facility (ETF) will provide 
        access to over 20 teraflops of computing capability by the end 
        of FY 2004. ETF provides a distributed grid-enabled 
        environment, with the largest single compute cluster being a 10 
        teraflop IA-64 Madison cluster at NCSA. This system will 
        provide an integrated environment that provides unparalleled 
        scientific opportunity to the science and engineering 
        community.

Q3. What is the level of demand for cycle time on each of the NSF-
supported supercomputers? Which scientists and applications are users 
of the most time? Is the demand growing? Do you have a plan to provide 
the capabilities to meet existing and future levels of demand?

A3. Table 1 below describes current demand based on the number of CPU 
hours available, the number requested and the number of CPU hours 
allocated during FY 2003. The resources are allocated by a National 
Resource Allocation Committee (NRAC) that meets twice per year. Table 1 
contains allocations for all CISE-supported systems, some of which are 
located at SDSC, NCSA and PSC, others of which are located at other 
partner sites. In general the ratio of requested to allocated CPU hours 
ranges from 1.4-2.1. Additionally, while it is not a PACI site, the 
National Center for Atmospheric Research (NCAR) supercomputer has a Top 
500 ranking of 13.\2\
---------------------------------------------------------------------------
    \2\ http://www.top500.org/dlist/2003/06/

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Table 2 overleaf provides a ranked listing of the top 25 users who 
received allocations on these systems\3\ in FY 2002. Their utilization 
is quoted in normalized service units, taking into account the 
differential capabilities of the systems. Each investigator generally 
has accounts on multiple systems. They cover a broad range of 
disciplines including: particle physics, protein biomolecular 
simulations, severe storm prediction, and engineering. Many of the 
users of NSF-supported supercomputing centers receive research funding 
from NIH and DOE. Many of the DOE-funded researchers also obtain 
significant allocations through NERSC at LLBL.
---------------------------------------------------------------------------
    \3\ These resources are under-subscribed by the geosciences 
research community since the majority of that community uses NSF-
supported NCAR supercomputing capabilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Demand for supercomputing resources continues to grow each year. It 
has increased from 20 million CPU hours in FY 1999 to over 60 million 
CPU hours in FY 2002. During that same period of time the capacity 
within NSF-supported supercomputer centers has increased from 10 
million CPU hours in FY 1999 to 45 million in FY 2002. Anticipated 
capacity in 2003 is 62 million CPU hours. With the installation of the 
Dell cluster at NCSA in the current FY, the installation of DataStar at 
SDSC by early next year, and the completion of ETF construction by the 
end of FY 2004, the combined capacity will grow by an additional 55 
---------------------------------------------------------------------------
million CPU hours (almost doubling the capacity) by the end of FY 2004.

Q4. Do you plan to provide funding for the purchase of new 
supercomputers for the supercomputing centers?

A4. NSF's commitment to providing enhanced support for state-of-the-art 
high-performance computing, in the context of cyberinfrastructure, 
remains exceedingly strong. Following the trends of the last few 
decades, the agency anticipates providing strong support for technology 
refresh and upgrade of existing NSF-supported high performance 
computing resources for the foreseeable future.

Q5. How is NSF working with the department of Energy (DOE) Office of 
Science to ensure that scientists have access to a full range of high-
performance computing capabilities? What are the short-term and long-
term plans to provide this full range of capabilities?

A5. Building on a strong interagency partnership that focuses on high-
end computing, NSF is continuing to work closely with DOE to provide 
high performance computing capabilities to the broad science and 
engineering community. NSF and DOE staff meet regularly through both 
formal (like NITRD and the High-End Computing Revitalization Task 
Force) and informal processes to discuss and coordinate current and 
future plans.
    Demonstrating the strength of this relationship, in the first 
instantiation of ETF, NSF made an award to four institutions that 
included Argonne National Laboratory (ANL). The ANL component of ETF 
supported the construction of a 1.25 teraflop IA-64 system with a 96-
processor visualization engine and 20 TB of storage. The award also 
drew upon essential grid computing expertise available at ANL. In FY 
2002 NSF funded the second phase of ETF, in an award that also drew 
upon expertise at ANL. Rick Stevens from ANL is the current ETF Project 
Director and Charlie Catlett from ANL is the ETF Project Manager.
    Before the end of FY 2003, NSF plans to make an award to Oak Ridge 
National Laboratory, to interconnect the DOE-funded Spallation Neutron 
Source and other resources available on the Extensible Terascale 
Facility. This award, as with all NSF awards, was identified through 
merit review and will provide unique scientific opportunities for the 
science and engineering user community.
    NSF has already demonstrated a willingness to share NSF-supported 
computational resources with a number of other federal agencies, 
including DOE and NIH. For example, the 89 PIs submitting proposals for 
review to the FY 2003 NRAC allocation meetings cited the following 
sources of research funding (several PIs had multiple sources of 
funding): NSF (55), NASA (19), NIH (19), DOE (18), DOD (11), DARPA (4), 
NOAA (1), NIST (1), and EPA (1). Five of the PIs listed DOE as their 
sole source of research support, three listed NIH as their sole source 
of support and two listed NASA as their sole source of support. 
Thirteen PIs listed no federal sources of support.

Questions submitted by Representative Ken Calvert

Q1. Cyberinfrastructure is by its nature pervasive, complex, long-
term, and multi-institutional. The National Science Foundation's 
(NSF's) cyberinfrastructure effort will require persistence through 
many machine life-cycles and software evolutions, and across multiple 
institutions and the staff associated with them.

Q1a. How will the programs that NSF's Computer and Information Science 
and Engineering (CISE) Directorate creates to accomplish its 
cyberinfrastructure vision address the challenges associated with 
complex programs and how will the directorate manage the multi-
institutional and long-term collaborative projects?

A1a. Dating back to the 1980's, NSF has sought to match the supply and 
power of computational services to the demands of the academic 
scientific and engineering community. The increasing importance of 
computation and now cyberinfrastructure to scientific discovery, 
learning and innovation, has guided our strategy to accomplish this. 
This increasing importance, which has been fueled by advances in 
computing-communications and information technologies, has led to a 
number of programmatic changes over the years. For instance, the 
Partnerships for Advanced Computational Infrastructure (PACI) program 
was developed to meet an increased demand for computing-related 
services and assistance to accompany the raw computing power 
enhancements that technological innovation had provided.
    The formulation of a cyberinfrastructure vision represents a new 
set of opportunities, driven by the needs of the science and 
engineering community and the capabilities that further technological 
innovation have provided. NSF will build upon the scientific and 
programmatic expertise and capability developed over the past few 
decades to meet the needs of the largest number of science and 
engineering researchers and educators.
    Promising management approaches, designed to engage multiple 
institutions in long-term collaborative projects, are currently being 
discussed in collaboration with the science and engineering community. 
A number of workshops and town hall meetings, which included 
representatives from academe, other federal agencies and international 
organizations, were held over the summer of 2003 to discuss promising 
approaches.

Q1b. How will NSF and CISE address the need to provide support 
overtime and institutions so that investments in facilities and 
expertise can effectively be leveraged?

A1b. As indicated above, promising management approaches, designed to 
engage multiple institutions in long-term collaborative projects, are 
currently being discussed in collaboration with the science and 
engineering community. A number of workshops and town hall meetings, 
which included representatives from academe, other federal agencies and 
international organizations, were held over the summer of 2003 to 
discuss promising approaches. Our goal is to use the most promising 
approaches identified to ensure that investments in facilities and 
expertise can be effectively leveraged.

Q2. NSF has already announced that the current Partnership for 
Advanced Computational Infrastructure (PACI) program will end at the 
end of fiscal year 2004, and that the new program for TeraGrid partners 
will begin in fiscal year 2005. However this is less than 15 months 
away and the supercomputing centers have not heard information about 
the objectives, structure or recommended budgets for the program.

Q2a. LWhat is the schedule for developing these plans and what can you 
tell us now about plans for this or other related programs?

A2a. NSF plans to issue detailed guidance to SDSC, NCSA and PSC during 
the fall of 2003. Guidance will include discussion of means of support 
to be provided for both ETF, in which SDSC, PSC and NCSA are partners 
together with other organizations, and for other high performance 
computing resources and services provided by these centers under NSF 
support. Some discussions with senior SDSC, PSC and NCSA personnel have 
already taken place.

Q2b. Will NSF's plans be consistent with the recommendation from the 
Atkins report, which states in Section 5.3 that ``the two existing 
leading-edge sites (the National Center for Supercomputing Applications 
and the San Diego Supercomputing Center) and the Pittsburgh 
Supercomputing Center should continue to be assured of stable, 
protected funding to provide the highest-end computing resources?

A2b. NSF plans are consistent with the recommendations of the Atkins 
report in that stable funding for NCSA, SDSC and PSC is anticipated to 
provide high performance computing capabilities to the science and 
engineering community.

Q2c. The Atkins report also assumes the centers would operate with an 
annual budget of approximately $75 million per center. Is this the 
direction NSF envisions for this program and if so, when is this level 
of support expected to start and how long will it last?

A2c. NSF is currently developing a five-year planning document for 
cyberinfrastructure. The development of this plan is informed by the 
recommendations of the Atkins report, as well as other community input. 
The first edition of the plan, which will be a living document, should 
be available in 2004.

Questions submitted by Representative Ralph M. Hall

Q1. The National Science Foundation (NSF) blue ribbon panel on 
cyberinfrastructure needs, the Atkins Panel, which issued its report 
this past February, emphasized that NSF has an important role in 
fostering development and use of high performance computers for broad 
research and education in the sciences and engineering. The Atkins 
report strongly recommended that U.S. academic researchers should have 
access to the most powerful computers at any point in time, rather than 
10 times less powerful, ``as has often been the case in the last 
decade,'' according to the report. To provide the research community 
with this level of capability, the report recommends funding 5 centers 
at a level of $75 million each, of which $50 million would be for 
hardware upgrades needed to acquire a major new system every 3 or 4 
years.

Q1a. What is your response to this recommendation that NSF provide the 
resources necessary to ensure that high-end computing systems are 
upgraded with regularity to insure that the research community has 
access to leading edge computers at all times?

A1a. NSF recognizes that technology refresh is very important in order 
to keep high-end computing resources and hence related science and 
engineering research and education, at the state of the art. Over the 
past five years, NSF has demonstrated its commitment to doing so. Table 
3 below provides evidence that this is the case.

Q1b. What level of funding has NSF provided over the past 5 years for 
upgrading the high-end computer systems at its major computer centers? 
What is NSF's current plan for support of high-end computer centers for 
providing hardware upgrades needed to keep them at the leading edge 
(break out funding by categories for operations and maintenance and 
hardware upgrades)?

A1b. With funding provided through the PACI program and through the 
Terascale Initiative, NSF has invested over $210 million on hardware 
and integrated software upgrades and renewal over the past five years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The agency remains committed to technology refresh and upgrades, 
recognizing that this is essential to realize the promise of the 
cyberinfrastructure vision.

Q1c. You have announced a reorganization of the Computer and 
Information Science and Engineering Directorate that combines the 
computer and network infrastructure divisions. Will support for the 
operation of state-of-the-art high-end computing facilities continue 
under this reorganization, or does this signal a change in the 
priorities? Will funding for FY 2003 and FY 2004 for Partnerships for 
Advanced Computational Infrastructure (PACT) centers increase, decrease 
or stay the same under this reorganization relative to FY 2002 funding 
levels?

A1c. The reorganization of CISE does not signal a change in priorities. 
It has been proposed in order to support the ever-broadening meaning of 
``state-of-the-art high-end computing facilities'' that the 
cyberinfrastructure vision illuminates. Support for operations of NSF's 
state-of-the art high-end computing facilities will continue and grow 
under this reorganization. The reorganization will provide the CISE 
directorate with a more focused and integrated organization to deal 
with the deployed computational, networking, storage and middleware 
infrastructure essential to cyberinfrastructure.

Q2. You pointed out in your testimony that high-end computing is only 
one component of deploying an advanced cyberinfrastructure needed for 
the advancement of science and engineering research and education. Are 
you satisfied with the priority afforded high-end computing in the 
current NSF budget that supports cyberinfrastructure development and 
deployment?

A2. High-end computing is essential to the progress of science and 
engineering. NSF's budget requests and investments are designed to 
recognize the crucial role cyberinfrastructure plays in enabling 
discovery, learning, and innovation across the science and engineering 
frontier. While need continues to outstrip the available resources, NSF 
budget requests continue to be very responsive to the needs of the 
community.

Q3. What do you see NSF's role relative to the Defense Advanced 
Research Projects Agency and the Department of Energy in supporting 
research related to the development and use of future U.S. academic 
research community? What portion of your directorate's budget would you 
expect to allocate for these purposes?

A3. As in other fields of science and engineering, NSF draws upon 
partnership efforts to leverage its investments in cyberinfrastructure. 
For example, the agency's partnership with other federal agencies in 
the area of high-end computing and networking is nurtured through the 
High End Computing program component area of the Networking and 
Information Technology Research and Development (NITRD) Working Group. 
This partnership has recently been strengthened through the focused 
activities of the High-End Computing Revitalization Task Force.
    These partnership activities strengthen the management and 
coordination of relevant programs and activities to increase the return 
on current investments and to maximize the potential of proposed 
investments. NSF leverages nearer-term high-end computing research and 
development programs funded by DARPA, DOD and DOE, where government-
industry partnerships often create new generations of high-end 
programming environments, software tools, architectures, and hardware 
components to realize high-end computing systems that address issues of 
low efficiency, scalability, software tools and environments, and 
growing physical constraints. By drawing upon its effective interagency 
relationships, NSF avoids duplication of effort. NSF focuses its 
investments in higher-risk, longer-term research investments to ensure 
that the new innovation is possible years from now. Examples of current 
high-risk, longer-term basic research showing promise for high 
performance computing applications include nanoscale science and 
engineering and bio-inspired computing.
    Finally, NSF capitalizes upon the outcomes of Federal Government-
supported nearer-term high-end computing research and development 
activities enabled by its sister agencies, in the support and 
deployment of high-end computing systems like those currently provided 
by the National Center for Supercomputing Applications (NCSA), the San 
Diego Supercomputing Center (SDSC), the Pittsburgh Supercomputing 
Center (PSC) and the National Center for Atmospheric Research (NCAR) to 
meet the research and education user needs of the broad science and 
engineering community.
    In preparing its annual budget request, the agency gives careful 
consideration to funding provided for cyberinfrastructure. As the 
agency focuses increasing attention on cyberinfrastructure, it is 
likely that the funds dedicated to the development of an enabling, 
coherent, coordinated cyberinfrastructure portfolio will grow, in 
recognition of the importance of cyberinfrastructure to all of science 
and engineering.

                   Answers to Post-Hearing Questions

Responses by Daniel A. Reed, Director, National Center for 
        Supercomputing Applications, University of Illinois at Urbana-
        Champaign

Questions submitted by Representative Ralph M. Hall

Q1. You cited in your testimony the National Science Foundation (NSF) 
blue ribbon panel report that recommended a funding level of $75 
million per year to enable a supercomputer center to always have a 
state-of-the-art computer. What is the annual funding level provided by 
NSF for your center at present, and how has it varied over time? What 
has been the funding trend for hardware upgrades?

A1. For FY 2003, we anticipate receiving $34,650,00 for the sixth year 
of the NSF cooperative agreement for the National Computational Science 
Alliance (Alliance), one of two Partnerships for Advanced Computational 
Infrastructure (PACI).\1\ I have attached a chart that shows the 
funding history for NCSA (the leading edge site of the Alliance) and 
the Alliance from FY 1998 through FY 2004 (which is an estimate based 
on our program plan for the coming year).
---------------------------------------------------------------------------
    \1\ The cooperative agreement for the other partnership, the 
National Partnership for Advanced Computational Infrastructure (NPACI) 
is similar.
---------------------------------------------------------------------------
    As the chart illustrates, NSF funding for the Alliance was $29 
million in FY 1998, $34.3 million in FY 1999, $33.7 million in FY 2000, 
$35.17 million in FY 2001 and $35.25 million in FY 2002. The annual 
funding level has remained relatively flat throughout the program's 
lifetime, and we anticipate the FY 2004 total will be $33.5 million, 
about $1 million less than FY 2003.
    I have also included the budget for hardware during this six-year 
period. In the initial years of the program, software and maintenance 
were included in the hardware budget line; this cost was moved to the 
operations budget in FY 2000. As one can see, the hardware budget 
includes not only funds for supercomputing (capability computing) 
hardware, but also support for data storage, networking, desktop 
support, Access Grid (distributed collaboration) and audio/visual 
support, and testbed systems.
    The support specifically for supercomputing hardware has varied. In 
FY 2001, supercomputing hardware was funded at $9.08 million, in the 
current year $11.795 million has been allocated, and the FY 2004 
request is for $8.63 million. Funding for hardware upgrades (i.e., the 
annual hardware budget) has remained fat, varying between $13 and $15 
million.
    It is important to note that when the PACI program began, its 
participants expected overall NSF support to increase annually during 
the program's ten-year lifetime (i.e., at a minimum to reflect standard 
inflation). The original request for FY 1998 from NSF was $34.988 
million, and we anticipated it would grow to $49.271 million by FY 
2002. That steady growth never materialized, despite substantial 
increases in human resource costs during that time. Hence, the Alliance 
and NCSA (and its sister institutions SDSC and NPACI) have experienced 
de facto annual budget cuts.
    In addition, NCSA, in collaboration with partners at the San Diego 
Supercomputing Center, Argonne National Laboratory, and the California 
Institute of Technology, was chosen by NSF to create the Distributed 
Terascale Facility or TeraGrid.\2\ This three-year award, totaling $53 
million, has provided $19,450,500 to NCSA for hardware, storage, 
networking and software support. This is, however, substantially less 
than an annual ``cost of living'' adjustment would have provided in 
aggregate.
---------------------------------------------------------------------------
    \2\ The Pittsburgh Supercomputing Center was added in 2002.

Q2. A reorganization has been announced for the NSF Computer and 
Information and Engineering Directorate that combines the computer and 
network infrastructure divisions. Have you seen any evidence of how 
this reorganization will affect the Partnerships for Advanced 
Computational Infrastructure (PACI) program, and your center in 
---------------------------------------------------------------------------
particular?

A2. The NSF's announcement of the CISE Directorate reorganization is 
relatively recent. There are not yet enough organizational or funding 
details for substantive assessment.
    NSF has announced that the PACI program will end on September 30, 
2004--just over one year from now. We do not know, with any 
specificity, the nature of NSF's plans for high-end computing in FY 
2005 and beyond. The cyberinfrastructure panel, which was charged by 
NSF with evaluating the centers and outlining future directions, 
recommended long-term, stable funding for the existing centers and an 
expansion of investments in computing infrastructure. However, to date, 
we have no specific information on NSF plans, out-year budget requests, 
or the process by which funding would be secured.
    With the announced end of the PACI program only a year away and the 
details of successor structures not yet known, NCSA, our partner 
institutions within the Alliance, and those at the San Diego 
Supercomputer Center and the Pittsburgh Supercomputing Center, remain 
concerned about the future. We strongly believe NSF must continue to 
make significant annual investments in high-end computing if the 
national research community is to have access to the most powerful 
computational resources. Only with these investments can the research 
community address breakthrough scientific problems and maintain 
international leadership.

Q3. You pointed out the importance of deep involvement and coordinated 
collaboration of computer vendors, national labs and center, and 
academic researchers, along with multi-agency investments, to develop 
and deploy the next generation of high-end computer systems. What is 
your assessment of the current state of coordination in this area, and 
what recommendations do you have on how to improve the situation?

A3. During the early days of the HPCC program, cross-agency activities 
were somewhat more coordinated than they are now. Hence, my personal 
view is that there has not been coordinated collaboration on the 
development of high-end computing systems across the Federal Government 
for several years. Some of this compartmentalization is understandable, 
given the differing missions and goals of the several agencies 
(Department of Defense, National Security Agency, Department of Energy, 
National Science Foundation, National Aeronautics and Space 
Administration, the National Institutes of Health and others) that 
sponsor research in high-end computing and acquire and utilize high-end 
computing systems.
    As I testified at the hearing, the activities of the current High 
End Computing Revitalization Task Force (HECRTF) are encouraging. 
Charting a five-year plan for high-end computing across all relevant 
federal agencies involved in high-end computing research, development, 
and applications is critical to the future of high-end computing 
research, computational science and national security. I was pleased to 
lead the community input workshop for HECRTF, and I am hopeful the 
views and suggestions of research community will be incorporated into 
the vision and recommendations of the Task Force.
    However, I believe success rests on more than budgetary 
coordination. We must also ensure that insights and promising ideas 
from basic research in high-performance computing are embraced and 
developed as advanced prototypes. Successful prototypes should then 
transition to production and procurement. Greater interagency 
coordination is needed to ensure such transitions occur.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



             Additional Statement by Dr. Raymond L. Orbach

    There are two aspects to this question: the extent to which 
supercomputing will aid or accelerate development of nanotechnology 
(through, e.g., modeling and simulation of nanostructures), and the 
extent to which nanotechnological advances will contribute to 
supercomputing in Japan.
    With respect to the first issue, there is no question that 
supercomputers will allow more detailed, complete, and accurate 
modeling of larger collections of atoms, and permit simulations to 
cover longer time periods. Both of these capabilities are critical in 
connecting basic theory to practical experimental data about assembly, 
structure, and behavior of materials at the nanoscale. There are in 
fact research projects using Japan's Earth Simulator that address such 
questions, such as one entitled ``Large-scale simulation on the 
properties of carbon-nanotube'' (Kazuo Minami, RIST).
    With respect to the impact of Japanese nanotechnology on Japanese 
supercomputing, the technology appears to not be sufficiently mature 
for a major impact in the next few years. Nanotechnology products are 
beginning to head into the marketplace and will affect the computing 
industry; examples can certainly be found both in Japanese and in 
American companies. (From Japan, NEC recently announced that they 
intend to use fuel cells based on a form of carbon nanotube to extend 
battery cycles in notebook computers from 4 to 40 hours. A recent U.S. 
example is the development by Motorola of a technology to produce large 
flat panel displays based on electron emission from carbon nanotubes, 
for which they are in the process of negotiating licensing agreements.) 
However, these are currently targeted at the consumer electronics 
market and may not have immediate impact on supercomputing. For the 
latter, developments in areas such as heat conduction using nanoscale 
technologies may have an impact by facilitating cooling of 
supercomputer architectures.
    Beyond the end of the silicon semiconductor ``roadmap,'' in another 
10-15 years, the development of molecular electronics may begin to have 
an impact on all forms of computing. Predictive computer modeling of 
molecular electronics may well be essential for design and 
manufacturability of such structures, just as computer-aided design has 
proven critical to the development of current-day circuits.

</pre></body></html>
